<html>
<title> - THE NEEDS AND CHALLENGES OF TRIBAL LAW ENFORCEMENT ON INDIAN RESERVATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                       THE NEEDS AND CHALLENGES
                       OF TRIBAL LAW ENFORCEMENT
                        ON INDIAN RESERVATIONS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           Friday, June 1, 2007, in Lower Brule, South Dakota

                               __________

                           Serial No. 110-28

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-020                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Stevan Pearce, New Mexico
Rush D. Holt, New Jersey             Henry E. Brown, Jr., South 
Raul M. Grijalva, Arizona                Carolina
Madeleine Z. Bordallo, Guam          Luis G. Fortuno, Puerto Rico
Jim Costa, California                Cathy McMorris Rodgers, Washington
Dan Boren, Oklahoma                  Bobby Jindal, Louisiana
John P. Sarbanes, Maryland           Louie Gohmert, Texas
George Miller, California            Tom Cole, Oklahoma
Edward J. Markey, Massachusetts      Rob Bishop, Utah
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Dean Heller, Nevada
Patrick J. Kennedy, Rhode Island     Bill Sali, Idaho
Ron Kind, Wisconsin                  Doug Lamborn, Colorado
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

     

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, June 1, 2007.............................     1

Statement of Members:
    Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
      from the State of South Dakota.............................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bordeaux, Rodney M., President, Rosebud Sioux Tribe, Rosebud, 
      South Dakota...............................................    39
        Prepared statement of....................................    42
    Brings Plenty, Joseph, Sr., Chairman, Cheyenne River Sioux 
      Tribe, Eagle Butte, South Dakota...........................    48
        Prepared statement of....................................    53
    Cournoyer, Robert W., Chairman, Yankton Sioux Tribe, Marty, 
      South Dakota...............................................   106
        Prepared statement of....................................   108
    Estes, Ben, Special Agent with the Rosebud Sioux Tribe 
      attached to the Northern Plains Drug Task Force............    68
    Fire Thunder, Cecelia, Coordinator, Cangleska, Inc., Kyle, 
      South Dakota, Oral statement of............................    94
    Fool Bear, Archie, Chairman, Judicial Committee, Standing 
      Rock Sioux Tribe, Fort Yates, North Dakota.................   109
        Prepared statement of....................................   112
    Gaikowski, Gary, Chief of Police, Law Enforcement Department, 
      Sisseton Wahpeton Oyate, Agency Village, South Dakota......    58
        Prepared statement of....................................    61
    Jandreau, Michael B., Chairman, Lower Brule Sioux Tribe, 
      Lower Brule, South Dakota..................................     9
        Prepared statement of....................................    10
    Little Shield, Georgia, Director, Pretty Bird Woman House, 
      Standing Rock Reservation, McLaughlin, South Dakota........    89
        Prepared statement of....................................    90
    Pollack, Carol, Researcher, Amnesty International U.S.A., New 
      York, New York.............................................    79
        Prepared statement of....................................    80
    Ragsdale, W. Patrick, Director, Bureau of Indian Affairs, 
      U.S. Department of the Interior, Washington, D.C...........     5
        Prepared statement of....................................     6
    Steele, John Yellowbird, President, Oglala Sioux Tribe, Pine 
      Ridge, South Dakota........................................    30
        Prepared statement of....................................    33
        ``Treaty Tribes Located in the State of South Dakota,'' 
          Congressional Record, dated September 30, 2002.........   118
    Thompson, Lester, Jr., Chairman, Crow Creek Sioux Tribe, Ft. 
      Thompson, South Dakota.....................................    12
        Prepared statement of....................................    13
    Twiss, James, Chief of Police, Oglala Sioux Tribe, Pine 
      Ridge, South Dakota........................................    37

Additional materials supplied:
    Artichoker, Karen, Director, Cangleska, Inc., Kyle, South 
      Dakota, Statement submitted for the record.................    96
    Hill, Brenda, Native Co-Chair, South Dakota Coalition Against 
      Domestic Violence And Sexual Assault, Pierre, South Dakota, 
      Statement submitted for the record.........................    92
    Selvage, Michael I., Sr., Tribal Chairman, Sisseton Wahpeton 
      Oyate, Agency Village, South Dakota, Statement submitted 
      for the record.............................................    64


  OVERSIGHT FIELD HEARING ON ``THE NEEDS AND CHALLENGES OF TRIBAL LAW 
                  ENFORCEMENT ON INDIAN RESERVATIONS''

                              ----------                              


                          Friday, June 1, 2007

                     U.S. House of Representatives

                     Committee on Natural Resources

                       Lower Brule, South Dakota

                              ----------                              

    The Committee met, pursuant to call, at 12:15 p.m., at the 
Lower Brule Tribal Headquarters, 187 Oyate Circle, Lower Brule, 
South Dakota, Hon. Stephanie Herseth Sandlin presiding.
    Members Present: Representative Herseth Sandlin.
    Staff Present: Cynthia L. Freeman, Clerk, Office of Indian 
Affairs; Janet Erickson, Counsel; Chris Fluhr, Staff Director; 
and Phil Asmus, Legislative Assistant to Ms. Herseth Sandlin.

      STATEMENT OF THE HON. STEPHANIE HERSETH SANDLIN, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth Sandlin. The House Natural Resources Committee 
field hearing will now come to order.
    Good afternoon to all of you. I'm very pleased to be here 
today to convene this field hearing which follows a string of 
Natural Resources Committee oversight hearings in Washington, 
D.C., but has the important distinction of being the 
Committee's first Native American focused field hearing in the 
110th Congress.
    Though he isn't here today, I would like to extend a word 
of thanks to Chairman Nick Rahall for his leadership in this 
Congress and his willingness to support this.
    I also want to extend my appreciation to Ranking Member Don 
Young of Alaska, who has a long record of service to his state, 
to Alaska Natives, and to all Native Americans.
    Additional thanks are certainly due to the Natural 
Resources Committee staff who worked with my office to 
schedule, organize, and prepare for this hearing. And I want to 
introduce them, Janet Erickson, Cynthia Freeman, Chris Fluhr, 
and certainly to the Lower Brule Sioux Tribe and all of those 
who worked with us and have graciously offered to host this 
hearing in the beautiful tribal headquarters.
    I want to thank each of our witnesses who have taken the 
time to travel here today and who have such important 
leadership roles within their communities and within the 
administration.
    I want to acknowledge and thank Tonya Peterson from Senator 
Johnson's office as well as Jeannie Faber from Senator Thune's 
office and both of our senators for their interest and their 
dedication to these issues as well.
    The focus of today's hearing is law enforcement in Indian 
Country and this oversight opportunity is long overdue. I've 
been repeatedly alarmed by reports from tribal leaders across 
South Dakota both during meetings in Washington and through my 
own travels back in the state.
    Last summer, almost one year ago, I toured the jail 
facilities both here in Lower Brule and across the river in 
Fort Thompson on the Crow Creek Indian Reservation. At that 
time neither tribe was left with a working detention facility 
and I'm deeply troubled by the fact that the same situation 
remains in effect today.
    I look forward to the testimony from our first panel which 
will include testimony from the two tribes so badly affected by 
this situation as well as from the Bureau of Indian Affairs.
    Beyond the acute gap in detention services on Lower Brule 
and Crow Creek, many tribes in South Dakota and across the 
country are being forced to make due with dilapidated justice 
facilities literally crumbling around them. The 2004 Interior 
Inspector General report aptly entitled Neither Safe Nor Secure 
speaks to this broader crisis.
    I expect that the tribal leaders on both our first and 
second panels will have much to say about their respective 
situations with respect to both the facilities and other issues 
like staffing shortages, funding shortfalls, and the 
methamphetamine epidemic. I look forward to their testimony on 
those problems and, more importantly, I look forward to the 
solutions that they will suggest.
    Certainly the easiest remedy to many of the law enforcement 
shortages and troubles in Indian Country can only be fixed with 
greater financial resources. I am greatly encouraged by early 
signs from the House Interior Appropriations Committee which 
marked out the first draft of the Fiscal Year 2008 funding bill 
for the Bureau of Indian Affairs last week. That bill must 
still proceed through the full committee but already includes 
an increase for law enforcement services beyond what the 
President requested which itself was an increase over FY '07 
levels. Now, I have no allusions that these increases will 
address all of the unmet needs that are well identified, but 
this progress is certainly welcome.
    In spite of the importance of adequate funding, Congress 
can and must do more than simply appropriate funds when it 
comes to law enforcement in Indian Country. Congress also has 
an important and fundamental oversight role to play ensuring 
that the Bureau of Indian Affairs is delivering the services it 
is obligated to provide transparently, efficiently, and 
according to the sovereign wishes of the tribes it serves.
    These responsibilities are particularly important when 
considering the scope of the problems faced by Indian 
communities but also because of the special government-to-
government relationship and obligations created by the history 
of treaties and the U.S. Constitution itself.
    Earlier this year a researcher from Harvard University, in 
testimony before the Interior Appropriations subcommittee, 
shared the contents of a soon to be published book that 
examines the economic status of Indian Country. There were many 
encouraging facts. In particular, that the last few decades of 
tribal sovereignty and self-determination have been key 
proponents of economic development to counteract the poverty 
that continues to grip so many reservation communities.
    A Federal policy that supports tribal sovereignty has led 
to measurable economic gains because it has allowed local 
tribal leadership to flourish rather than, as it has in other 
times, working to preempt it. While this trend is certainly 
encouraging as it speaks to both the vast potential of Indian 
Country economy as well as the importance of tribal self-
determination, its news was delivered with one important 
caveat, a troubling increase in crime threatens to halt this 
progress.
    Native American families, like every other family in the 
United States, deserve to raise their children in a safe 
environment supported by robust law enforcement services with 
adequate resources and facilities. As resources are allocated 
from Washington and as decisions are being made that affect the 
services provided to tribes, they have a fundamental right to 
meaningful consultation and the free flow of information.
    It is toward these goals that I hope today's testimony and 
the accompanying oversight jurisdiction of the House Natural 
Resources Committee brings us closer.
    With all of this in mind, I'm pleased to begin today's 
testimony by going to our first panel of witnesses. First we'll 
hear from Mr. Pat Ragsdale, Director of the Bureau of Indian 
Affairs in Washington, D.C. I appreciate his willingness to 
travel here today and look forward to his testimony.
    Following Mr. Ragsdale's comments we'll hear from two 
distinguished and passionate tribal leaders who will certainly 
have much to say about the state of law enforcement services 
for the tribal members and communities they represent. I've 
greatly appreciated both Chairman Jandreau's and Chairman 
Thompson's strong leadership and advocacy on behalf of their 
tribes and look forward to hearing from them as well.
    So let's begin with the first testimony today on the first 
panel, Mr. Ragsdale, please.
    [The prepared statement of Ms. Herseth Sandlin follows:]

Statement of The Honorable Stephanie Herseth Sandlin, a Representative 
               in Congress from the State of South Dakota

    Good afternoon. I am very pleased to be here today to convene this 
field hearing which follows a string of Natural Resources Committee 
oversight hearings in Washington, DC but has the important distinction 
of being the Committee's first Native American focused field hearing in 
the 110th Congress. Though he is not here today, I would like to thank 
Chairman Nick Rahall for his leadership in this Congress and his 
willingness to support this hearing and Ranking Member Don Young for 
his many years of leadership on behalf of Native Americans and Alaska 
Natives.
    Additional thanks are certainly due to the Natural Resources 
Committee staff, and in particular Janet Erickson and Cynthia Freeman 
from Chairman Rahall's office and Chris Fluhr from Ranking Member 
Young's. From my own staff, I would like to thank Laura McNaughton, 
Phil Assmus Maeve King, and Lesley Kandaras who all helped to organize 
and shape this event. Thanks should also be directed towards the Lower 
Brule Sioux tribe who graciously offered to host this hearing in their 
beautiful Tribal Headquarters. I would like to thank all of the 
witnesses who have taken the time travel here today and who play 
important leadership roles within their own communities. Finally, I 
would like to recognize Tonya Peterson who is here today in our 
audience representing Senator Tim Johnson and Jeannie Faber who is here 
on behalf of Senator John Thune.
    The focus of today's hearing is law enforcement in Indian Country 
and this oversight opportunity is long overdue. I have been repeatedly 
alarmed by reports from tribal leaders across South Dakota both during 
meetings in Washington and through my own travels back in the state. 
Last summer--almost one year ago--I toured the jail facilities both 
here on Lower Brule and across the River at Fort Thompson in Crow 
Creek. At that time, neither tribe was left with a working detention 
facility and I am deeply troubled by the fact that the same situation 
remains in effect today. I look forward to the testimony from our first 
panel which will include testimony from the two tribes so badly 
affected by this situation as well the Bureau of Indian Affairs.
    Beyond the acute gap in detention services on Lower Brule and Crow 
Creek, many tribes in South Dakota and across the Country are being 
forced to make due with dilapidated justice facilities literally 
crumbling around them. The 2004 Interior Inspector General report, 
aptly entitled ``Neither Safe Nor Secure'' speaks to this broader 
crisis. I expect that the tribal leaders on both our first and second 
panels will have much to say about their tribe's respective situations 
with respect to facilities and other issues like staffing shortages, 
funding shortfalls, and the methamphetamine epidemic. I look forward to 
their testimony on those problems and, more importantly, I look forward 
to the solutions they will suggest.
    Certainly, the easiest remedy to many of the law enforcement 
shortages that trouble Indian Country can only be fixed with greater 
financial resources. I am greatly encouraged by early signs from the 
House Interior Appropriations Committee which marked out the first 
draft of the Fiscal Year 2008 funding bill for the Bureau of Indian 
Affairs last week. That bill must still proceed through the full 
committee but already includes an increase for law enforcement services 
beyond what the President requested which itself was an increase over 
the FY07 level. I have no illusions that these increases will address 
all of the unmet needs that are well identified, but this progress is 
certainly welcome.
    In spite of the importance of adequate funding, Congress can and 
should do more than simply appropriate funds when it comes to law 
enforcement in Indian Country. Congress also has an important and 
fundamental oversight role to play--ensuring that the Bureau of Indian 
Affairs is delivering the services it is obligated to provide 
transparently, efficiently, and according to the sovereign wishes of 
the tribes it serves. These responsibilities are particularly important 
when considering the scope of the problems faced by Indian communities, 
but also because of the special government to government relationship 
and obligations created by a history of treaties and the U.S. 
Constitution itself.
    Earlier this year, a researcher from Harvard University, in 
testimony before the Interior Appropriations Subcommittee shared the 
contents of a soon to be published book that examines the economic 
status of Indian Country. There were many encouraging facts--in 
particular, that the last few decades of tribal sovereignty and self 
determination have been key proponents of economic development to 
counteract the poverty that continues to grip so many reservation 
communities. A federal policy that supports tribal sovereignty had led 
to measurable economic gains because it has allowed local tribal 
leadership to flourish rather than, as it has in other times, working 
to preempt it. While this trend is certainly encouraging--as it speaks 
to both the vast potential of Indian Country economies as well as the 
importance of tribal self-determination, its news was delivered with 
one important caveat: a troubling increase in crime threatens to halt 
this progress.
    Native American families--like every other family in the United 
States--deserve to raise their children in a safe environment supported 
by robust law enforcement services with adequate resources and 
facilities. As resources are allocated from Washington and as decisions 
are being made that affect the services provided to tribes, they have a 
fundamental right to meaningful consultation and the free flow of 
information. It is toward these goals that I hope today's testimony and 
the accompanying oversight jurisdiction of the Natural Resources 
Committee brings us closer.
    With all of this in mind, I am pleased to begin today's testimony 
by proceeding to our first panel of witnesses.
    First, we will hear from Mr. Pat Ragsdale, Director of the Bureau 
of Indian Affairs in Washington DC. I appreciate his willingness to 
travel here today and look forward to his testimony.
    Following Mr. Ragsdale's comments, we will hear from two 
distinguished and passionate tribal leaders who will certainly have 
much to say about the state of law enforcement services for the tribal 
members and communities they represent. I have greatly appreciated both 
Chairman Jandreau's and Chairman Thompson's strong leadership and 
advocacy on behalf of their tribes and look forward to hearing from 
them as well.
                                 ______
                                 

        STATEMENT OF MR. W. PATRICK RAGSDALE, DIRECTOR, 
                    BUREAU OF INDIAN AFFAIRS

    Mr. Ragsdale. Thank you, Madam Chair.
    If I may, my full statement has been provided to the 
Committee for the record and if it's OK with you, I will just 
highlight my statement and try to summarize it as briefly as I 
can to allow time for questioning.
    Ms. Herseth Sandlin. OK. Thank you.
    Mr. Ragsdale. Thank you.
    There are an abundance of needs and challenges concerning 
tribal and Federal policing in our communities. The BIA 
sponsors and supports 191 law enforcement programs in the lower 
48 states. The BIA operates 42 of these law enforcement 
agencies by itself and the tribes operate the other 149.
    $217 million was provided in FY 2007 for law enforcement 
detention and courts and in Fiscal Year 2008, $234 million is 
proposed in the President's budget, and as I understand it, the 
House has already marked it up and we asked for the proposed 
increases that soon we'll have a chance to reconcile.
    Crime rates are deceptively high as detailed in my full 
statement. The report by Amnesty International supports the 
increase we're seeing in too many communities as it relates to 
domestic violence and child abuse of women and children. We 
believe this has been exacerbated by the epidemic of drug use 
and in particular meth, the distribution and use.
    Secretary of Interior Kempthorne is leading an initiative 
to address tribal and community concerns over violence and 
crime in Indian Country. This is a good start to address the 
concerns which we believe Congress will support.
    Our detailed testimony provides the Committee with our Gap 
Analysis of what is and what should be regarding resources to 
address the problems in Indian Country. We are working with 
other Federal agencies such as the Department of Justice, U.S. 
Attorneys, the FBI, and other related agencies within the 
Department of Justice to effect better cooperative working 
relationships. The Indian Health Service and Samson of HHS are 
also key partners in this effort.
    There are complex jurisdictional issues related to Indian 
reservation policing which we are trying to address with 
cooperative policing. We can't overemphasize effective 
cooperation between and among the Federal, tribal, and state 
communities. Criminals do not recognize artificial boundaries 
made by man.
    Madam Chair, we appreciate the Committee's support and 
pledge to continue to work with tribal leaders and our other 
Federal partners to improve public safety.
    And last, just in closing, let me just say I was reading a 
report that my deputy, Chris Chaney, provided me. In 1883 the 
Congress had authorized over 1100 police officers in Indian 
Country, which is more than the totals that we have now. Of 
course, they were only paid $5 a month and $15 for the 
supervisors, but that's where we are.
    Thank you.
    [The prepared statement of Mr. Ragsdale follows:]

              Statement of W. Patrick Ragsdale, Director, 
       Bureau of Indian Affairs, U.S. Department of the Interior

    Mr. Chairman and Members of the Committee, I am pleased to provide 
a statement on behalf of the Department of the Interior regarding the 
needs and challenges of tribal law enforcement on Indian Reservations. 
With me today are Christopher Chaney, Deputy Director, Office of 
Justice Services (OJS) for the Bureau of Indian Affairs (BIA), and 
Elmer Four Dance, Special Agent in Charge for our District 1 Office 
located in Aberdeen, South Dakota. We thank you for inviting us to 
provide testimony on an issue that significantly impacts the welfare of 
our American Indian and Alaska Native communities.
    The BIA has a service population of about 1.6 million American 
Indians and Alaska Natives who belong to 562 federally recognized 
tribes. The BIA supports 191 law enforcement programs with 42 BIA-
operated programs and 149 tribally-operated programs. Approximately 78 
percent of the total BIA OJS programs are outsourced to Tribes.
    OJS provides a wide range of law enforcement services to Indian 
country, including police services, criminal investigation, detention 
facilities, tribal courts, and officer training by the Indian Police 
Academy.
    Indian Country law enforcement provides services to a population 
that is predominantly under the age of 25, experiences high 
unemployment rates, and lacks municipal infrastructure. Indian lands 
range from remote wilderness to urban settings. The close proximity of 
a number of reservations to the international borders of Mexico and 
Canada make these locations the perfect targets for drug trafficking 
and other smuggling operations. Recent reports and news articles 
outline the extreme shortcomings of the criminal justice systems in 
Indian Country. Crime rates on most reservations are unacceptably high.
    Earlier this year, Secretary Kempthorne echoed the concern he heard 
from tribal leaders about the serious increase in violent crimes on 
their homelands, when he announced his Safe Indian Communities 
Initiative, which will increase law enforcement services where they are 
most needed in Indian country. The Initiative is part of the 
President's FY 2008 budget request. It includes a $16 million increase 
in funding to strengthen law enforcement capabilities on tribal lands 
by providing $5 million to hire additional law enforcement officers; $5 
million to increase staff at Indian detention facilities; and $6 
million to provide specialized drug enforcement training for officers 
and public awareness campaigns about the dangers of methamphetamine 
use. The Initiative will bring the total funding for BIA law 
enforcement to $233.8 million.
    The BIA coordinates with the Department of Justice (DOJ) in many 
areas: coordination regarding funding for Law Enforcement police 
staffing, consultation regarding construction of detention facilities, 
and day-to-day coordination with the FBI and United States Attorneys 
offices. The BIA is working in collaboration with DOJ on implementing 
the Amber Alert program in Indian Country and on developing effective 
means of sharing criminal justice information. In addition, the BIA is 
working with private industry to explore ways to bring new technology 
to Indian Country law enforcement.
    For many of our Indian citizens who live on or near Indian 
reservations, life has become much more violent. In the past year, we 
conducted an analysis that included the service populations of each 
tribe that had a law enforcement program (including BIA direct service 
programs and tribal programs that were at least partially funded by the 
BIA through either a Public Law 93-638 contract or a ``self-
governance'' compact) to determine appropriate High Crime and High 
Priority fund distributions. The distribution is based upon the 
comparison of individual tribal violent crime rates with the national 
crime rate. In addition, we looked at the number of officers that serve 
each reservation as compared to the national average and compared that 
figure for each tribe. This analysis helped us to pinpoint the law 
enforcement programs with the greatest need.
    Further, we contracted to have a Gap Analysis conducted, which was 
completed in 2006. The Gap Analysis measured current organizational 
functions and practices against a standard or benchmark, such as 
industry best practices, and examined organizational strategic goals. 
This analysis relied on quantitative and qualitative factors to help 
focus management's attention on the ``gap'' between ``what is'' and 
``what should be''. This, in turn, required management to ask ``How do 
we get there?''
    Part of what the Gap Analysis found was the need to hire additional 
law enforcement officers in Indian Country. The Safe Indian Communities 
Initiative would provide for the hiring of 51 new law enforcement 
officers and 91 new corrections officers for Indian country. This is a 
positive step in our efforts to get needed public safety resources to 
our tribal communities.
    As of the second quarter of FY 2007, 48 percent of BIA funded law 
enforcement agencies were staffed to the national average of 2.6 
officers per 100,000 inhabitants in non-metropolitan communities. Of 
the agencies that are at the national average of staffing, 5 percent 
are BIA operated law enforcement agencies and 43 percent are tribally 
operated agencies under Public Law 93-638 contracts or Self-Governance 
compacts. On many reservations there is no 24-hour police coverage. 
Police officers often patrol alone and respond alone to both 
misdemeanor and felony calls. Our police officers are placed in great 
danger because back up is sometimes miles and hours away, if available 
at all.
    Today, there are 191 tribal/BIA law enforcement programs supported 
through Congressional appropriations to the BIA. One hundred eight 
tribes have Public Law 93-638 contracts (57%), 41 have self-governance 
compacts (21%), and 42 tribes have BIA police (22%). Additionally, many 
tribes supplement BIA funding with funding from the tribal treasury, 
grants from DOJ or other sources. Under Public Law 83-280 and similar 
legislation, the remaining tribes rely on state and local law 
enforcement for major crimes. In addition, there are three legal 
avenues for prosecuting felonies involving Indians on Indian lands: the 
Federal criminal justice system; Public Law 83-280; and other 
authorized state and local criminal justice systems.
    Various statutes and provisions of case law make jurisdictional 
determinations extremely difficult. The BIA encourages cross-
commissioning so that federal, tribal, and state authorities can make 
arrests for each jurisdiction. For instance, BIA offers qualified 
tribal and state officers federal Special Law Enforcement Commissions 
so they can enforce federal law. This closes loopholes and allows 
police to focus on investigating the crime instead of sorting out 
jurisdictional details, which can be done later with the assistance of 
legal counsel.
    Another part of the problem is the state of equipment such as 
vehicles, weapons, and radio communications equipment. Higher quality 
and better maintained equipment would help police officers in their 
response to crime in Indian country.
    Since FY 2001, we have requested and Congress has appropriated 
funds to implement the conversion from existing telecommunications 
equipment to the narrowband radio system to address the National 
Telecommunications and Information spectrum efficiency mandate. The 
mandate required that all Federal agencies convert to narrowband land 
mobile radio operations. Outdated radios and insufficient radio 
coverage place officers at risk and have led to a loss of lives in 
Indian country due to the inability of officers to radio for 
assistance. Reliable land mobile radio communication systems are vital 
in supporting program functions and improving public safety within 
Indian country. Land mobile radio is one of the most critical 
infrastructure components for tribal community safety and is the basis 
for wireless communication affecting public safety, education, public 
works, wildfire, and tribal communities.
    Tribes also face a mounting drug problem. Tribal leaders describe a 
methamphetamine crisis that has the potential to destroy an entire 
generation if action isn't taken. Some tribal leaders refer to the 
prevalence of the use and access to the drug as the second smallpox 
epidemic and rank it as the number one public safety problem on their 
reservations. On many reservations organized crime and drug cartels are 
producing and distributing the drug and are contributing to increased 
criminal activity in those communities.
    During a hearing on methamphetamine (meth) in Indian Country last 
April, before the Senate Committee on Indian Affairs, one tribal 
chairwoman stated that an estimated 25 percent of the babies born on 
her reservation were addicted to methamphetamine. We are committed to 
helping Indian Country remove this scourge from its midst.
    In April 2006, the OJS published the results of the National 
Methamphetamine Initiative Survey. The survey consisted of 20 questions 
and was responded to by 96 agencies. Seventy-four percent of all 
respondents indicated that methamphetamine poses the greatest drug 
threat to the communities they serve. This is followed by marijuana at 
11 percent; Crack cocaine and powder cocaine followed at 6 percent. 
Five percent of responding agencies indicated powder cocaine as their 
primary drug problem. Heroin and pharmaceutical drugs rounded out the 
responses with 3 percent and 1 percent respectively.
    In response to the meth crisis, the BIA currently has eight 
certified drug enforcement officers to cover all of Indian country. The 
Safe Indian Communities Initiative will help combat the highly visible 
drug problem by enabling the development and provision of specialized 
drug enforcement training for BIA and tribal officers. As a result of 
the Initiative, more officers on patrol will have the essential 
knowledge and tools to break up drug trafficking, disrupt the 
activities and organization of crime groups, and seize controlled 
substances. This will lead to positive outcomes such as increased drug 
seizures and a substantial reduction in drug trafficking. Additionally, 
Initiative funding will allow the program to develop a meth public 
awareness campaign to educate Indian country on the dangers of the drug 
and how to combat those dangers. By certifying officers and educating 
the public about the dangers of meth, the BIA is taking proactive 
measures against meth and other drugs in Indian country to provide for 
safe and healthy Indian communities.
    As for detention centers, there are 82 detention facilities in 
Indian Country, some holding (one to two cells) facilities located on 
57 reservations. Of the 82 detention facilities, 27 are used to detain 
juveniles. Twenty jails are operated by the BIA and 62 by individual 
tribes. Most of these facilities were built in the 1960s and 1970s. 
Many of these facilities were designed to hold only 10-30 adult 
inmates.
    In September 2004, the Department's Office of the Inspector General 
(OIG) published a report, titled ``Neither Safe Nor Secure: an 
Assessment of Indian Detention Facilities,'' that highlighted the 
problems with Indian Country Detention facilities. The OIG found that 
serious safety, security, and maintenance deficiencies exist at the 
majority of BIA and tribal detention centers, and pose a hazard to 
inmates, staff, and the public. Out of this report came 25 
recommendations. As a result, a corrective action plan was developed to 
satisfy those recommendations and, to date, we have addressed 16 of the 
25 recommendations; the remaining 9 require additional resources to be 
fully resolved.
    One of the primary recommendations the OIG made was with regard to 
staffing shortages. Determining appropriate staffing levels for the 
detention facilities requires careful analysis of facility needs. To 
correct this safety deficiency, Corrections Division staff has 
calculated the ``Standard Space Staffing Requirement'' for each 
facility throughout Indian country. This study was careful to 
differentiate the size and layout of the facility according to a 
standard consistent with the standards of the National Institute of 
Corrections and the Bureau of Prisons.
    As I mentioned above, the Safe Indian Communities Initiative 
includes $5 million in additional funding to staff, operate, and 
maintain BIA and tribal detention facilities for FY 2008. This will aid 
BIA in continuing to implement the recommendations of the 2004 report 
by the Department's OIG. These funds will provide for the hiring of 91 
additional corrections officers in Indian country.
    The detention center funding will be distributed to detention 
centers based on the results of the application of the staffing model. 
The additional funding will enable BIA to increase the percent of 
detention centers staffed to minimal safety standards, thereby helping 
to reduce the types of serious incidents identified in the IG report. 
The 2008 budget continues to aggressively confront construction and 
repair issues at detention centers by requesting $8.1 million for four 
major Facilities Improvement and Repair projects and several smaller 
projects designed to help bring Indian detention centers up to national 
standards.
    Some tribal leaders have approached us about regional and multi-
tribal use facilities. We recognize that ``regionalization'' will 
likely not work everywhere due to the size and remoteness of many 
reservations. However, we support the idea and are working with some 
tribes in regions where these facilities will benefit a number of 
communities located on or near Indian lands.
    BIA also operates the Indian Police Academy, which provides basic 
police training (16 weeks) and a variety of other police, jail and 
radio dispatch courses for tribal and BIA law enforcement and 
corrections officers. The Academy is co-located with the Department of 
Homeland Security's Federal Law Enforcement Training Center (FLETC) at 
Artesia, New Mexico. Academy staff provide basic police, criminal 
investigation, and detention coursework. In addition, the Academy 
offers numerous advanced training courses such as child abuse 
investigation procedures, community policing, drug investigation, use 
of force, firearms instruction, archeological resource protection, 
police management and supervision, crime scene processing, detention, 
and dispatcher training.
    Our training partnership has proven to be very cost effective 
because we share trainers and facilities. BIA and tribal criminal 
investigators receive specialized advanced training at the main FLETC 
facility in Glynco, Georgia. Select BIA and tribal law enforcement 
managers also participate in the FBI's National Academy in Quantico, 
Virginia. Many tribal communities choose to use respective state Peace 
Officers Standards and Training courses to supplement training of their 
police.
    Mr. Chairman, we want to thank you for holding this hearing on such 
an important subject for Indian Country. We will continue to work 
closely with you and your staff, tribal leaders, and our Federal 
partners to improve the safety of our people who reside on Indian 
lands.
    We will be happy to answer any questions you may have.
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you, and I appreciate your 
testimony and again appreciate your presence here at the 
hearing today.
    I'd now like to ask The Honorable Chairman Michael Jandreau 
for his testimony.

STATEMENT OF THE HONORABLE MICHAEL B. JANDREAU, CHAIRMAN, LOWER 
          BRULE SIOUX TRIBE, LOWER BRULE, SOUTH DAKOTA

    Mr. Jandreau. Thank you.
    I, too, have a written testimony that I would ask to be a 
part of the record.
    Ms. Herseth Sandlin. Without objection.
    Mr. Jandreau. First of all, let me communicate to you my 
deep appreciation for you having this hearing here today. I 
think it's--it's one of the most historic moments in the 
history of our tribe and I appreciate that.
    The other day I--I was listening to a group of people talk 
and one of the statements I heard is, you know, it's impossible 
to weigh the facts if the scale is full of your own opinions, 
and so taking that very much into consideration, I will try to 
talk from the point of indicating the facts as they exist here 
for us today.
    Ten years ago, while being housed in a condemned jail, it 
was this decision of this Council to create the situation that 
we have with the new facility. We built the courthouse and 
police station and a detention facility.
    You know, $13 million have been placed into the 
construction of that facility. Five and a half million dollars 
of that came directly from the tribe. The rest was grants that 
we received from the Department of Justice, always under the 
insurance that we were going to be able to have this fully 
staffed and functional upon completion. Of course, you know 
that's not so.
    Seven years ago we met with the people from Interior's law 
enforcement and indicated to them our complete staffing needs. 
We received every assurance that that was going to happen and, 
of course, that has not happened.
    Last year in June we met with the folks from law 
enforcement and we were told at that time that we had a 
budgetary amount that was available to us to continue our 
process. What we did find was that $1.2 million in April had 
been taken and assigned to other reservations, i.e., Turtle 
Mountain, Spirit Lake, and Standing Rock. We asked to be 
informed who was consulted in that process and who signed off 
on the reprogramming of that money. We were never given that 
information.
    Those are two year dollars and so we go forward already 
hampered in our capacity. Our people who are trained for our 
detention positions are sent to other reservations because of 
the lack of trained personnel at those particular sites. We 
know that for a fact.
    What we are asking for, more than anything else, is to be 
treated fairly and straightforwardly. We ask that the dollars 
that are appropriated for our agency be restored and allow us 
to begin operation of our facility. We have some good people.
    You know, there's part of the good book that says, you 
know, our battle is not against questions but against 
principalities and powers in high places. We believe that to be 
the truth. Our fight is not with the human beings who are 
making these decisions but the process that is allowing what is 
occurring here to happen. We ask that the Committee would look 
very deeply into this process.
    Last, we have before the Committee a potential bill 
prepared for dollars in a settlement. If those dollars were 
forthcoming, our ability to handle these things ourselves would 
become real and we ask that that happens. We are not here to 
beg anyone. We are here because we have a problem. We are here 
because we need to be a part of solving that problem.
    Thank you.
    [The prepared statement of Mr. Jandreau follows:]

  Statement of Michael B. Jandreau, Chairman, Lower Brule Sioux Tribe

WELCOME AND INTRODUCTION
    On behalf of our Tribe, allow me to welcome the Committee on 
Natural Resources to Lower Brule. We greatly appreciate your visiting 
the Reservation for this hearing in an attempt to improve the quality 
of life for our Members and all Indian people. I have been Chairman for 
28 years and served on the Council for seven years before being elected 
Chairman.
    The Lower Brule Sioux Tribe a constituent band of the Great Sioux 
Nation with a proud history. We were a signatory of the Fort Laramie 
Treaty of 1851 and the Fort Sully Treaty of 1865.
TRIBAL LAW ENFORCEMENT
    Law enforcement at Lower Brule has been a great concern for our 
Tribe. People must feel safe in their environment if they are to enjoy 
their surroundings and their family. In many areas of the country, law 
enforcement is taken for granted. We do not think about law enforcement 
except when it is lacking. In fact, law enforcement is fundamental in 
order to develop human potential, to raise our families, to work and 
enjoy our private time.
    The life experiences of those living in Indian country have been 
more violent, vulnerable and insecure than those living in the rest of 
America. According to a 2004 Department of Justice report, American 
Indians experienced violent crime at a rate twice the national 
average--by far the highest experienced by any racial group. 
<SUP>1</SUP> Moreover, this increased exposure to violence affects 
every member of the community. When measured in their respective 
demographic, all Indians--male, female and of every age group--are 
victims of violent crime at greater rates than the national average. 
Most disturbing is the experience of Indian youth who experience 
violence at rates ``significantly greater'' than their counterparts in 
the rest of the nation. We hope not to raise a generation that knows 
violence as a fact of life and brutality as a means of resolving 
conflict. To prevent this, the Indian community needs improved law 
enforcement.
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics, 2004 http://www.ojp.usdoj.gov/
bjs/pub/pdf/aic02.pdf
---------------------------------------------------------------------------
    So we do not lose sight of what the broad and often used term ``law 
enforcement'' means, let us look at the array of services it covers: 
policing, detention, criminal investigation, tribal adjudication and 
officer training. These are the institutions of justice that a 
community takes for granted once they are in place--the bricks of the 
foundation upon which a trusting society is built--and without them in 
place, the transactions of everyday living break down.
    The Director of the Bureau of Indian Affairs, Patrick Ragsdale, 
acknowledged the deficiency in Indian law enforcement before the Senate 
Indian Affairs Committee last month. He noted in his testimony that 
``[o]n many reservations there is no 24 hour police coverage,'' and 
``often officers patrol alone''--which is a danger to the officer and 
inadequate to serving the law enforcement purpose. In addition, less 
than half of Indian Affairs funded law enforcement agencies in non-
metropolitan communities were funded to the national average. Not only 
do the safety needs at Lower Brule require greater law enforcement 
efforts, but also fairness requires that they at least be funded in 
equal measure to the rest of the country.
    At the moment, there is a major gap in law enforcement in Central 
South Dakota. We are not talking about an abstract policy; we have a 
lack of facilities. Our jail has been closed for approximately five 
years. The BIA has closed the Crow Creek jail. So, neither of us have a 
jail at this time. Prisoners must be transported a great distance to be 
lodged in a Tribal jail. This has a significant impact on law 
enforcement. If police must travel a great distance to a jail, it takes 
many hours and they are not here on the Reservation providing 
protection to the community.
    The BIA was to have the jail opened and certified by October of 
2006. The date was then moved to April 1, 2007. Today, however, the 
jail is still not opened even though we are paying utilities and other 
expenses. It costs Lower Brule approximately $1,600 per day, every day 
that the jail remains open, and neither Crow Creek nor Lower Brule has 
a facility that is convenient and available. As I said, there is a 
major gap in Central South Dakota and the BIA needs to do everything 
possible to close that gap.
LOWER BURLE AND CROW CREEK COMPENSATION ACT
    Representative Herseth Sandlin, as you know, Law Enforcement is 
just one of the many infrastructure needs we are trying to improve at 
Lower Brule to strengthen our economy and the quality of life for all 
enrolled members of the Tribe.
    Therefore, I would be remiss not to mention the great importance of 
your bill, H.R. 155, the Lower Brule and Crow Creek Compensation Act. 
This legislation is, of course, pending before the Committee on Natural 
Resources. I would like to include my Senate testimony in this hearing 
record, with your permission, and add a few points.
    This legislation passed the Senate on three occasions in the 108th 
Congress and was again reported by the Senate Indian Affairs Committee 
in the 109th Congress. After the bill was reported in the 109th 
Congress there was a GAO report that resulted in two changes in the 
legislation and then the Senate Indian Affairs Committee again reported 
the bill:
    <bullet>  First, the amount of compensation was reduced. The GAO 
discovered an error in the compensation calculation and we therefore 
adjusted the legislation.
    <bullet>  Secondly, a new Section 5 was added to the bill to make 
it clear this legislation would be final compensation for damages 
caused by construction of the Big Bend Dam and Fort Randall Dam. Under 
the terms of the bill, if enacted, our Tribe is giving up any further 
claim growing out of the construction of the dams.
    With these changes, we believe that the legislation is ready to 
move forward in both the House and the Senate.
    We do appreciate that while the transfer of funds from the Treasury 
to the Lower Brule Trust Fund is an intra-federal government transfer 
there is a cost associated with the additional interest we would 
receive on the larger trust fund. In considering the this legislation 
and the ``pay-go'' rules, I would hope the Congress looks at this 
legislation in a larger context that is fair to Indian people. Allow me 
to explain.
    1.  The dams were built using our land. Our Reservation was flooded 
twice as a result of the Pick Sloan project and the construction of the 
Big Bend and Fort Randall dams. As a result of these dams, we lost our 
best bottomlands, and over 70% of our population had to be relocated, 
not once but twice.
    2.  The water that flows in the Missouri River is ours in that we 
have the legal right to use as much as we need for the Tribe under the 
Winters doctrine, Winters v. United States, 207 U.S. 564 (1908)
    3.  The dams are producing electricity to benefit America and the 
American economy.
    4.  The revenue from the sale of electricity produced by the dams 
on the Missouri River exceeds $200 million per year.
    5.  The Tribes are receiving none of this revenue even though it is 
our land and our water that is being used to produce the electricity.
    6.  Adding insult to injury, the Tribes must pay for the 
electricity we use at Lower Brule. The Tribes of South Dakota paid over 
$2 million for electricity in 2005, and rates continue to increase.
    In short, while the American economy is benefiting from the dams 
built with our land and our water, the Tribal economy is suffering as a 
result. In my opinion, the Congress should consider these facts as they 
consider how to fairly apply ``pay go'' rules to H.R. 155. There is 
something very, very wrong with our bill being held up when the United 
States is profiting from our land and water. I urge you to bring these 
facts to the attention of the Committee and ask for consideration of 
the legislation.
    Thank you very much for coming to Lower Brule. I would be pleased 
to answer any questions that you may have.
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you very much, Chairman 
Jandreau.
    I now would ask Chairman Lester Thompson, The Honorable 
Chairman Thompson, representing the Crow Creek Sioux Tribe, for 
his testimony.

  STATEMENT OF THE HON. LESTER THOMPSON, JR., CHAIRMAN, CROW 
         CREEK SIOUX TRIBE, FORT THOMPSON, SOUTH DAKOTA

    Mr. Thompson. I, too, have submitted documentation, written 
testimony, and would like that to go on record.
    I thank you for this opportunity to testify on behalf of my 
people pertaining to the problems we face in law enforcement 
services on the Crow Creek Reservation.
    As you can see in my written testimony, I questioned the 
integrity of the Bureau of Indian Affairs Office of Justice 
Services. Crow Creek Sioux Reservation is plagued by minute to 
extreme crimes which vary from disorderly conduct to illegal 
drug trafficking to domestic assaults, some rapes and unsolved 
murders. This all stems from inadequate services provided by 
Office of Justice Services.
    Justice Services has done a tremendous job revictimizing 
victims on a continual basis and this is either due from lack 
of officers and lack of detention centers on our reservation. 
This is further--is really emphasized by the closure of our 
detention center and a lack of officers. I'll make that a 
point.
    Do you realize that the entire Crow Creek Reservation 
consisting of three district communities which is populated by 
over 2500 is being patrolled by two Bureau of Indian Affairs 
officers? We encompass a radius, from boundary to boundary, 
north and south of 70 miles, east and west of 30 miles.
    I served as an officer for Crow Creek for three years and I 
know what it's like to be a lone officer covering three 
districts, the tremendous task. The people don't receive the 
services that they require.
    Justice Services has unjustifiably and untimely closure of 
our detention center located in Fort Thompson further hampers 
proper law enforcement by our court systems. By not having a 
detention center, it renders our courts helpless to carry out 
their duties.
    I have read the Department of Interior's 2004 report, 
Neither Safe Nor Secure, an assessment of Indian detention 
facilities. In this report the Office of Justice Services is 
continuously ridiculed for their improper misuse and 
mismanagement of Federal funds.
    I ask: Has the Federal Government turned a blind eye to 
this problem? Obvious you haven't because you're sitting here. 
My next question is: Are there going to be any repercussions 
for this?
    This report also emphasizes consultation with tribes which 
the distinguished Chairman Jandreau had pointed out. When the 
detention center in Fort Thompson was closed, there was no 
consultation with the Crow Creek Sioux Tribe or the Lower Brule 
Sioux Tribe which was utilizing the facilities at the time. 
Justice Services continuously ignores consultation with Native 
tribes.
    This is in direct violation of our treaty rights and 
violates article one, section eight, clause three of the United 
States Constitution which solidifies our government-to-
government relationship. By closing the detention center and by 
not providing enough officers, the Office of Justice Services 
has failed the responsibilities as defined in U.S.C. Title 25, 
Subsection 2802.
    I ask you, as a member of the Committee of Natural 
Resources, as Native Americans living in Indian communities, 
are we not entitled to live in safe and secure environments as 
are the rest of the United States?
    [The prepared statement of Mr. Thompson follows:]

     Statement of Lester Thompson, Chairman, Crow Creek Sioux Tribe

    My name is Lester Thompson Jr., Chairman of the Great Nation of the 
Crow Creek Sioux Tribe. I and the current tribal council have been 
voted into office to make decisions for the best interest of the 
Hunkpati Dakota Oyate (Crow Creek Sioux Tribe).
    I would like clarification from the Bureau of Indian Affairs, 
Office of Justice Services, pertaining to their federal trust 
responsibility to the tribes of this nation. Is it not their legal duty 
as a fiduciary means that the federal government must act in the best 
interest of the Indian nations? Does it also impose a legal duty to 
provide public safety for these domestic dependant nations, as defined 
in B.I.A. O.J.S. training manual ``Criminal Jurisdiction in Indian 
Country''.
    These words that I have just written are nothing more than letters 
on a piece of paper and mean nothing to Bureau of Indian Affairs Office 
of Justice Services. These words are hallow to me based on the fact 
that actions speak louder than words. I have written numerous letters 
to Bureau of Indian Affairs, Director Pat Ragsdale, Deputy Director 
Christopher Chaney, District I Special Agent in Charge, Elmer Four 
Dance, District I Supervisory Correctional Specialist Greta Baker and 
Crow Creek Chief of Police, Scott Shields, voicing our concerns of the 
lack of law enforcement services provided to the Great Nation of the 
Crow Creek Sioux Tribe. The Bureau of Indian Affairs, Office of Justice 
Services, has continually provided the Great Nation of the Crow Creek 
Sioux Tribe with beat around the bush tactics.
    The problems created by the lack of and/or none existence of law 
enforcement on the Crow Creek Reservation are numerous. The rate of 
criminal activity is on the rise. Drug trafficking, domestic assaults, 
driving under the influence, harboring fugitives, aggravated assaults, 
etc., go unchecked and contribute to social breakdown of basic society.
    In short Bureau of Indian Affairs, Office of Justice Services has 
failed the enrolled members of the Great Nation of the Crow Creek Sioux 
Tribe.
    Office of Justice Services has failed for years by not providing 
enough officers to adequately canvass the three districts with the 
necessary aggressive patrol to curtail unlawful activities on the Crow 
Creek Reservation. Office of Justice Services has continued to 
jeopardize the safety and welfare of the public by closing the 
detention center located in Fort Thompson on January 18, 2006.
    Many reasons have been given to the closure of this facility with 
no real justification.
    The Indian Law Reform Act stated B.I.A. O.J.S. is to provide law 
enforcement services, which includes the prevention, detection, and 
investigation of an offense, and the detention or confinement of an 
offender. Additional responsibilities include the protection of life 
and property. How is any of this possible when O.J.S. cannot sustain 
its focus on problems long enough to resolve them?
    Also the detention and confinement of offenders has rendered the 
tribal courts ineffective. When crimes against society are prosecuted 
and the offences require jail time, offenders are turned back onto the 
streets on probationary terms. With no detention it makes court rulings 
hallow threats thus creating a revolving door at the court house. 
Repeated offences have become the norm, further adding to the detriment 
of society.
    Every excuse in the book has been given to why law enforcement 
services are so poor on Indian reservations. One excuse has always been 
the lack of funding allocated by the United States Government. Funds 
that are allocated for services are insufficient.
    The dollar amount provided has not kept pace with inflation, 
creating a collapsing house of cards. Why hasn't more funding been made 
available?
    According to Department of the Interior Office of Inspector 
General's report dated September 2004 ``An Assessment of Indian 
Detention Facilities'' from an accounting standpoint B.I.A. O.J.S. does 
not use sound business practices for planning, accounting for and 
monitoring of funds nor is anyone held accountable for the proper 
management of funds. Fraud can be perpetrated with impunity and waste 
can continue undiscovered because nobody at B.I.A. is paying attention. 
Is this why funding has been with held due to the lack of proper 
management and inability to track funding?
    Can the lack of funding to provide services be attributed to the 
fact that there are more high paying administration positions created 
under the new lines of authority? Has this venture really been cost 
effective? There is an old saying on the reservation about too many 
chiefs and not enough Indians! Need I say more?
    It is my observation that this is contrary to the designated 
appropriation specified by Congress.
    Has the federal government turned a blind eye to the problems that 
plague the indigenous people of this nation?
    Efforts have been made by the Crow Creek Sioux Tribe to remedy our 
bleak situation by proposing 638 contracting law enforcement services 
here on our reservation.
    These efforts have been met with resistance by District One's lack 
of communication and also lack of assistance in good faith. The B.I.A. 
O.J.S. has the mentality of do as I say and not as I do and constantly 
reminding us of what we can't do and not telling us what we can do. 
This mentality has caused confusion and hampered the positive 
progression of our tribe.
    Indian people living in Indian Country, are they no less than other 
citizens of the United States? Don't we deserve to live in safe 
communities too?
    Either provide us with the contracting of law enforcement services 
or provide us with adequate law enforcement!!!!!!!!!
    [NOTE: Additional information submitted for the record has been 
retained in the Committee's official files.]
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you very much, Chairman 
Thompson, for your testimony.
    As I indicated at the beginning of the hearing in my 
opening remarks, I was here about a year ago specifically to 
address some of these issues.
    I was driving from the western part of the state. I stopped 
first, had a wonderful one-on-one meeting with Chairman 
Jandreau, had a tour of the new detention facility across the 
highway, in which we came across some officials within the BIA 
who were doing a site visit for purposes of trying to move the 
process forward of getting a certificate of occupation issued 
and, again, some of the issues that Chairman Jandreau raised 
with me at that time caused me great concern about what both 
the Lower Brule Sioux Tribe as well as the Crow Creek Sioux 
Tribe were facing as it related to detention facilities and 
adequate number of law enforcement officers.
    After meeting with Chairman Jandreau, I drove across the 
river, had lunch and had a meeting with Chairman Thompson and 
other members of the tribal council. They were not aware that 
Ms. Baker, who I believe is here today, was over doing a visit 
of the Lower Brule Sioux Tribe detention facility and were not 
aware, I don't think, that she was going to be over at the jail 
facility that had been closed in Crow Creek.
    So we decided to change the agenda of our meeting slightly 
and take the meeting over there where we had a chance to--I had 
a chance to witness the tension and the frustration of leaders 
for the Crow Creek Sioux Tribe as it related to the number of 
law enforcement officers, the situation with that jail 
facility, with Mr. Fourdance, who is here, and with Ms. Baker, 
and it illuminated for me even further the frustration as it 
related to responsiveness and consultation.
    And I think Chairman Jandreau very eloquently, as usual, 
described our interest here today is getting to the heart of 
the problem with the process. I want to believe that every 
individual who is involved and has a stake in the security of 
every community in Indian Country, every community in South 
Dakota, every community across the country, will help us today 
to get to the heart of some of the problems with the process.
    We know the resources are always going to be a challenge 
and we've made some progress, not only from the 
Administration's proposed budget, but from the House and 
Interior Appropriations Subcommittee dealing with the Senate 
action, hopefully viewing favorably the need for increases to 
address these needs as well, particularly when you've put into 
the context historically for us the number of officers that 
were employed, albeit at 1883 wages, and what's happening in 
rural America today and where reservation communities are among 
the most rural in the country.
    So I do want to thank you for your testimony, Mr. Ragsdale, 
and for traveling out to Lower Brule for two days of hearings, 
for the work that you've undertaken in different capacities 
with the Bureau of Indian Affairs and working with our chairmen 
and presidents here in South Dakota. I think we can all agree 
that the absence of a jail facility for either Lower Brule or 
Crow Creek is an unacceptable situation.
    Just in this time of high gas prices, what we are spending 
to transport detainees either to Chamberlain or to Cheyenne 
River or to Standing Rock alone is a waste of resources.
    And I know that the BIA indicated last year that the Lower 
Brule facility would be operational by April 1st. I understand 
and maybe could have a point of clarification from either of 
you, Mr. Ragsdale or Chairman Jandreau: Was a certificate of 
occupation issued in February for the detention facility?
    Mr. Jandreau. No. I believe it was in March.
    Ms. Herseth Sandlin. In March?
    Mr. Jandreau. Yes.
    Ms. Herseth Sandlin. OK. So if the plan was to have the 
facility operational by April 1st, I was hoping, Mr. Ragsdale, 
you could elaborate as to why the Bureau failed to meet that 
target.
    Mr. Ragsdale. Well, I would probably need to do that in 
detail, because I do not know all the details, Madam Chair, but 
my understanding is that we should be able to open and be 
operating within the next couple of months at least as a 
transitional facility. We have had problems, as you know, in 
resources in terms of hiring people on a timely basis and 
meeting all the security and background checks that we have to 
do for staffing our law enforcement services.
    Ms. Herseth Sandlin. With all due respect, that was the 
response I got a year ago. The 1.2--you said the problem with 
some of the resources, the $1.2 million that was reprogrammed 
last June that was assigned to other reservations, has that 
been the problem, the reprogramming of those funds to deal with 
the resources necessary for the Lower Brule facility?
    Mr. Ragsdale. Do you want to address it, please?
    Ms. Herseth Sandlin. Mr. Chris Chaney, I'd invite you to 
provide a response.
    Mr. Chaney. Thank you. I'm not familiar with the 1.2 
million issue.
    As Chairman Jandreau indicated, there was funding that was 
appropriated for the purpose of opening up the Lower Brule 
detention facility. Part of the problem is even though we've 
been given appropriations to get this facility open, part of 
the problem has been filling positions.
    There are 40 positions that we need to fill at that 
facility and because of various problems, we've only been able 
to get 17 of those positions filled. All 40 positions have been 
advertised. We have had applicants for all 40 positions and we 
have had selections made for all 40 positions but a whopping 23 
of those people either turned the jobs down later or declined 
for some purpose or had to be removed because they were 
inappropriate because they had a problem with their background 
check or something like that. So we've only been able to fill 
17 of the 40 positions.
    One of the issues that Chairman Thompson talked about was 
the closure of the Crow Creek facility. If you read the 
Inspector General's report, Neither Safe Nor Secure, which I 
know you have, one of the things it talks about is safely 
staffing facilities and one of the complaints of the Inspector 
General specifically was inadequate staffing.
    The Crow Creek Sioux facility, when we closed it, was being 
run by two employees. It was an unsafe facility. The facility 
condition was not up to par and neither was the staffing. It 
was not safe for the inmates, it was not safe for the 
employees, it was not safe for the public, and we're having 
similar problems now at Lower Brule getting positions filled.
    Now, we have a plan in place----
    Ms. Herseth Sandlin. If I might----
    Mr. Chaney. Yes.
    Ms. Herseth Sandlin.--just because I want to get to some 
other questions I have specific to the facility for Crow Creek 
and I want to give Chairman Jandreau an opportunity to respond, 
because if you start presenting information that deals with 
both of them together, then it's a little bit more difficult, I 
think, for our chairmen to respond precisely and it also gives 
me the concern that by always trying to address them together 
that way, that consolidation is being forced upon these two 
tribes without adequate consultation and citing staffing issues 
as the reason for that.
    So given that it was an emergency situation when Crow Creek 
was closed in January of last year, were there any emergency 
steps taken by the Bureau in anticipation of opening a new 
facility in Lower Brule but also in dealing with the safety 
considerations of Crow Creek, to deal with that situation? Are 
there emergency steps that were taken, that should have been 
taken in anticipation of the fact that just because Lower Brule 
had agreed, based on the condition of its older facility, to 
have their detainees housed in Crow Creek, it shouldn't have 
ever been assumed that once Crow Creek closed, that there would 
be a similar agreement to house detainees in the new facility 
in Lower Brule for the Crow Creek Tribe. And I feel that there 
was an assumption being made there, again, part of this process 
of tribes to consolidate.
    I just want to lay that out and let you respond, either Mr. 
Ragsdale or Mr. Chaney, about the emergency steps that were 
taken or could have been taken and then I want to give Chairman 
Jandreau an opportunity to respond.
    Mr. Chaney. Yes. As you know by reading the report and as 
you know by listening to what the Chairman told you both on and 
off the record, we are dealing with a situation where we don't 
have resources to do everything we like to do.
    When the Crow Creek Sioux jail was closed, what we had was 
an understaffed, unsafe facility at Crow Creek and no facility 
at Lower Brule because the Lower Brule facility was still in 
the process of being completed with the construction getting 
opened.
    Ms. Herseth Sandlin. There's a chair.
    Mr. Chaney. Thank you.
    So we have one facility that is not properly staffed and is 
inadequate for public safety and another facility that is not 
open. The emergency response, if you will, was to close the 
unsafe facility to protect the public, protect our inmates, 
protect our employees, and then to, frankly, transport 
prisoners to other locations. And that was expensive and it was 
burdensome but when you have no detention facility available, 
you make do and that's what we had to do.
    Ms. Herseth Sandlin. Thank you.
    Mr. Chairman, if you don't mind, just a follow-up question 
before I turn it over to you.
    Did you meet with Chairman Jandreau to visit with him about 
this issue of resources and not having enough resources to do 
everything that you wanted to do? Did you visit with Chairman 
Thompson or his predecessor? What was the consultation? I just 
don't think we can use insufficient resources as justification 
for avoiding the consultation requirement, so perhaps you could 
clarify what types of meetings took place as the staffing 
shortages became so acute that the decision was made to close 
the facility.
    Mr. Chaney. I can't tell you----
    Mr. Ragsdale. Well, I can address it.
    First I'd like to say I have the greatest respect for 
Chairman Mike Jandreau as I do for all tribal leaders and we 
have had numerous meetings with Chairman Jandreau and other 
tribal leaders concerning the detention facilities throughout 
the country. So, I don't think it's a matter of lack of 
discussion with them. I think it's a matter of not liking the 
message that we have to deliver with regards to resources and 
our ability to get things done.
    I will assure the Committee that I'm a former police 
officer, former tribal police chief for seven years, and I was 
often unhappy with my Federal counterparts, but the fact of the 
matter is that we've had to close over four or five facilities 
and we'll probably close a number of others in the next few 
years because most of our facilities were built in the 1970's 
and they're crumbling under our feet. So, this is part of the 
overall picture.
    Let me also just say one thing about the 1.2. I'm not sure 
that it's 1.2, but Chairman Jandreau and I have talked about 
this before. It is true that we used the money that was 
initially allocated for services here because of--it was not 
obligated, because we needed it somewhere else. That's just the 
condition that we're in. I'm not aware of any constraint on the 
Federal Administration to do that to me presently so that's 
what we have all over this country.
    Ms. Herseth Sandlin. Chairman Jandreau.
    Mr. Jandreau. I guess I would--I guess I would like to 
clarify. I was--in June of last year, we were told by Mr. 
Chaney and Mr. Rivera that there was $1.75 million allocated 
for Lower Brule detention facility. Those dollars--those 
dollars were not made available.
    In November of last year, after a meeting was held in 
Washington, D.C.--well, it was actually in Arlington, Virginia, 
on the Bureau of Budget, on which I'm a member on the 
committee, I was provided a governmental budgetary allocation 
document.
    The document told us that by June of '06, there was 
approximately $465,000 available to Lower Brule for our 
detention facility. The same document presented that the 
dollars were allocated--$700,000 was allocated to Standing 
Rock, $300,000 was allocated to Turtle Mountain, and $200,000 
was allocated to Spirit Lake.
    Now, the document speaks for itself. I did not provide that 
in my testimony, but if it's a requirement, I will. And this 
comes from the Bureau of Indian Affairs, its own budgetary 
process.
    I asked at that time of Gill Rivera when that money was 
going to be returned. He said it was not going to be returned. 
He said that year is already over. I said, ``Well, wait a 
minute, these are two year budgeting cycles.'' So that year's 
appropriation plus '07's appropriation were both to be 
available for this detention facility.
    In order for those dollars to be reprogrammed, it takes the 
signature, according to my understanding of the process, of an 
appropriations chairman or vice chairman to do so. I asked: Who 
signed off on that? I asked the same question of Senator Dorgan 
in Minneapolis and I still have not received from anyone that--
where we're at there, nor have I received from anyone a 
budgetary document telling us what's available for our 
facilities funding program seven.
    Ms. Herseth Sandlin. Well, Chairman Jandreau, if you could 
provide us that document that you received----
    Mr. Jandreau. Yes.
    Ms. Herseth Sandlin.--in early 2006 so that we have that 
for our----
    Mr. Jandreau. It was actually in November of 2006. I 
received that from Gill Rivera and I questioned him in regard 
to the content. Maybe he thought I couldn't read it. I don't 
know.
    Ms. Herseth Sandlin. I would appreciate it if you could 
provide the Committee with a copy of that budgetary document 
and then, Mr. Ragsdale, when I posed the first question, if you 
could provide, as a written submission, some of the detail that 
addresses precisely this issue of the reprogramming of the 
funds.
    And the budgetary process here is what we're trying to get 
at and I know that there have been sufficient resources at the 
Federal level for a long time, but you know that's--it's 
incumbent, in my opinion, on the Administration and the 
executive agencies to come forward with responsible requests 
that address the needs and certainly a priority of those needs, 
so it leads me to, I guess, the question I want to pursue here 
a little bit further, and that's the issue of an intention with 
regard to these two facilities.
    Mr. Ragsdale, does the BIA intend to consolidate detention 
facilities available to both Lower Brule and Crow Creek Tribes 
into a single facility?
    Mr. Ragsdale. To my knowledge, we do not.
    I have talked about that with--we have talked to tribal 
leaders about that. I know that both tribes are adamantly 
opposed to doing that. We have not proposed to consolidate 
those against their wishes. If we do so, we will do that 
forthright and bring them into our bargaining.
    Ms. Herseth Sandlin. OK. So if that's not the intention, 
let's--let's talk about the Crow Creek facility, then, for just 
a moment.
    Setting aside for a minute the staffing issues that you've 
described, how much is it going to cost? Has there been an 
analysis done of how much it's going to cost to repair and 
reopen the Crow Creek Sioux Tribal facility?
    Mr. Chaney. No, not at this time.
    Ms. Herseth Sandlin. Does that reflect an indication to 
never reopen this facility?
    Mr. Chaney. No. We just have a lot of competing demands. 
There's about 81 detection facilities across the United States 
and this particular one, there was an analysis done and it was 
found to be unsafe. We can still do an analysis to decide 
whether it's cost effective to reopen it.
    What we're finding, though, is a number of our facilities, 
it costs more to fix then to build a new one. And I don't know 
if that's the case on Crow Creek or not but that would be 
something that we can look into.
    Ms. Herseth Sandlin. So what is the process in your office, 
Mr. Chaney, once a detention facility is closed because of 
structural issues? Is there, in the process, a requirement to 
do a subsequent analysis for the costs of repair and reopening 
that facility and if--whether or not there is, have you 
submitted a budget request from your agency to the Secretary 
that's forwarded to OMB, the Office of Management Budget with 
the President, for an increase in FTE's to conduct these 
analyses given the competing demands that we have on facilities 
across the country?
    Mr. Chaney. Those types of analyses are not done by the BIA 
Office of Justice Services. It's done by a part of the Indian 
Affairs called the Office of Facilities Management Construction 
and I don't employ those people or have control over them.
    Mr. Ragsdale. The short answer would be that we do not--we 
have not, to the best of my knowledge, proposed any increases 
to construction of either educational facilities or detention 
facilities in the next coming fiscal year.
    Ms. Herseth Sandlin. Because of resource issues?
    Mr. Ragsdale. Yes, because of budget constraints.
    I would say that there will be a report available in the 
near future, a very detailed report on the state of our 
detention facilities nationwide.
    Ms. Herseth Sandlin. As a follow-up to the Inspector 
General's report from 2004?
    Mr. Ragsdale. Well, I don't know if we did it specifically 
as a follow-up, but it was a report that was much needed so 
some of the analysis that you referred to would be in that 
particular report.
    Ms. Herseth Sandlin. I know that there are a number of 
statutory requirements that require the BIA--well, that protect 
BIA schools from closure or consolidation without consultation 
with the affected tribes and similarly there are provisions 
that require the IHS to analyze and report the consequences of 
service reduction in any one of its facilities. Are there any 
similar consultation or reporting requirements affecting the 
Bureau's detention facilities?
    Mr. Ragsdale. I'm not aware of any special requirements 
such as those for educational facilities. But, the fact of the 
matter is that the facilities that we've shut down were unsafe 
to put human people in those facilities and that's why they're 
closed down. So I don't know that even if we had a statutory 
constraint, other than just reporting and justifying it, that 
it would make any difference. I feel confident that the 
facilities that we have closed needed to be closed and probably 
should have been closed sooner.
    Ms. Herseth Sandlin. Chairman Thompson, would you like to 
comment on your perspective in what we're pursuing here as it 
relates to the Crow Creek facility in particular?
    Mr. Thompson. Yes, I would.
    I've got a question here. As you're sitting here talking 
about appropriations of funds, what has become of the funding 
that has been appropriated for Crow Creek all these past years 
to operate our facility and if it's still there and 
appropriated for Crow Creek, how is it being applied to our 
facilities? Couldn't this be applied to the maintenance and 
construction of this place that's being closed for what you're 
saying?
    Also, you bring up staffing issues and a letter that you 
had written to me and your response to me was it was a major 
staffing issue. The staffing issue at the time that you are 
saying that you made this decision back in November of the 
previous year, we were fully staffed as a detention office and 
if we did lose them officers at that time Lower Brule had 
detention--correction officers sitting idle. Why weren't they 
utilized to keep our facility operating?
    Ms. Herseth Sandlin. Chairman Thompson, I'm going to take 
your questions for the record and I'm going to allow Mr. 
Ragsdale, if he would like to, now, to respond to any of those 
questions or if Mr. Chaney would like to. I think that in 
addition to the questions you just raised as well as some of 
what we're going to try to get to the bottom of as far as the 
reprogramming of funds that Chairman Jandreau mentioned, do 
deserve responses and answers and I think that the Natural 
Resources Committee needs to also work closely with our 
counterparts in the Interior Appropriations Subcommittee to 
compile this information and to demand the answers that you're 
looking for in terms of the complexity of either reprogramming 
dollars for the operations of the new facility or how the 
dollars have been used, ones for operation of Crow Creek's 
facility once it was closed.
    Mr. Ragsdale or Mr. Chaney, would you care to respond? 
Again, these get into very specific issues but--and Chairman 
Thompson, if you want to clarify, a point of clarification for 
any of the questions you just posed?
    Mr. Thompson. I would like to ask one more question here.
    Now, to me, it's apparent that--and while your OIG reports 
here that there is not adequate management throughout the 
Bureau of Indian Affairs office and Justice Services, 
underneath your guys' new lines of authority, we'll call them, 
because you separated the detention, you're going to separate, 
it sounds like, the dispatch now. Are you staffing this with 
qualified individuals and properly training them? And if so, 
these dollar amounts that you're earmarking for their salaries 
are at an outrageously higher rate.
    You pay most of your administration staff more than the FBI 
agents that patrol our area receive, higher than what officers 
in the biggest municipalities in the State of South Dakota 
receive. Now, if funding is such a big issue, why are these 
salaries so outrageous? Why don't you cut some of them salaries 
and reapply it back where it's truly needed in the services 
that's supposed to be provided to the people?
    Ms. Herseth Sandlin. Again, we're going to take all these 
questions through the record and would ask for, you know, 
written submissions in response and we'll ask for, in more 
specific detail, other particular documents, other questions 
that I'll have to put in the record.
    But, Mr. Ragsdale, I'll give you an opportunity to respond.
    Mr. Ragsdale. Well, I would say, first of all, that with 
regards to the 2004 OIG report that Mr. Chaney and I have been 
on duty for approximately the last two years and we had a 
significant progress of which we would welcome the review and 
inspection by the Committee staff with regard to follow-up to 
the OIG report. I'm very comfortable with that.
    There are resource issues that inhibit our ability to 
respond to all of the 25 or 26 some-odd recommendations that 
the OIG made but we would welcome the Committee's review of 
that.
    With regards to our staffing, we pay pursuant to OPM 
classification rates and I would disagree respectfully with the 
Chairman's view that our administrative personnel get paid more 
than FBI agents or anybody else in the Federal justice system.
    Ms. Herseth Sandlin. Does the report that you mentioned to 
me, Mr. Ragsdale, that will be coming out shortly, will that 
include a description of the progress that you feel in your 
tenure has been made in the last couple of years? Not, again, 
as a follow-up or directly in response to the 2004 OIG report, 
but will that report include for the Committee and the 
Committee staff's review a summary or more lengthy description 
of the progress and steps that you've undertaken.
    Mr. Chaney. The report that Mr. Ragsdale is referring to is 
a national analysis of our corrections programs nationwide and 
the specific emphasis of looking at where we are today and 
where we need to be in the future.
    The short answer to your question is the responses to the 
Inspector General's recommendations, we can get that to you 
separately and it will be less confusing. It's not part of the 
analysis of the facility conditions.
    What we can show you is out of the 25 OIG recommendations, 
BIA has complied with 16 of them. In fact, all 16 of them, 
including the management issues that Chairman Thompson referred 
to, have been addressed. The problem is the remaining nine are 
recommendations that would require additional appropriations 
from Congress to be able to do, things like make sure you have 
adequate staffing levels, make sure your facility conditions 
are up to par, and so forth.
    And the other question you had was?
    Ms. Herseth Sandlin. Well----
    Mr. Chaney. Oh, the other report.
    The other report is looking at facility conditions.
    Of the 81 or so detention facilities across the United 
States, we've hired an independent contractor. They've gone 
out--I think they've been to 38 or more of the 81 facilities. 
They're making analyses as to what the strengths and weaknesses 
of each facility are and have looked at reservations in various 
parts of the United States.
    And the idea is is that we're at a crossroads, if you will. 
Up until the time of the Inspector General's report and about 
the same time, there was a DOJ grant program that helped fund 
about 20 jails in Indian Country, including the one across the 
street at Lower Brule, and BIA has not been appropriated any 
money to build jails for ten or 15 years and all the new jails 
that have come on line in the last ten or 15 years have been 
either totally financed by tribal dollars or they have been 
financed through DOJ and tribal dollars such as the Lower Brule 
facility.
    Now, that program is winding down and our understanding is 
is that the remaining funds that they have are being used to 
finish some of the projects that have not been completed yet. 
So we're are a crossroads where DOJ is not building any new 
jails so the question is: Where do we go now?
    And Mr. Ragsdale testified earlier a lot of the facilities, 
the vast majority of the facilities that we have today were 
built in the '60's, the '70's, even the '50's, and a lot of 
these facilities, frankly, are beyond their life span. A lot of 
them.
    And so these facilities, when we build them and they're 
being used for 20, 30, 40 years or more, what we want to do is 
try to create a national strategy that looks at our detention 
program for Indian Country for the next five, ten, 20, 40 
years, where do we want to be and how is that going to be 
accomplished.
    And the report has not been issued yet. We've already had 
consultation with tribes from across the United States. The 
first meeting was held, I believe, in February in Albuquerque 
and we invited tribes to come in and see a preliminary version 
of the report, which was revealed to us also, and we talked 
about that to get some preliminary ideas of where we want to go 
in the future.
    When that report comes out, then we'll be in a position to 
start making some very big policy decisions about the future of 
this program.
    Ms. Herseth Sandlin. Did the draft report lay out a 
strategy already and such that it was going to be a 
consultation with the tribes after the draft, the national 
strategy, or is it more just the goals and objectives in light 
of budgetary constraints and an issue of consultation to get 
ideas from tribes as to, you know, what they think the national 
strategy should be.
    Mr. Chaney. What the report does is it lays out options so 
that tribes and BIA can discuss what makes sense.
    No, there's not any prejudgment about what the results 
should be but there are options that are laid out for the BIA 
and the tribes to consider. And there may be different options 
that make sense in one part of the country and different 
options that make sense in another part of the country as we 
have different demographic situations that apply to different 
reservations. One size doesn't always fit all for Indian 
Country and we're aware of that.
    Mr. Ragsdale. Let me add to that: We're hopeful that this 
will be similar to the Gap Analysis that we talked about in the 
testimony. The report which we had done provided us with some 
options on how we get to where we need to be in terms of 
resources and how much it will cost.
    Let's say the cost to provide adequate--I'm just saying 
let's say the cost is a billion dollars. The Bureau's total 
budget is about $2.2 billion. So what kind of strategies do we 
need to have in order to provide facilities. Are there any 
other alternatives that we can use to lessen or minimize the 
amount of appropriations we would need. What kind of priority 
settings are the tribal leaders going to have to make in terms 
of providing detention facilities over education and the line.
    Ms. Herseth Sandlin. Chairman Jandreau, did you participate 
or have you had discussions with any other tribal leaders who 
participated in the Albuquerque meeting earlier this year on 
this draft report?
    Mr. Jandreau. No, I haven't. I haven't had an opportunity 
to discuss that with them, but there are a couple of things 
that I guess I would like to go back on, if I may.
    Ms. Herseth Sandlin. Please.
    Mr. Jandreau. Number one, this process of lack of personnel 
that was mentioned here, that there's only 17 personnel that 
have been cleared so far, has been affected by the length of 
time that it takes now in Albuquerque and I think everyone can 
admit that. They do backgrounds and all of those activities.
    But one of the things that is so crucial, and it must be 
done with all of the tribes, is there's got to be the ability 
to sit down and adequately consult on these processes. We are 
not being able to be afforded that. That yes, we do have 
officers from the regional office that drop in periodically to 
visit with us, but as far as them containing any real budgetary 
information, those conversations do not contain that.
    As far as detention personnel, we have been fortunate to 
have Mike Yellow come down pretty consistently but again, he 
does not have always up-to-date budgetary information nor the 
ideas that we can really consult about.
    It seems that all of the budgetary process is very 
bottlenecked at the central office level and that process has 
really got to stop in order for us as tribes to effectively 
move forward.
    One other problem that we really have is we are being given 
bits and pieces of information that lead us on to believe that 
activity is really going to occur and they do not possess the 
ability at the office in Albuquerque--or in Standing Rock to 
give us that information.
    They hired an individual down here in charge of activities. 
He worked for nearly six months, was unable to process any of 
the work necessary to move the occupation of the facility 
forward. He consequently has, since then, left his position. 
There is a new individual in that position who is a tribal 
member who has moved this process forward markedly.
    We do not want to be the entire oversight of the Bureau 
function, we want that function to work, but there's got to be 
a process where consultation is real so that we can indicate 
our frustrations and hopefully garner some kind of reactionary 
movement on the part of the Federal system. This can't 
continue. We are spinning our wheels. We are--and those are 
just real frustrations.
    When I spoke to Senator Dorgan about this, he indicated to 
me that I was being impatient. Well, I think I've been pretty 
patient, you know. I've waited for lots of things to happen a 
long, long time. And if it appears that I am impatient today, 
it's because we need to be communicating. We need to have the 
truth told to us. We're big guys. I mean, we can hear a no now 
and then and there ain't no dollars. I mean, those are things 
that we can understand.
    Thank you.
    Ms. Herseth Sandlin. Well, thank you, Chairman Jandreau. 
Thank you for bringing up the issue of the staffing issues 
because I wanted to come back and specifically ask you and 
Chairman Thompson to address that issue and the fact that we 
have this very slow process coming out of New Mexico.
    Mr. Ragsdale, I have to tell you that this is probably the 
most far-reaching and consistent concern and complaint and 
source of legitimate impatience that I take, my office takes, 
day to day in all of the different offices located in 
Albuquerque, and it shouldn't be necessary for tribal leaders 
to have to ultimately call their Member of Congress' office 
just to try to get a call back or an answer to something out of 
folks in Albuquerque. That's not fair. It's not transparent. It 
reflects, I think, the breakdown in the process that Chairman 
Jandreau has described.
    I would respectfully request that you work with us to 
address some of perhaps the most recurring incidents to 
increase that level of responsiveness that then can help shed 
some light on what we can do for the transparency of the budget 
process to ensure that consultation is far more meaningful than 
I think it has been in the last number of years in light of the 
problems that we are continuing to have.
    So in light of--and I think I saw both of you nod when 
Chairman Jandreau said that I think we can agree that part of 
the staffing issue has been slowed down by the checks of what 
has to go on down in Albuquerque, New Mexico.
    So you had also indicated at the outset, Mr. Ragsdale, that 
your hope was that the facility of the Lower Brule Sioux Tribe 
could be operational within the next couple of months. Are you 
in a position today to provide sort of a time specific so that 
we can work with you, as we work with Chairman Jandreau and we 
work with this new individual in this position that he 
described that's been able to move this process along, to 
ensure that at some point this summer that facility is 
operational?
    Mr. Ragsdale. I wanted to say two things. I will concede 
that our consultation process with Chairman Mike Jandreau could 
be better and we will pledge to see if we can effect a better 
process with the leadership of the Great Plains so that they 
are fully informed as to where we are, what problems we face, 
and where we are with regard to the funding. Mr. Chaney and I 
will do that.
    I'll let Chris talk to you about the schedule.
    Mr. Chaney. The plan that we have with the Lower Brule 
detention facility opening is that we anticipate that within a 
month we should be able to have it open as a 72-hour holding 
facility, basically able to take prisoners that are arrested 
and awaiting their court date, their arraignment and so forth, 
and be able to have enough staff to be able to do that.
    Three months after that, the plan is to have one of the 
wings open for sentenced inmates. That would be the adult male 
wing. Three to six months after that we believe that we'll have 
enough staff on board to open up the adult female wing, and 
then once we have the final hiring for the juvenile detention 
staff, we should be able to get the juvenile center opened up.
    One of the things you'll be interested to know is that many 
of the correctional officers that have been hired to work at 
the Lower Brule facility are actually completing their training 
today at a special training event that we're having in Pierre, 
South Dakota, today. It started earlier in the week and it's 
finishing today.
    Ms. Herseth Sandlin. Well, I appreciate that timetable and 
I appreciate the constraints that we're faced with here but 
that takes us into next year.
    And let me ask about this special training in Pierre just 
so I have a point of clarification here. Did these officers, 
however, first go through their weeks of training down in New 
Mexico and then there has been a specific follow-up of 
additional training in Pierre?
    Hi, Ms. Baker. Welcome.
    Ms. Baker. Thank you.
    The training that is being conducted this week is specific 
to direct supervision, which is the type of facility that the 
Lower Brule facility is. It's not a linear style jail where 
you're locked individually in cells. It's an open environment 
such as this where the inmates are classified as--although they 
have assigned sleeping areas, they are allowed in a pretty much 
open day area and the officer is pretty much right in there 
with them during the entire shift, so it's called direct 
supervision. So that's very specific training.
    Ms. Herseth Sandlin. And is that in conjunction with or in 
addition to training that was received in New Mexico for these 
officers?
    Ms. Baker. No. This is specialized training for that type 
of facility. It's in addition to the IPA certification that 
they're required to have.
    Ms. Herseth Sandlin. And are there age limitations in place 
for those who can apply for and receive these positions?
    Ms. Baker. They must be 21 and they must not exceed 37 
years of age.
    Ms. Herseth Sandlin. Before I follow up, Ms. Baker, I need 
you to identify yourself just for purposes of the record. Many 
of us know who you are.
    Ms. Baker. My name is Greta Baker. I'm the supervisor for 
the district one division, which is the Great Plains and 
Midwest region.
    Ms. Herseth Sandlin. Of all of the positions open for the 
new detention facility, does that 37--did you say 37 years of 
age limitation--does that apply to all of those positions?
    Ms. Baker. Yes.
    Ms. Herseth Sandlin. And in light of the acute staffing 
shortages that we're facing, has there been any discussion, 
within your office or within the agency more broadly, about 
waiving those restrictions?
    Ms. Baker. Yes, there has.
    Ms. Herseth Sandlin. And what has been the result of those 
discussions?
    Ms. Baker. That it cannot be done because of the law 
enforcement retirement.
    Ms. Herseth Sandlin. Could you elaborate on what you mean, 
the law enforcement retirement?
    Mr. Ragsdale. Well, I have not been involved in these 
discussions directly, but the law enforcement retirement 
program, that's the reason for the age limitations, but let me 
just modify a little bit of what Greta said.
    If they are new hires, they cannot be over the age of 37, 
but if they are reassigned or are currently working in the 
Federal system, they could be reassigned, but there are 
limitations from the retirement requirements for law 
enforcement so that you cannot hire somebody over the age of 37 
as a new hire.
    Ms. Herseth Sandlin. I'm still trying to understand the law 
enforcement retirement issue. This isn't another budget issue, 
is it?
    Mr. Ragsdale. No, it's not.
    Ms. Herseth Sandlin. Well, in our second panel, we have law 
enforcement and I know you have served as well, Mr. Ragsdale, 
but whether I pursue that in the next panel or we pursue it 
within the Committee independently at this hearing, I just 
think we've got to have a measure of flexibility and common 
sense when we're dealing with acute staffing shortages, and if 
that's the justification primarily for closing of the Crow 
Creek Sioux Tribe facility, lack of getting operational on the 
Lower Brule Sioux Tribe facility, and we are sitting here 
hindered by the fact that there can be no new hires if someone 
who lives in Lower Brule or Fort Thompson is 38 or 42 and is 
well qualified and is--their application is deemed ineligible 
because of the lack of flexibility, then we need to address 
this need.
    Chairman Thompson, I see that you might want to give 
comment on this point.
    Mr. Thompson. Yes, I'd like to ask a question of Ms. Baker 
here.
    Ms. Herseth Sandlin. Chairman Thompson, just so I can 
clarify: I appreciate you raising those questions. Again, 
they're going to have to be taken for the record.
    Mr. Thompson. That's fine.
    For the record, I would like the question addressed.
    Ms. Herseth Sandlin. OK.
    Mr. Thompson. You were talking about training for your 
correctional officers. There's an area that needs to be 
addressed now, whether Crow Creek or Lower Brule ever gets 
their detention centers open.
    Right now on our reservation and on Lower Brule's 
reservation, the law enforcement officers transport detainees 
to these outside correctional facilities taking them away from 
their coverage area. Now, a year ago, you--at a meeting with 
you in Fort Thompson, you had made statements to myself and my 
council with the representative present at that time that 
correctional officers were going to be trained how to handle in 
transport detainees so that it would alleviate the stress and 
the pressure put onto our officers to cover both these duties, 
and that's been a year ago with no progress. Now, can you bring 
us around and up-to-date where that stands at this point?
    Ms. Herseth Sandlin. Again, that question will be taken for 
the record. I will give you the opportunity--some of the 
questions presented, because of the unique circumstances facing 
the Crow Creek Sioux Tribe, its facility, its law enforcement 
needs, you know, are very specific. I know that you have been 
posed with similar questions before and we want to give you an 
opportunity to be able to provide, through written testimony, 
the specificity in the response relative to the specificity of 
the question, but I do want to give you an opportunity here at 
the hearing if you'd like to take the opportunity now to 
address, either in more general terms or in more detail, a 
response to Chairman Thompson's concern and question.
    Ms. Baker. I'll just respond in general that we do--we have 
developed the training for--with the--in conjunction with the 
Indian Police Academy for armed escort training.
    We have had three academies. The first one was kind of a 
test academy we ran all of BIA through. I think there was 12 to 
each class. We've had two since then. I believe the last 
graduating class was 80 percent tribal employees. And it is an 
ongoing process.
    Ms. Herseth Sandlin. Let me pursue a few other questions 
and I know that we're going to get to the second panel here 
momentarily.
    On the issue of training that Chairman Thompson has brought 
up, his experience is unique. Although there are broader trends 
here that we need to address, because each facility, each tribe 
is going to have experiences that are unique, but at the same 
time, it's the broader trends that the Committee is pursuing 
here and each of us who has the honor of representing a 
sovereign tribe obviously is going to work with each tribal 
leader to address and get responses to the specific questions 
based on unique experiences, but the training issues, you 
know--and this gets to the flexibility for addressing the 
shortage of staff issues that have been cited and wanting to 
get to the heart of that. Because I think there are ways to 
alleviate that problem to the degree it seems to be the primary 
problem that the BIA has identified specifically to the Lower 
Brule Sioux Tribe.
    And I don't want to miss an opportunity, now that we have 
increased resources, again, although not sufficient to meet all 
of the needs, these increased resources for Indian Country 
coming from the Administration's proposed budget and what the 
House Subcommittee has already done.
    But the Bureau of Prisons has opportunities through 
distance learning, computer based training. We have this new 
facility in Pierre where you've already identified some 
officers have received some more specified training. We have 
young men and women in different reservation communities who 
may very well be interested in pursuing a career in law 
enforcement and yet if they do that, to become qualified as a 
BIA officer, I believe they have to go down to New Mexico to 
receive that training.
    Is that correct, Mr. Ragsdale?
    Mr. Ragsdale. Yes, ma'am, that's correct.
    Ms. Herseth Sandlin. And have you pursued either working 
with tribes in South Dakota as well as state officials in 
charge of the overall operation of the center and any other 
tribes in any other states a degree of flexibility where the 
training could be provided more locally, where young people 
could travel back on the weekends to be with their families 
rather than being in New Mexico for eight weeks?
    Mr. Ragsdale. We have had discussions about that but I must 
tell you that I may be a little bit biased because I am a 
graduate of the Indian Police Academy and I have also been 
through the criminal investigation school at Glynco, Georgia, 
who provide some of the best training for law enforcement that 
there is in the world. And so it is a requirement for their 
Federal certification that the majority of our officers go 
through the police academy and the criminal investigation 
course at Glynco, Georgia.
    Now, having said that, we use state agencies all the time 
to supplement our ongoing training and if we do hire someone 
from the outside that's been a deputy sheriff or a city police 
officer, there is a process that we can waive the long-term 
training for short-term training so that they can get their 
Federal certification.
    Ms. Herseth Sandlin. I appreciate your response and I might 
be a little bit biased myself because of the quality of the 
training that I know goes on at the center in Pierre and while 
I appreciate that the quality of the training that's provided 
in New Mexico or in Georgia and that in working with the 
states, there's supplemental training where there's agreements 
or memorandums of understanding with the tribes, again, we're 
dealing with an issue of crisis proportion in getting people 
trained to staff these facilities.
    I would hope that we could agree upon the need for the 
flexibility to perhaps provide the core training closer to home 
and the supplemental training, then, when these young people 
become officers, more comfortable, you know, and looking for 
other opportunities within that career to receive supplemental 
training further away from home. And so I would like to 
continue to pursue that with you.
    I have to assume that there are tribes in other parts of 
the country that would feel similarly that are located further 
away from Georgia or New Mexico. And again, that's the Great 
Plains tribes in particular that I've heard this concern 
expressed repeatedly, and again, the issue of acute shortages 
and crisis that is occurring in Indian Country and the need for 
some flexibility as it relates to the training required to get 
the credentials to fill these positions.
    I am going to submit other questions for the record that 
deal with the budget process issues, some of the issues that 
Chairman Thompson and Chairman Jandreau have brought up 
regarding the shifting around of resources, when unfilled 
positions go unfilled, and what the backlog is, and again, some 
questions I have so that we don't undercut these opportunities 
that we may have with the increased resources that will be 
becoming available.
    And then if you could get back with me in writing on the 
Bureau of Prisons computer based training as well as the 
distance learning offered in terms of supplemental training 
that officers could receive.
    And finally, I am going to state for the record again, Mr. 
Chaney, appreciating your candor about the time lines for the 
Lower Brule Sioux Tribe facility as well as, Mr. Ragsdale, your 
comment that there has been no proposal to consolidate the 
detention facilities for Crow Creek Sioux Tribe and Lower Brule 
Sioux Tribe, that it would take us another year to have the 
Lower Brule Sioux Tribe detention facility for which, as 
Chairman Jandreau mentioned, five and a half million dollars of 
tribal funds went into that project in part based on assurances 
that Chairman Jandreau and others were getting that this 
process would move forward in a more timely way, a year's 
unacceptable to me.
    So I am, I guess, putting you on notice in the spirit of 
cooperation here that we work together to try to move that date 
up substantially and wanting to be in a position of working 
with the Chairman and Ranking Member and others on different 
committees of jurisdiction to identify the process and the 
financial means of doing so.
    Thank you very much, each of you, for your testimony and 
for your insights. As those who have joined us today, many of 
you being in the field of law enforcement, tribal leaders, 
recognizing the complexity and breadth of these problems, 
today's hearing is dramatically important, but again, the 
continued conversations, gathering of information that we'll be 
pursuing in the weeks ahead will--it is my hope will lead to 
the kind of progress that I think we all want to see for the 
safety of the communities, especially for the children in our 
communities and the parents and elders that want only the 
safest and most secure for the future of every community and 
the Federal Government's obligation to explore the different 
options as it relates to the funding and resources, but a 
better process, more transparent, timely, responsive process 
that meets the needs and priorities articulated and identified 
by tribal leaders across the country.
    So thank you very much for your testimony and I would 
invite our second panel to the witness table. We're going to be 
taking a short break after the second panel, before the third, 
and when we do break--and I'll repeat this after we finish the 
second panel--when we break, we're going to have press 
availability and we're going to be using Chairman Jandreau's 
office so the witnesses from the first panel and the second, as 
well as the third, may want to join us at that time.
    So as our witnesses for the second panel are taking their 
place at the witness table, let me thank, again, the first 
panel for their expertise.
    We're going to focus on a narrower aspect of law 
enforcement for our second panel. I'm sorry, I'm going to the 
third panel. Let me get to the second one.
    There are a number of other tribal leaders joining us on 
the second panel. We have President John Yellowbird Steele, who 
is here with the Oglala Sioux Tribe, The Honorable Rodney 
Bordeaux, President of the Rosebud Sioux Tribe. Welcome. We're 
going to switch your nameplates around, actually, President 
Bordeaux. And then Gary Gaikowski. Yes, very good. Thank you. 
Sisseton Wahpeton Oyate Chief of Police. And is Chairman Joe 
Brings Plenty here?
    Mr. Bordeaux. Yes, he is.
    Ms. Herseth Sandlin. OK. He'll be joining us here 
momentarily. We'll give him a moment.
    But again, as I mentioned, we have mostly on our second 
panel tribal chairmen and presidents. We've also been able to 
include Chief of Police Gary Gaikowski, all with extensive 
experience dealing with the challenges of providing law 
enforcement in their respective communities and I appreciate 
their leadership as I've consulted with them to address some of 
the concerns that I expect them to raise.
    That was a long first panel so I know people are taking a 
quick break, but in the spirit of moving things along, we'll 
have--I know that Chairman Brings Plenty will be joining us 
momentarily, but why don't we go ahead and get started with 
President John Yellowbird Steele's testimony today.
    Welcome. Thank you for being here, and we look forward to 
hearing from you and the experiences of the Oglala Sioux Tribe. 
Again, as the witnesses from the first panel pointed out, I 
know you and everyone else on this panel has submitted a 
written statement for the record which will be made part of the 
record in its entirety and so we recognize you to summarize and 
address some of the highlights of your testimony for the 
Subcommittee and for the full Committee today. Thank you, John.

STATEMENT OF THE HON. JOHN YELLOWBIRD STEELE, PRESIDENT, OGLALA 
             SIOUX TRIBE, PINE RIDGE, SOUTH DAKOTA

    Mr. Steele. Thank you.
    Congresswoman, we thank you very much for holding this 
hearing here in Lower Brule, and for the record, I'd also like 
to say that down in Pine Ridge, we're more than two times the 
State of Rhode Island in size and our law enforcement, we need 
to do 24/7 in this very large area and we have about 50,000 
residents at Pine Ridge.
    Congresswoman, before I begin my testimony, I'd like to 
recognize the Chairman of the Winnebago Sioux Tribe--Winnebago 
Sioux Chairman--Winnebago Tribe down in Nebraska, Chairman 
Pilcher, and Chairman Cournoyer from the Yankton Sioux Tribe. 
And if possible, Congresswoman, if we have some time, could 
they give some oral testimony also? That would be my request 
for those two reservations. They are a part of us also.
    Ms. Herseth Sandlin. Yes, certainly. And I do appreciate 
you introducing our chairmen here today and we made every 
opportunity, we were--had some limitations both in terms of 
time and the size of each panel, working with the Committee in 
organizing this and wanting to make it as comprehensive and 
inclusive as possible. And I would certainly agree they are 
part of the broader issue we're trying to get at here today and 
I would invite both of the Chairmen, perhaps at the conclusion 
of our third panel, as a separate part of the hearing today to 
provide oral statements for the record so that we can stay on 
track with the written testimony that's been submitted, get to 
our third panel after a short break, and I'd invite both of 
them up to share their insights with the Committee.
    Would that--is everyone amenable to that? Very good. Thank 
you for introducing them.
    Mr. Steele. Thank you.
    I'd also like to recognize our former president of the 
Oglala Sioux Tribe Cecelia Fire Thunder and former president of 
the Oglala Sioux Tribe Mr. Paul Iron Cloud. He's, to me, a 
traditional chief back in, I think, 1980 some by Porcupine and 
he's got about 5,000 people in his jurisdiction.
    Ms. Herseth Sandlin. Thank you. Thank you for introducing 
them both. I've appreciated my working relationship with both 
of them in the different leadership capacities that they--
different hats that they wear at different times and certainly 
appreciate your leadership over the years and look forward to 
your testimony.
    Mr. Steele. Yes.
    My testimony, Congresswoman, I would like to keep brief and 
more of an overview and then reserve a little of my time for my 
chief of police, Mr. James Twiss here, to give some numbers and 
conditions of facilities and different services that we do 
have.
    First, Congresswoman, I would like to address the fact that 
in South Dakota, the South Dakota State Supreme Court says that 
the facts are different in South Dakota. So there is a United 
States Supreme Court case called Hicks versus Nevada that says 
that state police can go onto reservations to serve due process 
and to do their work.
    We had a Fall River County sheriff chase one of our tribal 
members onto the reservation by the casino there putting some 
charges against him. This went up through the state court and 
ended up at the South Dakota State Supreme Court and they said 
the facts are different in South Dakota. Hicks versus Nevada 
does not apply in South Dakota. State police cannot go onto 
trust lands in South Dakota. So this gives tribes complete 
jurisdiction without any kind of help or assistance from the 
outside.
    And we have just passed, also, a law on Pine Ridge on the 
registration of sex offenders as required by Federal law. If 
this was not done by July, the state would come in and do the 
registration of the sex offenders, but on Pine Ridge, we do not 
want the state to come in or to do anything, if possible. We 
need the Federal Government to craft their legislation so that 
we remain sovereign and in control completely of our 
jurisdiction.
    So this task of registering the sex offenders falls upon 
Public Safety again, but on Pine Ridge we're getting cut by 40 
percent come October 1st. We are prohibited from going to the 
Department of Justice of the U.S. Government now and we're 
going to lose all of the funds for officers, for our vehicles, 
for other services come October 1st.
    The BIA has cut us more than anyone else. Although you, 
Congresswoman, put an increase to the Bureau, we are losing our 
historic monies, not getting any part of the increases the way 
the Bureau of Indian Affairs is coming up with their formula.
    We are very proud of you, Congresswoman, for questioning 
them and for making it public to other legislators and the 
Administration. What I heard were excuses and you, 
Congresswoman, asked them about it several times, budget 
constraints, budget constraints, these excuses. They never 
advocate for us, Congresswoman.
    But the facts are different here and we have more 
jurisdictional control, more duties, jurisdictional duties that 
are not recognized.
    I would like to bring up one more thing before I have my 
Chief of Police come up and give us some numbers here, 
Congresswoman, and very respectfully I would like to say: We 
have a relationship with the U.S. Government and this is in the 
treaty. This treaty, in a proclamation I put in my written 
testimony and I also give to you, the last paragraph there that 
Senator Johnson did in the proclamation tells of the different 
kinds of treaties and this established relationship with the 
U.S. Government and we are the one treaty that was done as with 
a foreign nation.
    There was recognized by the U.S. Congress back then a legal 
obligation for these treaty rights, and public safety and the 
police protection of the people is one of those treaty rights.
    Congress used to appropriate monies based upon a head count 
by the Bureau of Indian Affairs superintendent every year to 
meet these legal treaty obligations. In 1921 the Snyder Act was 
passed authorizing appropriations for Indian Health Service and 
BIA. Now the BIA puts the budget in. The BIA does not recognize 
or act according to a legal treaty obligation.
    Congresswoman, we are of an area that is quite 
impoverished. This means people who see on TV the rest of--the 
way the rest of America lives. How long are we to live this 
way? The BIA is cutting what they call the Tribal Priority 
Allocation systems, the monies, historic monies we get. Where 
do they cut? They cut HIPAA. They cut THREP out. They cut 
Federal assistance out. They are hurting the poorest among the 
poor.
    Again, we thank you for questioning them. How long are we 
to live with this and put up with these budget constraints?
    We were very thankful that Senator Johnson recognized our 
treaty and put that proclamation out and we're living--we're 
trying to live according to it and educate people according to 
it. We have kept our end of that treaty. The U.S. Government 
took the whole half of South Dakota, one-fourth of North 
Dakota, Montana, Wyoming, down to the Platte in Nebraska, as 
long as the grass grows and the rivers flow.
    We have not formed our own Army or militia. We have not 
made a relationship with any other country in the world. But 
impoverishment, Congresswoman, pushes people to do strange 
things. And we are, across the State of South Dakota, quite 
impoverished.
    We would request, Congresswoman, that you make possibly--
what do they call that? Earmark for law enforcement. Our people 
need to feel safe in their homes, in their communities, and 
make it recurring to the BIA so that they can't mess with it 
and give it to some self-governance tribe.
    And I cited the Bureau a few years back, Congresswoman, 
because they tell their own people, ``You'd better be good or 
we're going to send you to Pine Ridge.'' I don't need that kind 
of thinking in the Bureau, that attitude.
    So Congresswoman, respectfully, the more impoverished, the 
more you're pushed to other ways of getting things done. I 
thank you for this hearing.
    [The prepared statement of Mr. Steele follows:]

       Statement of John Steele, President, Oglala Sioux Tribe, 
                        Pine Ridge, South Dakota

    Good Morning Mr. Chairman:
    My name is John Steele and I am the President of the Oglala Sioux 
Tribe. Thank you for this opportunity to appear and thank you for 
scheduling this field hearing.
    Mr. Chairman, law enforcement and public safety are some of the 
most basic and yet some of the most critical components of tribal life 
and tribal sovereignty. All Americans have the right to feel safe. I 
and a number of our tribal men were in the military and we fought for 
that right! This basic human need is so strong that our ancestors 
actually negotiated specific treaty provisions to insure it. Now, 
unfortunately, those same treaty provisions, which were and are 
supposed to insure us federal public safety assistance, have become 
nothing more than another broken promise.
    Today, the Oglala Sioux Tribe is facing the loss of almost 50% of 
our tribal police officers in FY 2008. This is coming at a time when we 
are also facing a frightening and devastating increase in the number of 
methamphetamine sales, violent crimes, gang incidents and domestic 
violence cases. And, at a time when the BIA is actually proposing an 
increase, although a totally inadequate one, in law enforcement dollars 
for other Tribes across the nation.
    The problems that I am about to describe are a direct result of the 
Interior Department's failures, and I would be less than truthful if I 
did not tell you that I am very angry about what has happened, and more 
than a bit desperate for your help. Here is our story.
    A few years ago, when tribal law enforcement programs were still a 
part of the BIA's Tribal Program Allocation (TPA) budget, our TPA 
allocation for Oglala faced a serious cut. This was due in large part 
to cuts that the Administration had initiated in programs that were 
primarily being used by a handful of tribes like ours, which had large 
land bases and large populations. Unfortunately, because our 
reservation is almost twice the size of the State of Rhode Island, and 
has no state police presence at all, since we are by treaty and by law 
under tribal and federal jurisdiction, our law enforcement needs are 
very high. In fact, even the BIA agreed that the 119 plus officers that 
it was funding at that time were grossly insufficient.
    When discussion began on how to address that budget crisis, the 
BIA's law enforcement staff advised us that while they were powerless 
to help us because of their funding limitations, they did have a 
solution to our dilemma. That solution went as follows: Instead of 
providing us with the funding that we really needed, the BIA 
recommended that we apply for police officer funding from the newly 
created Circle and COPS programs at the Department of Justice, and they 
agreed to help us acquire those DOJ dollars. Their reasoning was that 
by funding some of our BIA funded officers with DOJ dollars, we would 
temporarily take some of the burden off of our very limited TPA budget. 
This would allow the Tribe to use more of its limited TPA dollars to 
fund some of the critically needed social services that we were losing, 
and allow the BIA time to figure out how to get the money that we 
needed to address our new funding crisis. At their urging, we did as 
they suggested and applied for COPS and Circle grants. While this 
helped for awhile, it has now left us in a new and even more desperate 
situation.
    Under the approach I am describing, the BIA agreed that the COPS 
dollars would fund many of our officers' salaries and fringe, and the 
BIA dollars would fund their equipment, gas and other costs. Everyone 
was in agreement, and when the DOJ asked us to provide them with a 
statement of how these officers were going to be funded when our 5 year 
COPS program eligibility ran out (this is a statutory limitation), we 
told the DOJ what the BIA had told us, which was that the BIA would be 
picking up these salaries at the end of the DOJ grants.
    Then, right in the middle of our 5 year COPS grants, the BIA 
funding was short again, and this time these same BIA's law enforcement 
people encouraged us to apply to DOJ for funding to replace our police 
vehicles on a one time basis. Because we had a desperate need for these 
new cars, since our average police car books in excess of 80,000 miles 
per year, and because we had no other options, we did as they 
recommended.
    Then three things happened. First, as you can imagine, the BIA did 
nothing to help to add BIA money to our law enforcement budget. Second, 
the BIA and the Congress eliminated weatherization and one or two more 
programs that our Tribe was directing a sizable percentage of its TPA 
dollars into. When these programs went away, the TPA dollars attached 
to them disappeared as well. This resulted in another severe cut in the 
Tribe's overall TPA budget, leaving us with no money to move back into 
law enforcement as the COPS money decreased. Third, the BIA decided to 
take all tribal law enforcement and detention monies out of TPA, and 
create a new law enforcement/detention line item using as a base budget 
just the actual amount of law enforcement dollars that the BIA was 
providing to each tribe at the time and ignoring our COPS contribution.
    The end result of all of this is that we ended up today with a BIA 
law enforcement budget which funds less than half of the officers than 
it did when we first started talking with the BIA about our funding 
shortage, and the Tribe has ended up with a TPA budget which is, on a 
per capita basis, one of the lowest in the nation. Our law enforcement 
program is now so broke that most of our officers lack the basic 
equipment they need to do their jobs. For example, most of our police 
cars aren't even equipped with flares, fire extinguishers, emergency 
kits or even cones to block traffic when an accident occurs, and many 
of our officers have not received all of the training federal policy 
requires because we do not have the funding to send them. We also have 
no BIA budgeted funding whatsoever for vehicle rentals or replacements 
in 2008. Thus, we went from having an inadequate 119 officers before 
this started, to the 67 that we have now, and if nothing is done, we 
will be down to well below 40 in 2008.
    Today, we have 40 BIA funded officers and 27 DOJ funded people to 
cover an area twice the size of Rhode Island, 24 hours per day, 7 days 
per week. Our DOJ officers will go away in 2008 because we are legally 
prohibited from applying for or receiving further COPS funding, and if 
we need to use some of the funding that the BIA currently provides to 
replace our police cars, each car will cost us one of those 40 BIA 
funded positions. At best, this will leave us in 2008, with 
approximately 25% of the police force that we had in the late 1990's 
and 50% of the already depleted force that we have today.
    While we understand that the federal budget is tight, we cannot 
believe that this problem should prohibit this Committee from 
addressing bureaucratic negligence of this magnitude. The BIA has 
already said that on-reservation law enforcement, public safety and 
methamphetamine eradication are some of the President's primary 
concerns. We agree with these priorities and all we are asking them to 
do is to live up to the very principals that they themselves are 
expounding.
    Mr. Chairman, our response time is already over an hour for 
emergency calls like assaults and robberies in progress and our 
officers are already working without backup. This creates very serious 
situations for both the victim and the officer, especially when you 
factor in unpaved and virtually impassable roads. Thus, the bottom line 
is that we need help now.
    This unfortunately, is not the only problem that the BIA has left 
to us. We currently have two tribal jails which have been condemned for 
a number of years. If you look at the photos that we have provided, you 
will see a coffee can and a rubber wrap being used to keep two piece of 
pipe held together, exposed wiring next to flooded floors, walls so 
dilapidated that we actually had a prisoner punch his way out of jail, 
leaky roofs, cracked walls and other major problems. What you will not 
see is the fact that both of these jails lost heat altogether during 
some cold periods this winter, and that a number of our officers had to 
be pulled off of patrol altogether just to move prisoners out of this 
dangerous situation. One set of prisoners had to be moved from the Pine 
Ridge Detention facility to the Kyle Facility, which is the distance of 
56 miles one way. That trip took roughly one hour to complete. This 
also placed an additional burden on the vehicle cost line item in our 
budget which is strained to begin with. The bottom line, however, is 
that the list of life threatening problems for both officers and 
detainees at these facilities, and the list of constitutional 
violations that they present is too long to cover in this short 
testimony.
    We also have a 911 center, the only one that serves most of our 
reservation, which is so deteriorated that it has snakes and mice 
coming through the roof, doors and walls and damaging thousands of 
dollars of government funded equipment. It also has a foundation which 
is literally falling off a cliff. Our law enforcement staff works in an 
administration building which is full of airborne asbestos, has a leaky 
roof, cracked walls and a wiring system that is not capable of handling 
our computers electronic equipment and our Tribal Court building is as 
bad if not worse. How can we possibly serve our people adequately under 
these conditions?
    Our detention program also has a major staffing problem. In fact, 
we are so severely under-funded that we are often forced to leave one 
officer to oversee 30 or 40 male and female prisoners, many of whom are 
under the influence of alcohol or drugs. Our Director of Detention 
tells of one instance where a female corrections officer was forced to 
go into the drunk tank to break up a fight and she was attacked by a 
prisoner. This prisoner had her held down by the neck and the only 
thing that saved her was that fact that one of her extended family 
members happened to be being detained in that same cell at that same 
time. That female guard was the only person on duty at the time, and 
her only method of communicating with the single staff person at the 
juvenile facility next door was a whistle which she could not blow, 
because she could not breathe.
    Our tribal court building is also condemned and in similar un-
repairable condition. Vital tribal court records are being destroyed by 
mold and water damage, computers are often damaged by faulty wiring, 
asbestos is coming through cracked walls and ceilings and space is a 
very serious problem. Records from 1934 remain in jeopardy and much 
needed electronic records retention equipment is simply not available. 
How can you monitor someone through the court system under these 
conditions? It violates even the most basic constitutional standards.
    Mr. Chairman, all of these buildings are well beyond repair and the 
costs of even the most basic repairs far exceed the cost of new 
construction. I have attached a more detailed physical description of 
these building along with pictures for your review.
    We realize that in order to be effective our tribal law 
enforcement, courts, incarceration services, domestic abuse and other 
social programs, and Indian Health detox programs all have to work 
together. For this reason, we have been developing a new concept for an 
Oglala Sioux Tribe Department of Justice. If our Courts are not 
adequately staffed and equipped, then they are not going to be able to 
deal effectively with the people our police department arrests. If our 
jails are not safe, and if our diversion programs, like alcohol and 
drug detox and domestic violence counseling are not available, then our 
Judges cannot do their jobs effectively. And, if our people do not 
receive the detox and counseling services that they require, then they 
are going to be re-arrested. It's just that simple. Public Safety has 
to be a package deal.
    Unfortunately, one of our draw backs has been that we have no place 
to house this new Department. As I noted above, our law enforcement and 
courts programs are currently being housed in overcrowded, dilapidated 
buildings, where we cannot even store the basic legal records that we 
need to keep, or run the types of computers that we require in order to 
properly manage criminal and civil information. We have taken this 
space need to the BIA and all they tell us is that they have no money. 
We also have no detox services on our reservation, and our social 
service programs are so stressed that they cannot properly manage all 
of the cases that they receive. All of this combines to leave our 
community wide open to the negative influences of drug pushers and 
gangs and that is a very scary thought.
    Today, our reservation is at a cross roads. We can either address 
these problems now, or deal with far larger problems in the future. 
It's just that simple. Our people deserve better and I would like to 
thank you for holding this hearing to begin to highlight what is really 
going on.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 

              Oglala Sioux Parks and Recreation Authority

  The Needs and Challenges of Tribal Natural Resources Law Enforcement

                            Fiscal Year 2007

Introduction:
    It has been said that what defines a people is their land base and 
their cultural ties to that land base. For the Oglala Sioux Tribe, the 
on-going protection of its homeland, its sacred sites, its natural 
resources and its historic properties is of the utmost importance. This 
is exactly what the Oglala Sioux Parks and Recreation Authority does. 
It protects the Tribe's cultural and natural resources on the Pine 
Ridge Indian Reservation and in so doing, it insures compliance with 
tribal and federal laws including those designed to insure Homeland 
Security. This is an aspect of law enforcement that is generally 
forgotten in the Committee's oversight hearings, but that does not make 
it any less important.
    The Oglala Sioux Parks and Recreation Authority is a tribally 
chartered entity that is nearing its 33rd anniversary. The organization 
provides law enforcement on the Tribe's cultural and recreational 
lands, and insures the protection of its cultural, interpretational, 
anthropological, and pale-ontological sites, as well as the protection 
of the Tribe's environment and natural resources. It also provides 
general tribal and federal law enforcement services on those sites. The 
OSPRA has a P.L. 93-638 contract with the Bureau of Indian Affairs to 
provide fish and wildlife enforcement services on our Reservation. As 
is the case with all 638 contracts, there is not now, and from the 
beginning never was, adequate funding to provide these important 
services.
    Over the past 32 years, the Rangers have seen an increase in the 
number of violations of tribal and federal natural resource law. They 
have also seen a new rash of cloudy jurisdiction problems. Property 
violations are on the rise, and the number of hunting requests on 
tribal land is increasing every year. This has put a real strain on the 
program, because the Rangers are not only responsible for the 
dissemination of all hunting licenses, they are also responsible for 
the enforcement of all hunting laws. Hunting is a year round activity 
on our Reservation and the Rangers are seeing an increase in the number 
of people participating every year. With all of these increased duties 
and enforcement responsibilities, the program's expenses continue to 
increase, yet the Rangers have not seen an increase in their 638 budget 
that reflects the increased costs associated with providing these most 
important public services.
    The OSPRA has a total of five Enforcement Rangers in their 638 
budget. All Rangers are certified through the Indian Police Academy and 
the program has a 92.5% successful completion rate. These five officers 
are to provide Home Land Security and enforcement services for the 
entire residential and visitor population. This can be defined as a 
service population of 50,000+ individuals. The Rangers patrol the 
entire Reservation, including many miles off road, always without 
backup. When it is said that they provide patrol services for the 
entire 3.1 million acres this is a fact. Most of the Rangers' work is 
off road in the most remote locations on our Reservation, and this 
requires extensive investigation and community policing strategies.
    The Rangers are not afforded the luxury of simply charging a person 
with a violation and taking the violator to jail, the Ranger has to 
deal first hand with the issue on the spot. This requires extensive 
investigation work on site and extensive interaction with the general 
public. In providing Home Land Security to the members and visitors to 
the Reservation, the Rangers often find themselves dealing with non-
Indians. This means that the Rangers have to know more than tribal Law, 
they also need to know Federal law, especially when dealing with 
jurisdictional issues. The Rangers also have to have a working 
knowledge of land ownership and land management to ensure proper 
enforcement on properties which are owned by a variety of different 
entities and individuals. To enforce natural resource ordinances, the 
Rangers also have to know who possesses what permits and for what 
specific locations.
    The Rangers are also the only entity on the reservation that 
provide complete search and rescue services. The goal of its search and 
rescue unit is to provide search and rescue as opposed to recovery. 
Their importance and success is evidenced when you consider the number 
of lives that have been saved versus the number of bodies recovered.
    Our Rangers are also responsible for providing interpretation 
services for the many visitors to the South Unit and the Wounded Knee 
Memorial--two of our most important properties. This makes them 
responsible for the enforcement of our business license and public 
intoxication codes on these properties and on the other lands that they 
patrol.
    Anthropological violations occur on a daily basis, especially in 
the South Unit of our Reservation. The Rangers have many items of 
evidence that need to be kept on their person in order to insure a 
successful prosecution. To insure the protection of our most sacred 
items, the Rangers are also burdened with the duty to locate and 
inventory tribal natural resources and cultural items, especially 
fossils.
    With a total of five Rangers this is an impossible task. The Oglala 
Sioux Tribe has entered a project agreement with the National Park 
Service. Part of the agreement consists of developing a general 
management plan for the South Unit. All indications are that this will 
become a tribal park. If this happens the OSPRA will be the sole law 
enforcement on these 133,000 acres, which house an abundance of our 
natural resources and receive a variety of visitors.
    As with all law enforcement across Indian Country, the Rangers are 
severely under funded. Our lack of adequate resources leaves few 
dollars for proper equipment, no money for cost of living allowances, a 
significantly under funded line item for vehicle operation costs and 
the bottom line is that the dollar amounts awarded through the Ranger's 
638 contract do not properly reflect the ever changing budget needs of 
this important program. The current amount of funding only leads to law 
enforcement failure in this area.
    The Oglala Sioux Parks and Recreation Authority is proposing a 
three-year plan that will meet the ever growing challenges:
    <bullet>  Adequate dollars to not only hire, but retain the best 
personnel.
    <bullet>  Adequate dollars for proper equipment, maintenance and 
repair and a reasonable operating budget for the program.
    Towards this end, the Oglala Sioux Parks and Recreation has 
developed a three funding request. The overall increase dollar amount 
being asked for in the first year is $1,028,760. This is an increase of 
$784,436 over its current funding level. This number reflects the 
dramatic difference between meeting the basic needs of the program and 
failing to do so, which is what the current budget is designed to do.
    To meet its most basic needs, the Oglala Sioux Parks and Recreation 
Authority needs a total of 20 full-time Rangers and an overall contract 
which reflects the ever growing demands that are placed on its program. 
The people of the Pine Ridge Reservation need these Rangers in order to 
support the Tribe's Homeland Security Programs and to insure the 
enforcement of theirs laws on these most important properties. The 
people of the Pine Ridge Reservation respectfully ask the Congress to 
understand that their Tribe, and its lands and historic resources need 
the same support that the Congress provides to the Officers employed by 
the U.S. Parks Service, the Bureau of Land Management, the Forest 
Service and the other federal programs which police its federal lands. 
Our people, our visitors and our property are no less important.
                                 ______
                                 
    Mr. Steele. I would like the Chief of Police to come up and 
give you some numbers, please.
    Ms. Herseth Sandlin. Yes, please. And, Chief, if you could 
identify yourself for the record prior to giving us the 
statistics.

  STATEMENT OF MR. JAMES TWISS, CHIEF OF POLICE, OGLALA SIOUX 
                TRIBE, PINE RIDGE, SOUTH DAKOTA

    Mr. Twiss. Thank you, Madam.
    Good afternoon. My name is James Twiss, Chief of Police of 
the Oglala Sioux Tribe of Pine Ridge, South Dakota.
    Madam Chair, to help you better understand my testimony 
today, let me give you some background information on our 
tribe. Pine Ridge is one of the largest and poorest 
reservations in the United States. Our average income is about 
$7,000 and unemployment is about 50 percent. We have on the 
reservation a population of 50,000 people and our reservation 
is double the size of Rhode Island.
    We are a treaty tribe whose reservation is in a non-280 
state. This means we have no state police patrolling our 
reservation and jurisdiction is strictly tribal and Federal. We 
operate the only 911 center on our reservation and that center 
receives about 180,000 calls for service per year. We also 
operate three adult detention centers and one juvenile 
detention facility. We're averaging about 27,000 arrests a 
year.
    I'm here today because we are the only tribe in Indian 
Country who is scheduled to lose in excess of one-third of our 
already understaffed police department because of bureaucratic 
screw-ups. Here is what happened.
    When money got tight, the Oglala's Tribal Priority 
Allocation in the 1990's, the BIA encouraged us to start 
funding a sizable number of our law enforcement officers using 
DOJ funds.
    According to what we were told, this was supposed to have 
been a temporary fix to an extremely underfunded tribal budget. 
Eventually under this scenario we ended up with 50 percent of 
our law enforcement officers being funded with short-term DOJ 
grants.
    Every year we would ask the BIA to start picking up on 
those DOJ positions and every year we were told that they were 
working on it for the next fiscal year. Now we find ourselves 
at the end of the eligibility for those DOJ funds and neither 
we nor the BIA know what to do about it.
    The people I am talking about are not new hires, Madam 
Chair. These are officers we have had with us for ten years. As 
I've said, no other tribe in the U.S. is facing this large of a 
cut in their police force. But BIA openly admits that we need 
more officers and probably a minimum of 30 more but they don't 
have a mechanism to pick up the cost of these 28 officers.
    We are therefore coming here to ask you to add or earmark 
$1.3 million to our base budget just to maintain our existing 
police force. Our police are already stretched to the limit. We 
have 69 officers on the reservation to answer 180,000 calls for 
service each year. We have many of those officers traveling 
over 350 miles per eight-hour shift. We don't know what we're 
going to do if we lose these 28 officers but I can almost 
guarantee you that we will not be able to respond to all the 
domestic violence and child abuse calls that we receive every 
day.
    Imagine, Madam Chair, if you were car jacked in Pine Ridge. 
Right now it would take us about an hour to get to you and 
another hour to transport you to the hospital if you were 
lucky. This is what our people face every time they need police 
assistance. And don't have accidents in Pine Ridge, because we 
don't have any emergency equipment in our vehicles such as fire 
extinguishers, shovels, chains, cones, cameras. Also, there's 
no triple A within a hundred miles.
    The simple bottom line is to just stay in the already 
underfunded position that we are in, we need $1.3 million added 
to our base budget. And I cannot say it any more simpler than 
that.
    Unfortunately, this is not our only problem. Two of our 
tribal jails, one at Pine Ridge and the other at Kyle, and also 
our office building are so dilapidated that they're beyond 
repair. I brought you some photographs on a DVD to help you 
understand what I mean.
    But let me give you some examples. This past winter, Pine 
Ridge and Kyle jail both lost heat at the same time. And this 
was not an unusual occurrence because unfortunately the 
furnaces at both jails go out on an all too regular basis.
    We also have holding rooms and cells with standing water 
and leaking water on the floor and exposed electrical wiring on 
the walls. This is a very dangerous situation given that we 
house intoxicated persons in these rooms. We have bad roofs, 
bad walls, and electrical and plumbing systems that are beyond 
repair.
    As you will see from our photographs, you also have raw 
sewage backups, windows and cut glass, and intercoms and 
emergency lighting that doesn't work at all. To make matters 
worse, we are exceeding occupancy, maximum occupancy by one 
hundred percent.
    Madam Chair, the BIA has spent sizable amounts of money 
just to keep these buildings open and as they have said 
earlier, it's going to cost more to repair then to rebuild. If 
any other government was housing prisoners under these 
unconstitutional conditions, it would be front page news in the 
New York Times.
    We need both Pine Ridge and Kyle jails replaced now and the 
BIA's own figures suggest the cost is 11 to $12 million each. 
Because we are sensitive to your budget constraints and 
limitations and because our tribal courts and tribal law 
enforcement headquarters are in such deplorable shape with 
airborne asbestos in every room, we came up with the idea of 
asking for funding for a single justice building that would 
house our tribal courts, our criminal and civil records storage 
and evidence lockers, our law enforcement functions, and one of 
our tribal jails.
    While this building would be more costly upfront, savings 
on water, sewer, and other utility hookups and parking make it 
far cheaper than asking for three new buildings. We estimate 
the cost of this facility to be somewhere around $20 million.
    Adding to these problems is the fact that we lack the 
manpower to staff our detention facilities. Today it is not 
unusual to have just one correctional officer working alone in 
the jail when the jail occupancy is 50 to 60 people. In fact, 
during powwow season we have had over 200 people or more in one 
tribal jail facility. This is a very dangerous situation for 
the residents and the officers who perform these tasks.
    We have had a female detention officer in the not too 
recent past who went into the drunk tank to break up a fight. 
One of the males involved in the altercation attacked the 
female detention officer and was close to killing her. The only 
thing that saved her was one of the inmates in the drunk tank 
was a family member who came to her rescue.
    Madam Chair, to get the appropriate number of correctional 
officers we need, we'll need another $703,000 to add 22 
correction officers for our department.
    Madam Chair, we need your help and we don't know who else 
to turn to. Our situation, which has been bad for some time 
now, is rapidly becoming desperate.
    If you have questions, I'll be happy to answer them, but I 
ask last that you come to Pine Ridge and see for yourself what 
we're up against.
    And also I'd like to add that, in regards to the earlier 
panel when they talked about the meeting in Albuquerque, we 
were never invited to this meeting and Mr. William Mehojah of 
BIA facilities has never answered any of our correspondence 
that we have sent him.
    Thank you.
    Ms. Herseth Sandlin. Thank you. I appreciate you being here 
and your additional testimony in addition to President 
Steele's. I'll have some comments and then questions but we'll 
move to President Bordeaux for now, but if you'd remain for the 
rest of this panel. OK.
    Mr. Twiss. Yes.
    Ms. Herseth Sandlin. President Bordeaux, welcome. Thank you 
for being here.

STATEMENT OF THE HON. RODNEY BORDEAUX, PRESIDENT, ROSEBUD SIOUX 
                  TRIBE, ROSEBUD, SOUTH DAKOTA

    Mr. Bordeaux. Thank you, Madam Chair.
    My name is Rodney Bordeaux. I'm the President of the 
Rosebud Sioux Tribe. On behalf of the members of the Rosebud 
Sioux Tribe I want to thank you for the invitation to testify 
before you and I also want to congratulate you on your recent 
wedding.
    Ms. Herseth Sandlin. Thank you.
    Mr. Bordeaux. As you know, the Rosebud Indian Reservation 
is located in south central South Dakota and has 20 communities 
that encompasses a four county area. Our former reservation 
included trust acreage of 3.2 million acres and it is home to 
approximately 19,000 of approximately 26,000 members of the 
tribe. Our 3.2 million land base has dwindled down to about 
882,000--890,000 acres of trust land.
    As you know, many of our tribe suffer from high rates of 
unemployment, low life expectancies, high rates of diabetes, 
heart disease. Recently we had a rash of suicides and that's an 
ongoing problem. Low secondary and post-secondary graduation 
rates. As you already know, the Rosebud Sioux Tribe has an 
alarming increase in illegal activities.
    For example, methamphetamine use is on the rise. Through 
our participation in Safe Trails--Northern Plains Safe Trails 
Task Force, we have had 51 indictments between September of '05 
and May 7th of this--April 7th of this year, and we do have an 
officer, if you want to learn more about the problems that we 
have with the methamphetamine problems, he is here and 
available for some comments.
    Gang violence is on the rise. Since last August of last 
year, our GRTF task force, our gang reduction task force has 
identified 863 gang members so far ages 12 to 41, and that's 
just in Todd County itself. So that's ongoing. They're out into 
the communities. It's really scary.
    Crime has increased steadily between 18 and 23 percent over 
the last four years. We are underfunded to adequately provide 
law enforcement functions for public safety. We are short by 60 
police officers.
    The officer-to-resident ratio at Rosebud is 0.9 per 1,000 
residents, whereas the minimum officer-to-resident ratio in the 
United States is in the range of 3.9 to 6.6 officers per 1,000 
residents. When comparing the Rosebud ratio of 0.9 for every 
1,000 to the 6.6 ratio in the United States, we are short of 
police officers by over 700 percent.
    The Rosebud Sioux Tribe currently has 19 police officers to 
cover a land base of 890,870 acres spread out over a full 
county area. With an average of three eight-hour shifts, we 
only have an average of six hours on duty--six officers on duty 
per shift to cover over 22,000 people, tribal members as well 
as non-tribal members who call the 911 dispatch center.
    The adult jail--basically we need a new jail on the 
Rosebud. We don't have adequate space for the service 
population. The jail itself, it has consistent water leaks. The 
HVAC system fails every summer. There is no space for 
rehabilitation for the inmates such as a library for GED or 
other higher education services to try to reduce the recidivism 
rate.
    In addition to the 1.7 million which the Rosebud Sioux 
Tribe's Police Department receives in Federal funding, BIA 
funding, we would need an additional 60 uniformed police 
officers at a cost of $5.1 million. This would require a 400 
percent increase in the funding just to provide for adequate 
law enforcement.
    Our juvenile detention center recently opened. We need a 
licensed clinical psychologist because of a higher rate of 
suicides, the recent rash of them. We included to--we modified 
our budget to include this position but the Indian--the Bureau 
of Indian Affairs believes that the Indian Health Service has 
that responsibility but they are underfunded also. They only 
have a $400,000 budget that covers most of the reservation and 
we're losing two licensed psychologists on the Rosebud 
Reservation, mainly because one is retiring and we have another 
lady leaving the area.
    So with that, we put a mod in for one and we have 
identified a tribal member who is studying to be a licensed 
psychologist. Not only will she provide services to the 
children in the JDC, she could also assist in the outlying 
areas with the--our suicide problem so I would recommend your 
support in having the BIA approve that position. Right now 
we're waiting on word on that from the Bureau and so far we 
haven't heard anything about it. I met with Mr. Ragsdale and 
Mr. Chaney on this also but we still haven't heard anything.
    In addition to the problems I've just mentioned, there is 
other concerns. First, the Federal Bureau of Investigation has 
continued to receive increased funding over the years for 
investigating crimes in Indian Country. While the work that the 
FBI does in Indian Country is certainly needed, we need just as 
many funding increases at the tribal level. The Rosebud law 
enforcement services program has far too many crimes to 
investigate than the FBI can and is unable to investigate.
    I ask that the Committee look into the possibility of 
providing at least the same percentage in the increase of 
funding that the FBI gets to our law enforcement.
    Second, the Rosebud Sioux Tribe, due to the new jail 
facility that we need, has expressed the possibility of 
providing more jail services from the South Dakota--the U.S. 
Marshal Services in South Dakota. Because what we're having 
right now is the off reservation, the border towns like Winner, 
for example, they have a county jail system there, and they 
have a brand new one and basically they're just housing our 
prisoners there, Rosebud prisoners, and we'd like to get that 
back.
    However, we did put out feelers to the U.S. Marshal 
Services. We were told that there was no funding available and 
we feel that we can provide a better service for our tribal 
members. A lot of our tribal members have to--their families 
have to travel to Winner or up to Selby, North Dakota. Again, 
these border towns are getting the--reaping the benefits of our 
Federal prisoners so we believe we can provide that service.
    We just want you to try to help out the U.S. Marshal 
Service and the Office of Federal Detention Trustee to lift 
that moratorium on funding new jails. Because we know the 
Bureau doesn't have the money so we're looking for other 
sources of funding to meet our needs, in addition to the 
inadequate money from the BIA, the law enforcement personnel, 
vehicles, and equipment, incarceration, so at a minimum we're 
going to need 400,000, 400 percent increase in our funding.
    We get three-year grants from the Department of Justice 
COPS program but they're not enough to provide for the 
continuity of public safety for all our residents, Indian and 
non-Indian alike. These grants usually run out in three years 
and create yet another public safety crisis.
    I'd ask this Committee to please increase funding for the 
BIA at least 400 percent. I think that will address all of 
Indian Country. Not only can we not raise taxes on our land 
base because it's all Federally funded, our casino funding is 
pretty well tapped out. We have other services, suicide rates, 
elderly needs, and we do not have the resources.
    I guess the main thing I want to point out to you in terms 
of decreasing our rates is to--for increased economic 
development on the reservations. The more jobs we provide, the 
better opportunity we have to address some of those needs.
    We've met with students and tribal council. We've met with 
Todd County High School, St. Francis Indian School, the two 
major schools on our reservation. And they're pretty bright. 
They're basically asking for more after school activities, boys 
and girls clubs, things like that, increases in funding for the 
schools and more jobs for their parents.
    We've had students say directly to us that we need--our 
parents need jobs. So we see the need and we can meet our need 
on Rosebud if we had the funding. We could create more 
opportunities, create jobs for our people. We just need some 
more private sector funding, which we're also getting.
    We appreciate the Sicangu Wni Wahpeton Tribe for their 
assistance in trying to get a new grocery store. We're that 
close to getting it done. We have a new electronics facility 
going up in Mission. We just need a hand, you know, just a 
little assistance, and we can solve our problems.
    But the main thing is the BIA needs to increase the base 
funding so that we can get to a level so down the road, 20 
years, that type of activity has proved to be fruitful, we can 
see less need for--we can see a decrease in crime.
    And we really need to attack these gangs. We're having a--I 
can give you a lot of names of different gangs that come into 
our country, but we're attacking them directly by going 
directly to the communities and that's a major problem, there 
is outside infiltration. So if we could get more money for law 
enforcement and increase our gang resistance education program, 
we can meet these challenges.
    I want to thank you, Madam Chair. I appreciate this 
opportunity. I'll stand by for questions.
    [The prepared statement of Mr. Bordeaux follows:]

   Statement of Rodney M. Bordeaux, President, Rosebud Sioux Tribe, 
           Rosebud Indian Reservation, Rosebud, South Dakota

    Good afternoon Madam Chair Herseth-Sandlin and members of the 
Committee. My name is Rodney Bordeaux and I am the President of the 
Rosebud Sioux Tribe. On behalf of the members of the Rosebud Sioux 
Tribe, I would like to thank all of you for the invitation to testify 
before you here today on the needs and challenges of tribal law 
enforcement on Indian Reservations.
    The Rosebud Indian Reservation is located in south-central South 
Dakota and has twenty communities that encompass a four-county area. It 
is home to approximately 19,000 of the approximately 26,000 members of 
the Rosebud Sioux Tribe. I am glad to see the focus of this hearing 
today is going to be on Law Enforcement issues that are of critical 
concern to not only the Rosebud Sioux Tribe, but also to many other 
tribes throughout the State of South Dakota, and the rest of the United 
States. Many of our tribes are located in very rural and isolated parts 
of this region. Many of our tribes suffer from high rates of 
unemployment, low life-expectancies, high rates of diabetes, heart 
disease, suicides, low secondary and post-secondary graduation rates, 
along many other categories.
    As many may already know, at Rosebud there is an alarming increase 
in illegal activity. For example--
    <bullet>  Methamphetamine use in on the rise.
    <bullet>  Gang violence is on the rise.
    <bullet>  Crime has increased steadily between 18-23% over the last 
four years.
    <bullet>  The Rosebud Police Department receives approximately 
22,000 calls for emergency services each year.
    <bullet>  We are under-funded to adequately provide law enforcement 
functions for public safety. We are short by 60 police officers.
    <bullet>  The officer-to-resident ratio at Rosebud is 0.9 per 1,000 
residents, whereas, the minimum officer-to-resident ratio in the United 
States is in the range of 3.9 to 6.6 officers per 1,000 residents. When 
comparing the Rosebud ratio of 0.9 per 1,000 residents to 6.6 officers 
per 1,000 residents in the United States, we are short of police 
officers by over 700%
    <bullet>  The Rosebud Sioux Tribe currently has 19 police officers 
to cover a land base of 890,870 acres, where each officer has to cover 
over 48,566 acres of land. With an average of three 8-hour shifts, we 
only have an average of 6 officers on duty per each shift to cover over 
22,000 people, tribal members, as well as non-tribal members, who call 
our 911 dispatch center.
    <bullet>  The Adult Jail at Rosebud does not have adequate space 
for the service population. The Jail itself has consistent water leaks. 
The Air Conditioning system fails every summer. There is no space for 
rehabilitation services for inmates such as a library for GED, or, 
higher education services to help keep inmates from coming back to 
jail.
    <bullet>  In addition to the $1.7 million the Rosebud Sioux Tribe's 
Police Department receives in federal funding, we would need an 
additional 60 uniformed police officers at a cost of $5.1 million, for 
an annual base funding amount of $6.8 million. This would require a 
400% increase in funding just to provide adequate law enforcement 
services to all citizens within Todd County, and all tribal communities 
within Mellette, Tripp, & Gregory Counties.
    Madam Chair and members of the Committee, in addition to the 
problems I've just mentioned, there are also other concerns that we 
have at Rosebud. They are as follows.
    First, the Federal Bureau of Investigation (FBI) has continued to 
receive increased funding over the years for investigating crimes in 
Indian Country. While the work that the FBI does in Indian Country is 
certainly needed, we need just as many funding increases at the tribal 
level. The Rosebud Law Enforcement Services (LES) program has far more 
many crimes to investigate than the FBI can, or, is unable to 
investigate at Rosebud. I ask that this Committee look into the 
possibility of providing at least the same percentage increase of 
funding to tribal LES programs when the FBI receives increases from 
Congress.
    Second, the Rosebud Sioux Tribe has expressed the possibility of 
providing more jail space for tribal members from South Dakota 
incarcerated within the U.S. Marshals Service (USMS). We were told by 
USMS that in 2004 the Office of the Federal Detention Trustee (OFDT) 
imposed a moratorium on the acquisition of new jail space for the USMS. 
We were told by USMS that this was due to spiraling costs and a 
shortfall in funding provided by Congress in 2004. We explored this 
possibility of housing our own federal prisoners closer to Rosebud so 
that we could provide for more effective rehabilitation services to 
reduce the recidivism rate of federal prisoners who are members of the 
Rosebud Sioux Tribe, or, from other tribes for that matter. Various 
county-controlled jails have contracts with USMS to hold tribal 
prisoners. Why can't we do this? I ask that this Committee sincerely 
look at the possibility of providing more funding to OFDT and explore 
with Rosebud the ways in which we can look to reduce recidivism of 
federally-held tribal prisoners and helping them to become productive 
members of society. I believe that this approach will provide a huge 
cost savings to the federal government in the long run by keeping 
tribal members from going back to federal prison for multiple offenses.
    Madam Chair and members of the Committee, the direct answer to 
these problems is more adequate funding within the Bureau of Indian 
Affairs from Congress for law enforcement personnel, vehicles and 
equipment, and incarceration facilities, so that we can cover the vast 
amounts of area that require us to provide adequate public safety. At a 
minimum, the funding from Congress has to at least be increased by 400% 
Three-year grants from the Department of Justice are not enough to 
provide a continuity of public safety for all residents, Indian and 
non-Indian, within the Rosebud Indian Reservation. These grants 
eventually run out and create yet another public safety crisis. I ask 
that this Committee increase the base funding for the BIA LES tribal 
recipients by 400% to ensure continuity in services for effective 
public safety.
    We cannot raise taxes on our land-base because it's all federally-
held land that cannot be taxed. Therefore, we cannot raise the funding 
necessary to adequately fund our law enforcement program and our court 
system like other cities and counties can. We do not have the necessary 
economic activity sufficient enough to raise tax-revenue to fund our 
government services such as law enforcement. Yet, we are expected to 
provide law enforcement in one the fastest growing population areas 
within South Dakota. We are in a real crisis here--we need your help 
from Congress in order to alleviate these ongoing problems.
    I thank you Madam Chair Herseth-Sandlin and members of the 
Committee for your time today to address this important issue on behalf 
of the residents of the Rosebud Indian Reservation. I'll stand by for 
any questions that you may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6020.002
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6020.003
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6020.004
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6020.005
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6020.006
                                 
    .epsMs. Herseth Sandlin. Well, thank you very much, 
President Bordeaux. I appreciate your suggestions and your 
insights based on the experience of those who live in the 
communities on the Rosebud Sioux Tribe Reservation.
    I now would like to recognize Chairman Joe Brings Plenty 
from the Cheyenne River Sioux Tribe. Welcome. Thank you for 
being here on this panel and we look forward to your testimony.

  STATEMENT OF THE HON. JOSEPH BRINGS PLENTY, SR., CHAIRMAN, 
     CHEYENNE RIVER SIOUX TRIBE, EAGLE BUTTE, SOUTH DAKOTA.

    Mr. Brings Plenty. Thank you.
    Ms. Herseth Sandlin. Chairman Brings Plenty, I'm going to 
recognize you for five minutes but you might want to pull that 
microphone a little bit closer to you.
    I have your written statement and so if you want to 
summarize that for us at this time, I would appreciate it.
    Mr. Brings Plenty. Thank you, Madam Chair.
    I apologize for my late arrival.
    Ms. Herseth Sandlin. No.
    Mr. Brings Plenty. I was under the understanding I was on 
the third panel.
    Ms. Herseth Sandlin. That is true. For those that are here, 
we did a slight adjustment to the panels and so we appreciate 
you accommodating that and we meant no disrespectful by 
starting but we knew you were on your way and close so we 
appreciate you being here. Thank you.
    Mr. Brings Plenty. Thank you.
    First of all, I'd like to address in my Native tongue.
    [speaking in Native tongue.]
    Mr. Brings Plenty. Madam Chair and staff members, Mr. 
Asmus, Ms. Freeman, Ms. Erickson, I'm pleased to appear before 
you to testify.
    As a former police officer of nine years and social worker 
of four and a half years I have firsthand experience with the 
problems that our law enforcement and criminal justice systems 
face.
    My name is Joseph Brings Plenty. I am the Chairman of the 
Cheyenne River Sioux Tribe. I wanted to introduce you to our 
Chief of Police, Festus Fischer, who has worked in BIA and 
tribal law enforcement in Indian Country for 17 years, 
Supervisory Detective Larry LeBeau also, who has worked in law 
enforcement for 20 years, and also Steven Brings Plenty, a 
criminal investigator who has been with our department for 18 
years. That is some of the longevity that we provide for our 
law enforcement that actually these individuals have provided 
for us in all their years of service. They and their fellow 
officers represent the best of what we have to offer for our 
future.
    In my written statement I have provided the Committee with 
background on the Cheyenne River, what an extensive state we 
have. We have an average of three officers per shift covering 
19 communities. 15,000 people in an area the size of the State 
of Connecticut. That amounts to 5,000 people per officer and 
450 miles of road to cover in eight hours.
    We only have one location, Eagle Butte. There are no 
substations. The one way distance from headquarters to the 18 
outlying communities ranges anywhere from seven miles to 70 
miles.
    In 2006 the department responded to 11,488 calls for 
service and made 11,791 arrests. Most of these arrests were 
made by single police officers in a remote area. These arrests 
were made in these remote areas with no backup for several 
miles and, of course, with the miles, the minutes add up.
    Although we have been fortunate to have not had any of our 
officers killed in the line of duty in recent years, we have 
had officers attacked. For instance, Officer Arpan, who had 
served with the force, he had responded to a call over in--a 
community over in Dupree, a simple removal of an intoxicated 
individual, and when he arrived on the scene, he had been 
assaulted. This request for removal was requested by a kunsi, a 
grandma, an elder woman.
    And when he went to remove the individual, he was assaulted 
and stabbed seven times. But of course the individual that Mr. 
Arpan, he had detained, the incarcerated individual, as Mr. 
Arpan had a lot of loss of blood, I had time to sit down with 
him and go over some of the circumstances. We had no debriefing 
provided for him. He in three prior meetings had requested full 
body armor. Of course, you know, with the budget, we didn't 
have that to offer to him. And in time, the person that was--
Mr. Arpan, and with the dedication that he had to law 
enforcement, he walked away from law enforcement with that on 
his mind. Of course, like I said again, no debriefing of the 
whole process as far as what should have been provided.
    I want to talk with you today about two areas of concern. 
The first is problems with the current administration of law 
enforcement by the BIA and second, the continued underfunding 
of the program and the impact it has on our criminal justice 
service.
    Problems with administration of law enforcement services by 
the BIA will be--we will be funded. We also need oversight and 
make sure funds appropriated are used wisely. The BIA law 
enforcement received an increase in funding from Congress two 
years ago. Our tribe has never received one cent of that 
funding. They cite underfunding of BIA to operate law 
enforcement. If Congress does not specify that funds will be 
distributed based on need and will not include funding to 638 
contracts, our department will never see any of these funds.
    The BIA's decision to split out law enforcement services 
from under the central direction of the Great Plains Regional 
Director into their own divisions has created many new problems 
for our already underfunded law enforcement department. In my 
written testimony I provided the Committee with details on how 
the management was split up. Suffice it to say the scattering 
of lines of authority across the United States has created a 
huge financial expense and even worse, a confused chain of 
command. This doesn't work.
    Out of the new BIA Office of Justice Services we have had 
too many unfavorable experiences. When we have search and 
rescue missions or the need for the use of a canine and canine 
officers to assist drug investigators, which the BIA has, we 
cannot get access. The BIA has continually stated the liability 
for allowing this cooperation with a 638 contract tribe is too 
high. This was never an issue before.
    Under the old system, we--when we have a large event like 
an annual rodeo or powwow, we had officers come from other 
reservations. Both BIA and 638 contract operated organizations 
come and assist and we did the same for them. Under the new 
administration BIA officers are not permitted to assist. Again 
the BIA cites liability. This hurts all law enforcement in the 
Dakotas.
    Another serious problem is that the BIA Office of Justice 
Services has demanded that the tribe split law enforcement into 
a separate 638 contract from our master 638 contract. The tribe 
has refused BIA help. They withheld our funds for three months 
because we refused to sign. Our master contract includes all 
justice services and other programs.
    The tribe has cost savings in one area of the master 
contract. It can use those savings in another area of the 
master contract. If we split law enforcement into a separate 
contract, we can no longer use those savings in law 
enforcement. Law enforcement basically survives because of 
this.
    The split out and creation of a new administration hampers 
coordination of the criminal justice system. The courts are 
managed by the Great Plains Regional Director. Law enforcement 
is now managed by an entirely different administration not 
answerable to one central person except the Assistant Secretary 
of Indian Affairs. So with management scattered from cities to 
four or five different chains of command, our chief of police 
now has four bosses instead of one, that being the 
superintendent. This was done without any consultation with 
tribes at a huge cost to law enforcement funding. Now we hear 
that the BIA is trying to move courts into this new 
administration but again, no tribe has ever been consulted.
    The Cheyenne River Sioux Tribe has been administering law 
enforcement before the BIA ever provided funding for law 
enforcement. We have never in our history had BIA run law 
enforcement services. We know what we need, but the BIA is now 
making decisions without consultation with this or any other 
tribe. And these decisions are eroding our funding and our 
ability to run an effective law enforcement program and the 
funds Congress does appropriate are spent on top heavy 
administration.
    Instead of paying a superintendent at the agency, a 
regional director in Aberdeen, and a Washington, D.C., director 
with support staff, they are paying five bosses in four 
locations with support staff.
    Although our Fiscal Year 2007 budget was to have been 
funded the same as in Fiscal Year 2006, the BIA held back ten 
percent of our funding with no explanation, hurting our 
department even more.
    Problems created by underfunding. If I may, I want to 
explain to you some of the problems created by underfunding.
    Our current base funding received from the BIA does not 
allow the tribe to compensate any of the law enforcement 
employees with a salary comparable to those at an entry level 
position of the same type in the Federal BIA services. This 
results in a high employee turnover rate as well as employee 
burnout, reduced productivity, and increased liability.
    Our former Chief of Police passed away last month at 49 
years old. He had served in law enforcement at Cheyenne River, 
Standing Rock, and Yankton for over 27 years. There was no 
pension, no retirement. He left behind a wife and child. 
There's nothing for them. Yet we can fund a top heavy 
administration with two GS-13 and one GS-14 positions at the 
District I Aberdeen Operations Division alone at a cost of 
salary and 25 percent on top for availability pay and full 
retirement and benefits, a total estimated cost of 425,000.
    In the history of the Cheyenne River Sioux Tribe's law 
enforcement program, no employee has ever been able to retire 
from service. They resign and depend upon their Social Security 
check as retirement. This tribe has had to make a horrible 
decision, either cut salaries to increase the number of police 
officers or fund at the same level as BIA officers with full 
benefits, and have only five officers and one criminal 
investigator. Our dedicated law enforcement staff have lived 
with this decision for our entire history.
    We have on staff right now officers who have served for 17 
years with no retirement, no salary increases other than 
inflation, and still working at salary levels before an entry 
level BIA law enforcement position, yet they are dedicated to 
protecting their families and people and so they stay here. 
This must change and will only be possible if you increase the 
base program funds to tribes.
    The detention facility on Cheyenne River Sioux Tribe is 
serving as a regional facility housing adult and juvenile 
offenders for the BIA from reservations in South Dakota, North 
Dakota, Minnesota, and Nebraska. This introduces new violent 
offenders to our community and presents a serious risk to our 
population and our detention staff. It also ensures we don't 
have the space for our own offenders, but we have to find 
funding somewhere.
    The BIA just authorized about $1 million to upgrade our 
facility. This one in Crow Creek is told over here there is no 
money. If this doesn't prove OGS intends to regionalize 
detention, I don't know what will.
    The criminal court hears over 3,000 cases a year with one 
judge and one prosecutor. The juvenile court hears over 1,000 
delinquent petitions a year with one judge and one prosecutor. 
Justice delayed is justice not served. The average time between 
arrest and trial is six months. The lack of funding ensures 
there is no justice and no safety for communities.
    Our law enforcement program simply does not fund uniforms, 
body armor, in the case of Mr. Arpan, and basic police 
equipment. We can't afford it.
    GSA leases our vehicles and our cars that we don't have the 
funds to purchase and then retires fleets of vehicles. One time 
grants don't work. Especially with our roads that we work on.
    An increase in the base funding for our CRST LED from 
$2,664,688 to $5,659,572 was proposed in the 2007 Congressional 
testimony that was submitted by the Cheyenne River Sioux Tribe. 
We need a doubling of our budget to meet our law enforcement 
needs.
    In closing, I am proud of the dedication shown by our law 
enforcement officers who continue to provide the best services 
possible to our people and the Lakota people on other 
reservations in the Dakotas with limited or no resources. They 
deserve our gratitude as do our people who continue to suffer 
without adequate protection. They both deserve so much more.
    As the Chairman of the Cheyenne River Sioux Tribe I urge 
you to help us address these concerns with the entire criminal 
justice system through funding and oversight of use of funding.
    Madam Chair, this concludes my prepared statement but I 
also have something else to add on behalf of law enforcement, 
our law enforcement personnel, is that the fact is is that we--
seven of the 11 poorest counties are in the Dakotas and these 
are our homes. Poverty thrives on our lands and with poverty 
comes so many other issues with addicts, violence, criminal 
activities rise in our population.
    I leave you with this thought: When I was working in patrol 
I come across a poem and something that really stuck with me in 
that poem was that it had--it talked about--it was talking in 
regards to a soldier's life and it was in comparison to a 
soldier's feet and heart, the many miles marched and paths 
crossed and in time that soldier's feet hardened and in the 
same sense a soldier's heart also adjusted to the same effects 
of exposure of the many lives lost where the soldier's heart 
also hardened.
    An officer, in the same sense that refers to a person's 
feet hardened from the many trails walked, the paths crossed, 
and the officer's heart doesn't harden because we are home. We 
are fighting with unseen forces of addiction and violence. I 
wish we could incarcerate addiction and violence, but we can't 
do that.
    [speaking Native tongue.]
    These officers come from our homes and they are protectors 
and providers to protect and serve and with that, our officers 
are unsung heroes and they're--at times they're nurses and 
counselors, they're all these things in the world that isn't 
provided, but they're that first line of defense against what 
we're fighting against and, you know, I just would like to end 
with if we can recognize those individuals for what they do and 
thank you. I appreciate you allowing me to come here and speak 
to you.
    [The prepared statement of Mr. Brings Plenty follows:]

             Statement of Joseph Brings Plenty, Chairman, 
                       Cheyenne River Sioux Tribe

    Chairman Rahall and Members of the Committee:
    I am pleased to appear before you today to talk about many issues 
of concern regarding our criminal justice system and public safety. As 
a former Police Officer for 9 years and Social worker for 4 1/2 years, 
I have first hand experience with the problems our law enforcement and 
criminal justice systems face. I wanted to introduce to you our Chief 
of Police, Festus Fischer, who has worked in BIA and Tribal law 
enforcement in Indian Country for 17 years, Supervisory Detective Larry 
LeBeau who has been with the BIA Law Enforcement and the Tribal 
Department for a total of 20 years, and Stephen Brings Plenty, a 
Criminal Investigator who has been with our Department for 18 years. 
They and their fellow officers represent the best of what we have to 
offer for our future.
I. Introduction
    The Cheyenne River Sioux Indian Reservation includes about 2.8 
million acres and a population of around 15,000 people. Over forty 
percent of our population is under 21 years old, so we are growing very 
fast. There are approximately 4,500 miles of roadways throughout our 
reservation, and nineteen communities served by our Law Enforcement 
Department in an area the size of Connecticut. The unemployment rate is 
78 per cent and 96 per cent of working families live below the poverty 
level.
    The Cheyenne River Sioux Tribe Law Enforcement Department is 
headquartered in Eagle Butte, South Dakota. There are no substations in 
any of the outlying communities.. The one-way distance from 
headquarters to each of the outlying communities ranges anywhere from 
seven miles to 70 miles. Dewey and Ziebach Counties are wholly located 
within the reservation's exterior boundaries. On a busy night, it is 
not uncommon for an officer to log 600 miles on the vehicle in one 
shift.
    The Department is a full-service law enforcement program providing 
police, criminal investigations, dispatch and adult and juvenile 
detention services. The CRST LED also manages a social detoxification 
unit and provides supervision to court service officers, hospital 
security officers and foot patrol officers.
    The Tribe employs 22 full-time sworn enforcement officers, 
including 3 supervisors, 3 criminal investigators, and 10 police 
officers funded under a Public Law 93-638 contract with the BIA. The 
Tribe also employs 1 school resource officer and 2 highway safety 
officers funded with grant funds. To compare, in 2000, under the COPS 
program, we had 36 officers, which was not enough to cover. That allows 
one police officer for every 1,500 people and 1 officer covering 450 
miles of road. That is an average of 3 officers covering the entire 
Reservation at any given time--3 officers for 15,000 people--5,000 
people a piece at all times.
II. Statement of Need
    In 2006, the Department responded to 11,488 calls for service 
resulting in 11,791 arrests. Most of these arrests were made by a 
single police officer in a remote area of the reservation with back-up 
several miles and minutes away. Although we've been fortunate to have 
not had any of our police officers killed in the line of duty in recent 
years, poor program funding requires us to continue a path of high 
liability. We have had officers attacked, with no backup, which has 
resulted in injuries. We also have a need for three school resource 
officers in Eagle Butte schools and two officers in Takini and LaPlante 
schools. Our schools were listed in the BIE report as having some of 
the highest levels of assaults in schools--the resource officers stop 
this. Compounding our problems is the overwhelming increase in drug 
activity with Methamphetamines increasing the number of violent 
offenses at Cheyenne River.
    I want to talk with you today about two areas of concern: First, 
problems with the current administration of law enforcement by the BIA. 
And second, the impact of continued under funding on our criminal 
justice system.
III. Problems with Administration of Law Enforcement Services by the 
        BIA.
    While funding must increase to address many of the problems, there 
are administrative and oversight issues as well, which I want to 
discuss with you. The BIA Law Enforcement received an increase in 
funding from Congress two years ago. This Tribe, despite promises that 
funds would be shared, never received one cent of that funding. One 
problem is that when BIA Law Enforcement receives one time 
appropriations from Congress, they rarely provide any of those funds to 
638 contract Tribes including Cheyenne River due to the under funding 
of BIA operated Law Enforcement. If Congress does not specify that 
funds will be distributed based on need and will not include funding to 
638 contract Tribes, our Department will never see any of the funds 
Congress appropriates.
    You should be aware that the BIA's decision to split out Law 
Enforcement Services from under the central direction of the Great 
Plains Regional Director into their own division has created many new 
problems for our already underfunded law enforcement department. Under 
the old system the Agency Superintendent was over the Department and 
reported to the Great Plains Regional Director who reported to the 
Washington DC Office. Now, there are four divisions of law enforcement 
each reporting to different bosses and the Agency Superintendent has no 
authority over law enforcement. The Regional Director only has 
authority over tribal courts, prosecutors and public defenders.
    The most recent ``line of authority'' split leaves us with the 
Operations side of law enforcement covering criminal investigations, 
police and dispatch and Corrections covering detention/corrections 
programs. Operations management reports to the District I Office in 
Aberdeen and then on to Albuquerque and Washington D.C. Corrections 
management reports to an office on the Standing Rock Reservation and 
then Albuquerque and Washington D.C. The splitting of Operations and 
corrections into two lines of authority in two locations does not allow 
the Tribe to do business at one location under one chain of command.
    The same thing has been done with training. The Indian Police 
Academy which is located in Artesia, New Mexico, is the only location 
for our detention staff to receive the required basic detention officer 
certification training. Our 638 contract Police Officers can receive 
Basic Police certification training at the South Dakota Police Academy, 
but BIA officers must go to the Indian Police Academy for their basic 
Police Officer certification training. Although the South Dakota State 
Police training program is approved b y the BIA for meeting the basic 
training needs for ``638 contracted Police Officers, it is not 
recognized as a basic Police Officer certification course for BIA 
police officers. This basic training requirement discourages our 
``State'' certified Police Officers from applying to join the BIA 
service because they have to repeat the police training in Artesia.
    The Professional Standards Division (PSD) is another arm of the BIA 
Office of Justice Services, responsible for providing program reviews 
and internal investigations. There was previously a ``field'' office of 
the PSD located in Rapid City, South Dakota which staffed 3 agents to 
conduct internal investigations and reviews for all Tribes of the 
Northern United States in Rapid City. This office has been eliminated 
with all resources being moved to Albuquerque, New Mexico, and the 
scope of their internal investigations being limited, for the most 
part, to officer involved shootings. With the many necessary resources 
scattered throughout various locations a huge financial expense has 
been created for us to simply do business. This doesn't work.
    Under the newly organized BIA Office of Justice Services we have 
had all too many unfavorable experiences. For example, when we have 
search and rescue missions or the need for the use of a canine and 
canine officers to assist drug investigators, which the BIA has, we 
cannot get access. The BIA has continually stated the liability for 
allowing this cooperation with a 638 contract Tribe is too high. This 
was never an issue before. Second, under the old system, when we have a 
large event like our annual rodeo and pow-wow, we had officers from 
other Reservations--both BIA and 638 contract operated come and assist. 
And we did the same for them. Under the new administration BIA Officers 
are not permitted to assist--again the BIA cites liability. This 
hampers our ability to have safety during large events, and hurts all 
other tribal law enforcement in the Dakotas.
    Another serious problem is that the BIA Office of Justice Services 
has demanded that the Tribe split law enforcement into a separate 638 
contract from our other Master 638 contract. The Tribe has refused. For 
very good reason. The BIA withheld our funding for three months because 
we refused. Our Master contract includes all justice services and other 
programs. It includes courts, Prosecutor, public defender and 
probation. All these are so drastically underfunded that funding 
doesn't even cover their salaries and fringe benefits let alone 
supplies. Under federal law, if the Tribe has cost savings in one area 
of its Master Contract, it can use those savings in another area of the 
Master contract. So, when there are savings, the Tribe dedicates funds 
to Law Enforcement and criminal justice system programs. If we split 
law enforcement into a separate contract, we cannot use savings for law 
enforcement, further eroding our budget.
    This split out and creation of a new administration hampers 
coordination of a criminal justice system--courts are managed by Great 
Plains Regional Director. Law Enforcement is managed by an entirely 
different administration not answerable to one central person except 
the Assistant Secretary of Indian Affairs. This was done without any 
consultation with Tribes at a huge cost to law enforcement funding. 
Now, we hear the BIA is trying to move courts into this new 
administration. But again, no Tribe has ever been consulted.
    The Cheyenne River Sioux Tribe has been administering law 
enforcement since before the BIA ever provided funding for law 
enforcement. We have never in our history had BIA run law enforcement 
services. We know what we need. But the BIA is now making decisions 
without any consultation with this or any other Tribe. And these 
decisions are eroding our funding and our ability to run an effective 
law enforcement program. And the funds Congress does appropriate are 
spent on top heavy administration.
    Instead of paying a Superintendent at the Agency, a Regional 
Director in Aberdeen and a Washington DC Director with support staff, 
you are paying for six bosses in four locations, with support staff. 
For example, in Aberdeen Operations Division alone there is one GS-14 
position and two GS-13 positions making their salary plus 25% on call 
pay--and they are management--not on the street enforcement. That costs 
the BIA approximately $300,000.00 a year plus full fringe benefits and 
pension.
    Although our current law enforcement budget for Fiscal Year 2007 
was to have been funded the same as in Fiscal Year 2006, a holdback in 
excess of 10% imposed by the Bureau of Indian Affairs has further 
hindered our ability to provide the necessary services to our people. 
This holdback has been done without any justification provided to the 
Department or the Tribe.
    While the new Administration continues to fund more management 
positions, they have issued an unfunded mandate to our Department to 
separate the duties of dispatch and detention. The CRST had to 
establish an entire dispatch division, and create 5 additional 
positions with no additional base funding. The original creation of the 
dual duty detention and dispatch post was done at the request of the 
BIA Office of Law Enforcement Services when the CRST opened the Walter 
Miner Law Enforcement Center in 1993. These once separate positions 
were combined to staff a required post in the new detention center. 
Now, they are once again separate divisions, but no funding is 
provided. As with dispatch, this detention post must be staffed around 
the clock making it a mandatory post.
IV. Problems created by underfunding.
    If I may, I want to explain to you some of the problems created by 
underfunding. Our current base funding received from the BIA does not 
allow the Tribe to compensate any of the law enforcement employees with 
a salary comparable to those at an entry level position of the same 
type in the federal BIA service. This results in a high employee 
turnover rate, as well as employee burn-out, reduced productivity and 
increased liability. The Tribe does not provide any pension benefits to 
its officers or retirement due to lack of funding, further eroding our 
retention of good, experienced officers. Our former Chief of Police 
passed away last month at 49 years old. He had served in law 
enforcement at Cheyenne River, Standing Rock and Yankton for over 
twenty-seven years. There was no pension and no retirement. He left 
behind a wife and children. There is nothing for them. While this goes 
on, BIA can fund a top heavy administration with two GS-13 and one GS-
14 positions at the District I Aberdeen Operations Division alone at a 
cost of salary and 25 percent on top for availability pay and full 
retirement at a total estimated cost of $425,000.00. When they retire 
or pass away, their families will receive that pension. In the history 
of the Cheyenne River Sioux Tribe's law enforcement program no employee 
has ever been able to retire from service. They resign and depend upon 
their social security check as ``retirement''. This Tribe has had to 
make a horrible decision--either cut salaries to increase the number of 
police officers or fund at the same level as BIA Officers with full 
benefits, and only have 5 police officers and one criminal 
investigator.
    Our dedicated law enforcement staff have lived with this decision 
for our entire history. We have on staff right now officers who have 
served for over 17 years with no retirement, no salary increases other 
than inflation, and still working at salary levels below an entry level 
BIA law enforcement position. Yet they are dedicated to protecting 
their families and people and so they stay here. This must change and 
will only be possible with increased base program funds.
    The Tribe and the Department are doing everything they can to fund 
law enforcement. The Tribe has absorbed $1.5 million in costs unfunded 
for Law Enforcement and hundreds of thousands of dollars in costs to 
run the rest of the justice system. The Criminal Court hears over 3,000 
cases a year with one judge and one prosecutor. The juvenile court 
hears over 1000 delinquency petitions a year with one judge and one 
prosecutor. Justice delayed is justice not served. The average time 
between arrest and trial is six months. And in the meantime law 
enforcement re-arrests re-offenders awaiting trial many times. This 
lack of funding ensures there is no justice and no safety for our 
communities.
    The Department detention division is trying to generate funds other 
ways. We contracted bed-space with other BIA and federal agencies. We 
house pre-sentenced Federal offenders, and house BIA adult and juvenile 
offenders from locations where facilities are either inadequate or non-
existent. The detention facility on the Cheyenne River Sioux 
Reservation is serving as a regional facility housing adult and 
juvenile offenders for the BIA from reservations in South Dakota, North 
Dakota, Minnesota and Nebraska. This introduces new violent offenders 
to our community and presents serious risks to our population and our 
Detention Staff. It also ensures we don't have the space for our own 
offenders, but we have to find funding somewhere.
    The Tribal General fund and contracts has not, and cannot, be 
relied upon for recurring expenses. An increase in base funding for the 
CRST LED from $2,664,688.00 to $5,659,572.00 was proposed in the 2007 
Congressional Testimony that was submitted by the Cheyenne River Sioux 
Tribe. This increase in base funding will allow us to operate our law 
enforcement program with a realistic budget and a more effective 
approach.
    Our law enforcement program simply does not have the level of 
funding necessary to provide for uniforms, body armor, and basic police 
equipment. With the exception of a mix of badges and outdated/unsafe 
handguns, staff routinely purchases their uniforms and essential 
equipment. Additional funding to secure modern equipment, would enhance 
the safety of our officers and citizens.
    Approximately 90 percent of our fleet of vehicles is leased from 
GSA, which results in extremely high monthly billings. This is due to 
the high number of miles traveled--over 40,000 miles a year, billing us 
for damage for adding patrol car equipment, the high GSA cost of new 
tires and other maintenance required more often from our rugged roads, 
the need for SUVs for our rugger roads and climate, and other 
associated with the lease. Funding to secure and equip a fleet of 
Tribal police vehicles would allow our law enforcement program to 
reduce yearly vehicle expenses and direct a smaller portion of 
operational funding toward yearly vehicle related expenses. But this is 
of no use if there is no recurring funding for replacement of worn 
vehicles. One time grants don't work.
    In an attempt to combat the use, sales, possession, manufacturing 
and trafficking of illegal drugs on our reservation, the CRST Law 
Enforcement Department has been an active participant in the Northern 
Plains Drug Task. Our involvement with the task force is limited due to 
funding. Funds from our budget must be re-directed to staff one drug 
task force agent who works endless hours locally and on other area 
reservations as a member of the drug task force. All illegal drug 
activity on our reservation is handled by this agent who must 
prioritize each case and work only the most serious cases. The salary 
and overtime required of the drug agent consumes of the salary for two 
police officers, which negatively impacts our limited number of police 
officers. The rise in illegal drug activity on our reservation has us 
backed in a corner.
    The two county sheriffs and one city Police Departments rely upon 
us for investigation of serious cases, for detention, and for 
assistance. They do not have the capability to handle public safety the 
way our Department does. The answer is to support Tribal Law 
Enforcement to carry the ball and to allow this system of cooperation 
with local law enforcement to continue as it has over our entire 
history--not to change the roles of our departments. As you are 
probably aware, the United States Civil Rights Commission issued its 
report several years ago finding discrimination in law enforcement and 
voting rights in South Dakota. This makes it even more important for 
you to support tribal law enforcement community based policing. We have 
done community based policing from the beginning--before this term 
became popular in the COPS program. But underfunding threatens our 
ability to focus on prevention and education and threatens the safety 
of our communities and officers.
    To make matters worse, the Congress passed a provision in the Adam 
Walsh legislation mandating that Tribes fully implement the sex 
offender registry, which includes taking and storing DNA samples and 
many other requirements or the Tribes jurisdiction will be turned over 
to the State, along with jurisdiction to enforce the requirements 
criminally. While the coordination of national sex offender registry is 
very important, these mandates were placed upon the Tribe with no 
funding to implement the new requirements. The State has no criminal 
jurisdiction on the Reservation over Indian people. At Cheyenne River, 
we have had a sex offender registry for ten years. Yet no one tried to 
consult with the Tribes. Not Congress, and not the Department of 
Justice. Department of Justice just issued over 60 pages of guidelines 
implementing this new law. No Tribe was consulted about these 
guidelines. And some of the guidelines are simply culturally offensive, 
like requiring the registration of a person's traditional name. This is 
just one of many of the examples of where by failing to consult with 
Tribes, federal agencies make assumptions about tribal systems 
including law enforcement that are unfounded and thereby make our jobs 
more difficult in providing safety and security to our people. To 
require that we take DNA samples and fund their collection and storage 
and fingerprints when we don't even have an electronic fingerprint 
database is an unfunded mandate. We don't have the revenue to support 
these continual unfunded mandates.
    In closing, I am proud of the dedication shown by our law 
enforcement officers who continue to provide the best services possible 
to our people and the Lakota people on other Reservations in the 
Dakotas with limited or no resources. They deserve our gratitude. As do 
our people who continue to suffer without adequate protection. They 
both deserve so much more. As Chairman of the Cheyenne River Sioux 
Tribe, I urge your support to help us address these concerns with the 
entire criminal justice system through funding and oversight funding 
use to ensure the funds appropriated are used most effectively.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions you or other Members of the Committee 
may have.
[GRAPHIC] [TIFF OMITTED] T6020.001

.epsI. Law Enforcement Summary
    Staffing: 10 police officers, 3 supervisors, 3 criminal 
investigators, 2 NAHATSA Traffic Safety Grant Officers, 1 School 
Resource Grant Officer in Eagle Butte School, 25 Detention Officers 
(includes 22 officers and 3 supervisors)
    Coverage Area: 2.8 million acres, 4,500 road miles, nineteen 
communities. Area is the size of Connecticut and includes all of Dewey 
and Ziebach Counties, and a population of 15,000 people
    Facilities: Adult Detention Center and separate Juvenile Detention 
Center in Eagle Butte, South Dakota
    Officers on Duty Schedule: Weekdays: 2 Officers total Weekends: 3 
Officers total
    Total Arrests in 2006: 11, 791
    Total Calls for Service in 2006: 11,488
II. Tribal Criminal and Juvenile Courts
    Staffing: 1 Criminal Court Judge and 2 clerks, 1 Adult Probation 
Officer, 1 Juvenile Court Judge and 2 clerks, 1 Juvenile Probation 
Officer
    Coverage Area: 2.8 million acres, 4,500 road miles, nineteen 
communities. Area is the size of Connecticut and includes all of Dewey 
and Ziebach Counties, and a population of 15,000 people
    Facilities: 1 shared court room
    Criminal Court Caseload: FY 2006
        # of Cases Filed: 3,350
        # of Judgments: 1,757
        # Hearings Scheduled: 6,434
    Juvenile Court Caseload: FY 2006
        # of Cases Filed: 1,856
        # of Judgments: 723
        # hearings Scheduled: 2,210
    Probation Caseload 2006: Adult: 122 clients
        Juvenile: 348 clients
III. Prosecutor's Office
    Staffing: 1 Prosecutor, 2 non-lawyer Asst. Prosecutors, 1 Office 
Manager
    Coverage Area: 2.8 million acres, 4,500 road miles, nineteen 
communities. Area is the size of Connecticut and includes all of Dewey 
and Ziebach Counties, and a population of 15,000 people
    Caseload: 11,488 Police Reports resulting in 3,000 criminal 
complaints, 1, 247 juvenile delinquency petitions and 200 involuntary 
commitment petitions
    Average Time between Arrest and Trial: 6 months
                                 ______
                                 
    Ms. Herseth Sandlin. Well, thank you, Chairman Brings 
Plenty, for the testimony, like President Bordeaux and 
President Steele, raising so many issues that we will be 
exploring further and, as they did, recognizing the law 
enforcement officers from the community that you represent, 
some of whom I've had a chance to meet in the past and work 
with. But again, I appreciate the eloquence and importance of 
your words. And again, we'll explore a number of issues that 
you have raised in a moment as I have some questions to explore 
and some further testimony, but before we do that, this panel 
also includes Chief of Police for the Sisseton Wahpeton Oyate.
    I'm glad that some of your counterparts from other tribes 
have been able to join us. And thank you for being here and 
speaking on behalf of the Sisseton Wahpeton Oyate, but I thank 
other leaders in law enforcement that are here with us today 
and some who weren't able to join us, but thank you very much, 
Mr. Gaikowski, for being here. We welcome your testimony.

STATEMENT OF GARY GAIKOWSKI, CHIEF OF POLICE, SISSETON WAHPETON 
              OYATE, AGENCY VILLAGE, SOUTH DAKOTA

    Chief Gaikowski. Good afternoon, Congresswoman. Chairman 
Michael Selvage can't be here today. I have two statements, his 
and my testimony to read.
    Ms. Herseth Sandlin. Both will be made available in their 
entirety for the record, and I appreciate the Chairman's 
leadership and thoughts on the issue.
    If you might start with your testimony and then if you 
could summarize the Chairman's testimony for us so we can move 
on to some of the questions, but again, please assure him and 
please be assured yourself that both of the statements that you 
have there will be made part of the record in their entirety.
    Chief Gaikowski. Yes.
    Ms. Herseth Sandlin. Thank you.
    Chief Gaikowski. Honorable Chairman Nick Rahall, II, and 
members of the Committee, I would like to give insight to the 
Committee in regards to the current conditions that law 
enforcement faces on the Lake Traverse Reservation.
    The Sisseton Wahpeton Law Enforcement is a PL 93-638 
program operating on a budget of $608,000. With that we employ 
eight officers, five dispatchers, three detention officers, and 
one administrative assistant. This leaves a very small fraction 
for operating costs. The Sisseton Wahpeton Oyate supplements 
our budget with three police officers, one detention officer, 
and operating costs. We have two more police officers funded by 
grants.
    The FBI and one BIA investigator handle all major crimes 
committed on the reservation. Tribal law enforcement handles 
all misdemeanors but are the first to respond to all crimes, 
Federal, state, and tribal.
    We protect and serve an area of over 1,096 square miles and 
over 108,921 acres. Our on reservation population is estimated 
at 10,436 non-Indians and over 6,000 tribal members.
    Our detention facility was built in 1974 and has long lived 
its use. It is a 22-bed adult facility. The current condition 
of our facility suffers from deterioration and overcrowding by 
inmates and staff. Repeated attempts to address these 
situations is hindered due to the lack of funding. These 
attempts can only be considered as Band-Aids to the problem.
    We can only hold juveniles for up to six hours; longer if 
we have a court order. Our juveniles are usually transported to 
Fargo, North Dakota, which is 90 miles away, if they are to be 
held longer. The cost for this is $120 per day per inmate, 
which we are incurring. The BIA shut us down for holding 
juveniles and yet we do not receive any funds from them to send 
them out.
    Our mentally ill inmates must be transported approximately 
250 miles to Yankton, South Dakota. I can only give my 
employees comp time for transporting prisoners and for going 
above and beyond their duty. This is leave they're not able to 
utilize due to being short staffed.
    Our officers patrol an average of 250 miles per shift on 
tar and gravel roads. This leaves our maintenance budget for 
our vehicles for wear and tear usually in the red. Our 
department leases seven GSA vehicles, five patrol cars and two 
SUV's. We also have two SUV's owned by the tribe with over 
150,000 miles on them. These vehicles nickel and dime us. My 
concern with these vehicles is that one of these days one of 
them might break down on a serious call when someone's life is 
at stake.
    Our dispatch usually receives 2,700 calls per month along 
with arrest and radio traffic from the officers. We average 
over 65,000 incidences per year.
    All of our officers are on call status 24/7. Backup is a 
half hour to an hour depending on where and the severity of the 
situation. We try to have two officers on per shift.
    In a most recent incident, Patrol Officer Johnson responded 
to a call to remove an intoxicated adult from their 
grandmother's home. The subject began to resist. Officer 
Johnson attempted to restrain the individual. The individual 
became violent and injured Officer Johnson. Officer Johnson 
received several injuries. Backup was not available due to the 
distance of responding to another call 25 miles away. The only 
way Officer Johnson was able to prevent the individual from 
further harming him was to bite him. When backup was finally 
able to respond, the individual had gotten away.
    Due to his injuries, Officer Johnson was out of work for 
two months and has recently returned to work only to perform 
light duties. If the FBI needs to respond, they have to come 
out of Sioux Falls. My officer has to arrest, take statements, 
pictures, gather evidence, and secure the crime area until 
relieved. Other officers are called on duty to assist.
    We have a high recidivism rate. We are addressing this 
issue with our Community Justice and Rehabilitation Detention 
Project. If this project does not go through, our inmates will 
continue to fall through the cracks in the justice system 
without being given the opportunity to rehabilitate.
    One of our goals is to continue to be tough on our DUI and 
traffic laws. This is our only defense to keep alcohol from 
coming onto the reservation. We feel if we can keep the alcohol 
out, we can prevent the assaults, the rapes, the domestic 
abuse, child neglect, underage drinking that occur in our 
community.
    There are three areas of concern that I would like to 
express as the Chief of Police.
    Funding. Without funding, we would not be able to perform 
the functions required of law enforcement. As it is, the lack 
of funding does not meet the rising crime rate on our 
reservation. The most underfunded needs are the high meth rate 
and the juvenile crime.
    Detention. Due to our deteriorating conditions at our 
current detention center, we are unable to provide the adequate 
rehabilitation for our inmates to become productive citizens.
    Youth. I consider this issue the top priority of our unmet 
needs. Most of our violent crimes are committed by our youth. 
Our most recent example of this is when four of our tribal 
member youth assaulted a 13-year-old boy so badly he was 
unrecognizable due to the trauma of being kicked and beaten in 
the head. Today this 13-year-old is still hospitalized in a 
coma with no brain activity. This incident didn't only affect 
the families involved. It affected the community overall. Due 
to the possibility of it being gang oriented, police officers 
were posted at the local schools to prevent any further violent 
outbreaks.
    This has become a theme that is occurring on the Lake 
Traverse Reservation. Some of our elders live in fear of their 
grandchildren. This was expressed to me during one of their 
elderly board meetings. More and more in our court we see cases 
of parents who are requesting relinquishment of their children 
because they do not have the capabilities to handle them. These 
are children who are in and out of court, the child protection 
program, treatment, and continue to drain the resources of the 
Lake Traverse Reservation. These children have proven they are 
examples of learned behavior by their parents. It is apparent 
that this is a dysfunctional generational cycle. Our new 
Community Justice Rehabilitation Center master plan is set up 
to address these issues with the youth and adults in our 
system.
    It is imperative that we get the proper funding that is 
direly needed to address these issues. Continuation of the 
situations without proper funding can only result in a social 
and cultural breakdown of our society.
    [The prepared statement of Chief Gaikowski follows:]

             Statement of Gary Gaikowski, Chief of Police, 
          Law Enforcement Department, Sisseton-Wahpeton Oyate

    Honorable Chairman Nick J. Rahall II and members of the committee, 
I would like to give insight to the committee in regards to the current 
conditions of the Law Enforcement faces on the Lake Traverse 
Reservation.
    The Sisseton-Wahpeton Law Enforcement is a PL 93-638 Program 
operating on a budget of $608,839. Employed are eight officers, five 
dispatchers, three detention officers and one administrative assistant. 
This leaves a very small fraction for operating cost. The Sisseton 
Wahpeton Oyate supplements our budget with three police officers, one 
detention officer and operating cost. We have two more police officers 
funded by grants.
    The FBI and one BIA investigator handle all major crimes committed 
on the reservation. Tribal Law Enforcement handle all misdemeanors but 
are the first to respond to all crimes, federal, state and tribal.
    We protect and serve an area of over 1,096 square miles and over 
108,921 acres. Our on reservation population is estimated at 10436 non-
Indians and over 6,000 tribal members.
    Our detention facility was built in 1974 and has long lived its 
use. It is a 22 bed adult facility. The current condition of our 
facility suffers from deterioration and overcrowding by inmates and 
staff. Repeated attempts to address these situations are hindered due 
to the lack of funding. These attempts can only be considered as band-
aids to the problem.
    We can only hold juveniles for up to six hours, longer if we have a 
court order. Our juveniles are usually transported to Fargo, North 
Dakota which is 90 miles away if they are to be held longer. The cost 
for this is $120.00 per day per inmate, which we are incurring. The BIA 
shuts us down for holding juveniles and yet do not want to fund us to 
pay to send them out. Our mentally ill inmates must be transported 
approximately 250 miles to Yankton, SD. I can only give my employees 
comp time for transporting prisoners and for going above and beyond 
their duty, leave they are not able to utilize due to being short 
staffed.
    Our officers patrol an average of 250 miles per shift on tar and 
gravel roads. This leaves our maintenance budget for our vehicles for 
wear and tear and is usually in the red. Our department leases seven 
GSA vehicles, five patrol cars and two SUV's. We also have two SUV's 
owned by the tribe with over 150,000 miles on them. These two vehicles 
nickel and dime us, my concern with these vehicles is that one day one 
of them might break down on a serious call when someone's life is at 
stake.
    Our dispatch usually receives 2,700 calls per month along with 
arrest and radio traffic from the officers. We average over 65,000 
incidences per year.
    All of my officers are on call status 24/7. Back up is 1/2 hour to 
an hour depending on where and the severity of the situation. We try to 
have two officers on per shift.
    In a most recent incident, patrol officer Johnson responded to a 
call to remove intoxicated adult from their grandmothers residence. The 
subject begin to resist, Officer Johnson attempted to restrain 
individual. Individual became violent and injured Officer Johnson. 
Officer Johnson received several injuries. Back up was not available 
due to the distance of responding to another call 25 miles away. The 
only way Officer Johnson was able to prevent the individual from 
further harm was to bite him. When back up was finally able to respond 
the individual had gotten away.
    Due to his injuries Officer Johnson was out of work for two months 
and has just recently returned to work only to perform light duties.
    If the FBI needs to respond they have to come out of Sioux Falls, 
150 miles away. My officer has to arrest, take statements, pictures, 
gather evidence and secure the crime area until relieved. Officers are 
called on duty to assist.
    We have a high recidivism rate. We are addressing this issue with 
our Community Justice and Rehabilitation Detention Center Project. If 
this project does not go through, our inmates will continue to fall 
through the cracks of the justice system without being given the 
opportunity to rehabilitate.
    One of our goals is to continue to be tough on DUI and traffic 
laws. This is our only defense to keep alcohol from coming onto the 
reservation. We feel if we can keep the alcohol out we can prevent the 
assaults, rapes, domestic abuse, child neglect, underage drinking that 
occur in our communities.
    There are three areas of concern that I would like to express as 
the Chief of Police
    1.  Funding, without funding we would not be able to perform the 
functions required of Law Enforcement. As it is, the lack of funding 
does not meet the rising crime rate on our reservation. The most under 
funded needs are the high meth rate and juvenile crime.
    2.  Detention, due to our deteriorating conditions at our current 
detention center we are unable to provide the adequate rehabilitation 
needed to become productive citizens.
    3..  Youth, I consider this issue the top priority of unmet needs. 
Most of our violent crimes are committed by our youth. Our most recent 
example of this is when four of our tribal youth assaulted a 13 year 
old boy so badly he was unrecognizable due to the trauma of being 
kicked and beaten in the head. Today this 13-year-old is still 
hospitalized in a coma with no brain activity. This incident did not 
only affect the families involved, it affected the community overall. 
Due to the possibility of it being gang oriented. Police officers were 
posted at the local schools to prevent any further violent outbreaks.
    This has become a common theme that is occurring on the Lake 
Traverse Reservation. Some of our elders live in fear of their 
grandchildren. This was expressed to me during one of their elderly 
board meetings. More and more in court we see cases of parents who are 
requesting relinquishment of their children because they do not have 
the capabilities to handle them. These are children who are in and out 
of court, the child protection program, treatment and continue to drain 
the resources of the Lake Traverse Reservation. These children have 
proven they are examples of learned behavior by their parents. It is 
apparent that this is a dysfunctional generational cycle. Our new 
Community Justice Rehabilitation Center Master plan is set up to 
address these issues with the youth and adults in our system.
    It is imperative that we get the proper funding that is direly 
needed to address these issues. Continuation of the situations without 
proper funding can only result in a social and cultural breakdown of 
our society.
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you very much, and yes, I know 
that you have a statement from the Chairman as well.
    Chief Gaikowski. Yes.
    ``Honorable Chairman Nick Rahall the Second and members of 
the Committee:
    ``On behalf of the Tribal Council of the Sisseton Wahpeton 
Oyate, we thank the Committee on Natural Resources for taking 
the time to hold this oversight field hearing concerning the 
needs and challenges of tribal law enforcement on Indian 
reservations today. Your decision and action of holding this 
field hearing demonstrates your genuine concern regarding our 
pressing needs as it regards the protection of tribal members 
and property in Indian Country and we are highly appreciative 
of this consideration which has been extended to the Federally 
recognized tribal governments herein assembled.
    ``The tribal government of the Sisseton Wahpeton Oyate, 
including its law enforcement agency, has been in continuous 
existence and operation since the time of Congressional 
approval of our Sisseton Wahpeton Treaty of February 19, 1867. 
Article 10 of this treaty provides the basis for establishment 
and Federal recognition of our tribal law enforcement agency 
wherein it was mutually agreed that the Sisseton Wahpeton 
chiefs and head men are authorized to organize a force 
sufficient to carry out laws and all rules and regulations for 
the government of said Indians as may be prescribed by the 
United States Interior Department.
    ``For 140 years the Treaty Council and tribal councils of 
the Sisseton Wahpeton Oyate have maintained and supported its 
tribal law enforcement agency on the Lake Traverse Reservation 
throughout its seven district communities and have faithfully 
enforced the laws of the Sisseton Wahpeton Oyate as well as all 
applicable Federal laws for Indian Country. Generations of 
tribal families from our communities have committed themselves 
to tribal law enforcement throughout this period of 140 years 
of continuous service whether Federal funding support was 
available or not.
    ``it is from this historical context that our testimony 
today derives and is submitted for your consideration. The 
tribal government of the Sisseton Wahpeton Oyate assures the 
Committee that its obligations to law enforcement are taken 
very seriously as such responsibilities pertain to our 
constitutional mandate to promote the health and well-being of 
our tribal membership which now consist of over 12,000 tribal 
members of whom 6,000 members reside in our seven district 
communities on the Lake Traverse Reservation. Our tribal and 
Federal jurisdiction extends to those designated areas of 
Indian Country in five counties in northeast South Dakota as 
well as two counties in southeast North Dakota.
    ``Our Sisseton Wahpeton needs and challenges in law 
enforcement consist of two principal areas of concern:
    ``First, the diminishing level of Federal funding support 
for our law enforcement agency; second, our current need to 
construct a new Community Justice and Rehabilitation Center for 
both adult and juvenile offenders on the Lake Traverse 
Reservation consistent with the tribal council approved master 
plan for this rehabilitation campus.
    ``Regarding the diminishment of Federal funding and support 
for our tribal law enforcement agency, the tribal government of 
the Sisseton Wahpeton Oyate contracts under authorities of PL 
93-638 for law enforcement services from the Bureau of Indian 
Affairs. This has been in effect since passage of the Act. 
Previously the tribal government contracted for law enforcement 
services utilizing the authorities of the Buy Indian Act.
    ``The struggles of the tribal government in obtaining a 
sufficient level of funding for its law enforcement agency are 
extensive and for the past five years the tribal government has 
matched Federal funding from its own limited non-Federal funds 
so that law enforcement can be accomplished more effectively. 
Currently the tribal council of the Sisseton Wahpeton Oyate 
provides approximately 35 percent of needed funding from its 
non-Federal revenues, consisting of 350,000 to $400,000 from 
tribal funds annually for the basic operation of our law 
enforcement agency. Without this contribution of tribal funds, 
our law enforcement agency would not be able to sustain itself 
nor meet the requirements of effective law enforcement in the 
local seven tribal communities on the reservation.
    ``In particular, our law enforcement agency finds itself 
highly challenged with regard to intervening upon the growing 
incidence of methamphetamine abuse and addiction which are 
increasing within our tribal communities on the reservation. In 
particular, the introduction of these illegal substances from 
the outside has served to increase the number of offenses and 
violent behavior of offenders with particular reference to 
juvenile offenders within the jurisdiction. Our resources in 
manpower and investigative technology are limited regarding an 
effective interdiction. Our financial resources are limited to 
combat this invasive intrusion of one of the most serious 
disorders which is afflicting our communities at the present 
time. While our tribal government has emphasized preventative 
measures in our schools and local college, such efforts, 
however admirable in itself, yet require Federal assistance to 
intervene upon those who violate our tribal and Federal laws by 
engaging in the traffic of illegal drugs on our reservation. On 
behalf of our children and youth, we urge you to consider 
Federal appropriations to assist us in this time of crisis and 
need.
    ``In 1974 our tribal council applied for and obtained 
Federal funding from the U.S. Department of Justice to 
construct a minimum security adult detention center. At the 
time the problems and offenses of our people were minimal and 
the existent facility provided a minimum required need as 
regards judicial services and intervention services for adult 
offenders. Since that time, however, the numbers of adult and 
juvenile offenders have increased significantly and our current 
detention facility fails to meet not only facility code 
requirements, but also fails to provide sufficient space for 
adult offenders and has no space available for the growing 
number of juvenile offenders.
    ``Beginning in the year 2004 and continuing at the present 
time, our tribal government embarked on the arduous task of 
developing and establishing what has become known as the 
Sisseton Wahpeton Oyate Community Justice and Rehabilitation 
Master Plan. This initiative was funded and sponsored by our 
tribal council utilizing primarily non-Federal tribal funds and 
such funding enabled our tribal government to retain 
professional criminal justice personnel who assessed our 
criminal justice needs and requirements so as to develop and 
establish our own tribal specific master plan for addressing 
our own community justice and rehabilitation needs.
    ``Essentially this master plan plainly asserts our own 
tribal responsibility to intervene upon both adult and juvenile 
offenders in the local community so as to treat and 
rehabilitate the greatest number of these offenders in a 
therapeutic and culturally significant manner. While the amount 
of funds required to construct the proposed adult and juvenile 
detention and rehabilitation center clearly is beyond our 
financial resources, as a tribal government we are asking for 
Federal funding consideration to assist us in the construction 
of these rehabilitation facilities so as to implement an 
aggressive program of treatment and rehabilitation of our 
offenders in the local community. The consideration of the 
Committee with regard to this proposal would be greatly 
appreciated.
    ``Respectfully submitted by Michael I. Selvage, Senior, 
Tribal Chairman of Sisseton Wahpeton Oyate Tribal Council.''
    [The prepared statement of Mr. Selvage follows:]

 Statement submitted for the record by Michael I. Selvage, Sr., Tribal 
Chairman, Sisseton Wahpeton Oyate Tribal Council, Agency Village, South 
                                 Dakota

    Honorable Chairman Nick J. Rahall II and members of the Committee:
    On behalf of the Tribal Council of the Sisseton Wahpeton Oyate, we 
thank the Committee on Natural Resources for taking the time to hold 
this oversight field hearing concerning the needs and challenges of 
Tribal Law Enforcement on Indian Reservations today. Your decision and 
action of holding this field hearing demonstrates your genuine concern 
regarding our pressing needs as regards the protection of tribal 
members and property in Indian Country, and we are highly appreciative 
of this consideration, which has been extended to the federally 
recognized tribal governments herein assembled.
    The tribal government of the Sisseton Wahpeton Oyate including its 
Law Enforcement Agency has been in continuous existence and operation 
since the time of Congressional approval of our Sisseton Wahpeton 
Treaty of February 19th, 1867, (15 Stats., 505). Article 10 of this 
Treaty provides the basis for establishment and federal recognition of 
our Tribal Law Enforcement Agency, wherein it was mutually agreed that, 
``The (Sisseton Wahpeton) Chiefs and Head men--are authorized--to 
organize a force sufficient to carry out--laws, and all rules and 
regulations for the government of said Indians, as may be prescribed by 
the (United States) Interior Department''.
    For 140 years, the Treaty Council and tribal councils of the 
Sisseton Wahpeton Oyate have maintained and supported its tribal law 
enforcement agency on the Lake Traverse Reservation throughout its 
seven district communities, and have faithfully enforced the laws of 
the Sisseton Wahpeton Oyate as well as all applicable federal laws for 
Indian Country. Generations of tribal families from our communities 
have committed themselves to Tribal Law Enforcement throughout this 
period of 140 years of continuous service, whether federal funding 
support was available or not.
    It is from this historical context that our testimony today derives 
and is submitted for your consideration. The tribal government of the 
Sisseton Wahpeton Oyate assures the Committee that its obligations to 
law enforcement are taken very seriously, as such responsibilities 
pertain to our Constitutional mandate to promote the health and well 
being of our tribal membership which now consist of over 12,000 tribal 
members, of whom 6,000 members reside in our seven district communities 
on the Lake Traverse Reservation. Our tribal and federal jurisdiction 
extends to those designated areas of Indian Country in five counties in 
north east South Dakota as well as two counties in south east North 
Dakota.
    Our Sisseton Wahpeton needs and challenges in law enforcement 
consist of two principal areas of concern:
    First, the diminishing level of federal funding support for our law 
enforcement agency;
    Second, our current need to construct a new Community Justice and 
Rehabilitation Center for both adult and juvenile offenders on the Lake 
Traverse Reservation, consistent with the tribal council approved 
Master Plan for this rehabilitation campus.
    Regarding the diminishment of federal funding and support for our 
tribal law enforcement agency, the tribal government of the Sisseton 
Wahpeton Oyate contracts under authorities of PL 93-638 for law 
enforcement services from the Bureau of Indian Affairs, this has been 
in effect since passage of the Act. Previously, the tribal government 
contracted for law enforcement services, utilizing the authorities of 
the Buy Indian Act.
    The struggles of the tribal government in obtaining a sufficient 
level of funding for its law enforcement agency are extensive, and for 
the past five years, the tribal government has matched federal funding 
from its own limited non-federal funds so that law enforcement can be 
accomplished more effectively. Currently, the tribal council of the 
Sisseton Wahpeton Oyate provides approximately 35% of needed funding 
from its non-federal revenues, consisting of $350,000 to $400,000 from 
tribal funds annually for the basic operation of our law enforcement 
agency. Without this contribution of tribal funds, our law enforcement 
agency would not be able to sustain itself nor meet the requirements of 
effective law enforcement in the local seven tribal communities on the 
reservation.
    In particular, our law enforcement agency finds itself highly 
challenged with regard to intervening upon the growing incidence of 
methamphetamine abuse and addiction, which are increasing within our 
tribal communities on the reservation. In particular, the introduction 
of these illegal substances from the outside has served to increase the 
number of offenses and violent behavior of offenders, with particular 
reference to juvenile offenders within the jurisdiction. Our resources 
in manpower and investigative technology are limited regarding an 
effective interdiction. Our financial resources are limited to combat 
this invasive intrusion of one of the most serious disorders, which is 
afflicting our communities at the present time. While our tribal 
government has emphasized preventative measures in our schools and 
local college, such efforts however admirable in itself yet require 
federal assistance to intervene upon those who violate our tribal and 
federal laws by engaging in the traffic of illegal drugs on our 
reservation. On behalf of our children and youth, we urge you to 
consider federal appropriations to assist us in this time of crisis and 
need.
    In 1974, our tribal council applied for and obtained federal 
funding from the U.S. Department of Justice to construct a minimum-
security adult detention center. At the time, the problems and offenses 
of our people were minimal, and the existent facility provided a 
minimum required need as regards judicial services and intervention 
services for adult offenders. Since that time, however, the numbers of 
adult and juvenile offenders have increased significantly, and our 
current detention facility fails to meet not only facility code 
requirements, but also fails to provide sufficient space for adult 
offenders, and has no space available for the growing number of 
juvenile offenders.
    Beginning in the year 2004 and continuing at the present time, our 
tribal government embarked on the arduous task of developing and 
establishing what has become known as the ``Sisseton-Wahpeton Oyate 
Community Justice and Rehabilitation Master Plan.'' This initiative was 
funded and sponsored by our tribal council, utilizing primarily non-
federal tribal funds, and such funding enabled our tribal government to 
retain professional criminal justice personnel who assessed our 
criminal justice needs and requirements, so as to develop and establish 
our own tribal specific master plan for addressing our own community 
justice and rehabilitation needs.
    Essentially this master plan plainly asserts our own tribal 
responsibility to intervene upon both adult and juvenile offenders in 
the local community, so as to treat and rehabilitate the greatest 
number of these offenders in a therapeutic and culturally significant 
manner. While the amount of funds required to construct the proposed 
adult and juvenile detention and rehabilitation center clearly is 
beyond our financial resources, as a tribal government, we are asking 
for federal funding consideration to assist us in the construction of 
these rehabilitation facilities, so as to implement an aggressive 
program of treatment and rehabilitation of our offenders in the local 
community. The consideration of the Committee with regard to this 
proposal would be greatly appreciated.
                                 ______
                                 
    Ms. Herseth Sandlin. We thank you and Chairman Selvage.
    I would like to start some questions with where President 
Steele started out on the COPS program and the situation that 
the Oglala Sioux Tribe and I believe the Cheyenne River Sioux 
Tribe find themselves in today, and perhaps other tribes, 
having utilized this program to supplement law enforcement 
services, but I would like--President Steele mentioned, 
Chairman Brings Plenty, that this was encouraged by the BIA a 
number of years ago to access Department of Justice programs 
like the COPS program, encouraged perhaps with the idea that 
this would be short term, kind of a short-term transition phase 
until the BIA was able to secure additional resources or make 
some changes to provide increased resources for the longer term 
law enforcement needs for different tribes.
    Do you know: Was the Cheyenne River Sioux Tribe, at the 
time that that happened, you know, in terms of conversations 
you've had with your predecessors or members of the tribal 
council, was this encouraged in a similar way by the BIA, do 
you know, to utilize the COPS program? I know you've got some 
folks here with law enforcement that are--there's the longevity 
that they bring to the table. Perhaps you might want them to 
respond as well. Do you recall the context in which the 
Cheyenne River Sioux Tribe started meeting law enforcement 
needs increasingly through COPS grants?
    Mr. Brings Plenty. If I can request our tribal lawyer.
    Ms. Herseth Sandlin. Yes. And, Ms. Kidder, if you could 
identify yourself for the record.
    Ms. Kidder. Yes. Rebecca Kidder, tribal counsel for the 
Cheyenne River.
    With respect to the chief of police and two detectives, I 
wrote over $4 million of COPS grants for Cheyenne River in my 
tenure there and it was encouraged. At one time we had 36 
officers. We're down to ten. The problem was even if you could 
get the cash match waived that they required, you had to have a 
retention plan and you could not use BIA based program funding 
for that.
    We also purchased a fleet of vehicles with COPS. That fleet 
of vehicles that was purchased with an $800,000 COPS resource 
grant, there was never any money to maintain it available. That 
fleet is sitting in our lot right now unused because there's no 
money to maintain them.
    Ms. Herseth Sandlin. There might be another mike on. If you 
could just turn that one off. If you can just turn that one 
off, it will reduce that feedback. There you go.
    Ms. Kidder. I would just add that there was no money to 
maintain the fleet and then now that we need a replacement 
fleet, there's no COPS money available to do that, so it was 
not a workable program.
    I would say the other problem is when they gave us COPS 
grants there was no money for tribal courts, so we had 36 
officers, our arrests went way up, and the tribal court still 
had one judge and one prosecutor and so the time between arrest 
and trial got even longer. Now we have tribal court grants that 
are small but we have no cops. So it's a system. You have to 
fund the system or it doesn't work.
    Ms. Herseth Sandlin. Well, let me make an observation here 
based on this experience. It reminds me of what we know has 
happened between the BIA and IHS, two resource strapped 
agencies that at times seem to try to manage their limited 
resources by shifting costs and not providing services to an 
eligible individual because they know there's another place 
where they can access funds.
    I'm interested in pursuing this further with the BIA in 
terms of the initial encouragement, perhaps, with anticipation 
because of the success of the COPS program, that that would 
continue to be funded at reasonable levels, which it was not 
because of cuts and changes in priorities over the last few 
years.
    So, you know, we've had a confluence of factors that have 
now resulted in this crisis and you should know, President 
Steele, that Chairman Norm Dicks of Washington did talk with me 
specifically about the testimony that was provided to his 
subcommittee as it relates to the crisis that you face in law 
enforcement for the Oglala Sioux Tribe and I will be working 
with him as the subcommittee process, now that we've had the 
initial mark-up, goes to full committee and then gets 
conferenced to identify specific needs of specific tribes, but 
certainly the situation being as dire with the 40 percent cut 
as well as the various substantial percentage cuts that other 
tribes in South Dakota, throughout the Great Plains are facing.
    If I maybe can--let's talk about the Great Plains region, 
if we could. I understand that there are a number of tribal law 
enforcement agencies, again, I think all of those represented 
here, that have banded together to form a law enforcement 
working group. If any of you could comment or if you have folks 
that are with us here today that could comment on what the 
group has been able to accomplish and what kind of 
participation you've seen. If any of you would care to comment. 
President Steele?
    Mr. Steele. If I may, Congresswoman. I knew it and I spaced 
it out at the time, but Mr. Archie Fool Bear from the Standing 
Rock Sioux tribal council is here also and if possible, maybe 
five minutes later on he would like to also give some testimony 
from the Standing Rock Sioux Tribe. It wasn't on the agenda. At 
your will, Congresswoman. I know you're busy.
    But I would like to say, Congresswoman, that my Chief of 
Police here, Mr. Twiss, passed me a little note that the BIA 
did give us $475,000 in reprogrammed monies for law enforcement 
last year. I'd like to thank them for that, but that is, to us, 
a Band-Aid.
    And your question on the working group, yes, we are working 
on legislation for you, Congresswoman, to possibly present and 
we will get to the other tribes with this legislation, but this 
is a possible solution overall in law enforcement with not only 
our cops, but the courts and the prosecutors also, and so this 
is something we'll be coming at you into the future. If you 
want a copy of this very rough draft of it now, we'll get you a 
copy, but we're working on legislation for yourself and the 
senators to consider and we'll get this working group with the 
other tribes to get them copies also and get their input.
    We want this to be a whole joint effort in South Dakota and 
possibly even North Dakota.
    Ms. Herseth Sandlin. So the tribes that are currently 
participating in the working group doesn't include all of the 
Great Plains tribal chairmen yet?
    Mr. Steele. We'll be getting around to the tribes, yes.
    Ms. Herseth Sandlin. OK. I know it's in its very early 
stages.
    Mr. Steele. It's in its early stages, but we want them to 
participate with us in the completion of it, the drafting of 
it. It's in very rough draft form right now.
    Ms. Herseth Sandlin. Did either President Bordeaux or 
Chairman Brings Plenty want to comment on it?
    Mr. Bordeaux. Well, yeah. I guess we need to have the unity 
amongst our agencies but I think we need to really concentrate 
on the funding issue at hand right now.
    But I would like to, if I could, address an issue about 
that methamphetamine and the drug problems. I don't know if you 
want to do it now.
    Ms. Herseth Sandlin. Please do. That was my next question 
and I know that you have an officer here.
    Mr. Bordeaux. Yes. I have Officer Estes here. Mr. Estes has 
been involved in the Safe Trails Task Force and he can give you 
the magnitude of the problem here facing the reservations if 
you could give him some time.
    Ms. Herseth Sandlin. Welcome, Mr. Estes. If you could 
identify yourself for the record before presenting your 
statement.

 STATEMENT OF BEN ESTES, SPECIAL AGENT WITH THE ROSEBUD SIOUX 
     TRIBE ATTACHED TO THE NORTHERN PLAINS DRUG TASK FORCE

    Mr. Estes. My name is Ben Estes. I'm a special agent with 
the Northern Plains Drug--well, I'm a special agent with the 
Rosebud Sioux Tribe attached to the Northern Plains Drug Task 
Force.
    I've been working with the task force for six years. Prior 
to working with Rosebud, back in September of 2005 I was--my 
area was Lower Brule, Fort Thompson.
    Since working with Rosebud down there with the chief of 
police, the captain of police, the highway safety program, the 
criminal investigation division, along with various other 
entities, what we found out--what we found out there in the 
investigations in Rosebud is it not only affects Rosebud, but 
it affects all of the other tribes.
    When we do our investigation, it usually leads to other 
reservations and it also leads to Rapid City, Sioux Falls, 
California, Washington. Almost every state in the union. Texas, 
Mexico. We could trace these drugs back to these areas. We can 
even trace them back to Hawaii.
    Through our investigation we have found that there are 
various crime cartels that bring this stuff in. They infiltrate 
the reservations by marrying into families or going out with 
individuals on the reservation that are enrolled members and 
it's becoming a national epidemic, not only nationally, but on 
each reservation.
    When I first started doing this, I didn't think--I was on 
patrol here in Lower Brule. I didn't think it was that big of a 
problem until I started working with the drug task force.
    Prior to coming up here today, I was in Rosebud. They had 
asked me to do--to tell you real quick how many arrests we have 
made, Federal arrests. And I didn't realize it was that many. 
There was 51 for meth and then there was ten for marijuana.
    Now, from talking to the captain, the chief of police, 
Chief Red Crow and some of the other officers that are on 
patrol, our meth arrests are going down, but that doesn't mean 
that there's not meth on the reservation. They went 
underground. I'm finding out that a lot of the meth is also 
coming up this way. They're no longer selling it down there but 
they're selling it on other reservations, Lower Brule, Fort 
Thompson, Winnebago, Wagner or Lake Andes, the Yankton Sioux 
Tribe, Eagle Butte, Standing Rock, Sisseton, you name it. 
Montana tribes. Wyoming tribes.
    The problem we have now is we don't--I am full-time down 
there and we're understaffed investigating drug crimes. Many 
times we're on call all day and night and I go, you know, but 
each reservation does have a meth problem and we need more 
funding to combat this meth problem.
    Ms. Herseth Sandlin. Mr. Estes, if I might ask, the gang 
activity that President Bordeaux described, have you found in 
your investigations both on the Rosebud as well as the cross--
where the investigations lead you, not only Federal 
reservations but in different parts of the country and further 
south in New Mexico, are the youth gang activities directly 
related to the methamphetamine issue or even indirectly? Can 
you elaborate a little bit on whether or not there is that 
connection?
    Mr. Estes. I don't--I work with the gang unit, but I don't 
work directly with them. There is two people down there, 
Special Agent Walters and Special Agent Martel that work the 
gang unit. They also work part-time with me when I need help.
    I know that they just did--they just went to Grand Jury and 
indicted two people for their involvement in the MS13 gang, so 
they are coming up this way and they are actively recruiting. A 
lot of the other gangs, they do get involved. I know--well, 
there's some investigation that's going on right now involving 
youth gangs that are involved in selling methamphetamine, 
cocaine. It seems like cocaine is back on the rise again.
    But we are working on current investigations right now 
involving youth gangs bringing that stuff in and selling it for 
these individuals that come off--that are from off the 
reservation are bringing that stuff on the reservation. So 
yeah, there is an increase with gang activity getting involved 
in the drug market. Because it is a lucrative market.
    And also I'd like to say that there is a lot of weapons, 
firearms that are involved in these transactions, people 
exchanging firearms for meth, cocaine, marijuana, so...
    Ms. Herseth Sandlin. Well, thank you for being here and for 
talking about your experiences and the importance of the task 
force and the coordination and the seriousness. It has taken us 
far longer than it ever should have to get the Administration 
and the Department of Justice to recognize the seriousness of 
the methamphetamine problem, especially in rural parts of the 
country, and the additional burden that that is putting on law 
enforcement in more remote communities and certainly the fact 
that we know that Indian Country has been used as a transport 
site--I mean in terms of exploiting the lack of law enforcement 
presence as it's been articulated throughout here today because 
of the Federal funding problems associated with what we've 
encountered over the last few years.
    Chief Gaikowski, would you like to comment on the 
methamphetamine or illegal drug trafficking issue more broadly?
    Chief Gaikowski. Yes. I'd just like to comment: We're 
applying for one of the meth grants right now, it's a $450,000 
grant for our meth coalition we have set up in Sisseton, and I 
guess my comment is: Who are putting out these grants? Because 
you see the need for more officers, more drug officers, but we 
can't apply for an officer under this grant. And for a 
prosecutor they could or for a civilian. But I guess that's 
just one of the questions, the people that are putting out 
these grants, is there any other input they can get from what's 
really going on out in Indian Country?
    Ms. Herseth Sandlin. Thank you for the comment and bringing 
that to my attention.
    The grants that have been made available, I believe have 
been mostly through the Department of Justice as they've--the 
Office of Drug Control Policy is charged to respond to this 
epidemic and meth in particular. And so I'm sure that in trying 
to maintain various boundaries as they have established grant 
programs and the new grant program, whenever, again, we're 
dealing with limited resources, I always attempt to kind of 
define eligibility in a way that narrows the use of funds.
    So we'll pursue that because, you know, certainly the 
importance of the coordination to combat meth can't be 
overstated as it relates to not only the law enforcement side 
but obviously the treatment side and the tribe grants that 
we're trying to make available to develop the most effective 
treatment programs and raise the level of awareness of all 
those in the community, in the schools, to assist law 
enforcement in these efforts.
    So thank you for the comment. That's something that we will 
look at as we, perhaps, are looking to authorize new programs, 
but certainly in funding these grants and how they're allocated 
by the agency that we might look at, you know, again, the 
flexibility of the use of the funds, especially if those are 
made available to tribes that are applying for those grants.
    Yes?
    Chief Gaikowski. I guess also, that one of the things we're 
finding out and it is becoming a problem up there, a big 
problem, especially being so close to Minneapolis, Sioux Falls, 
the interstate coming right through there, but our true numbers 
aren't really being, I guess, told. We still have all the other 
programs we need to work with and it does hinder with IHS, you 
know, trying to get stats from them, trying to get, you know, 
who's on--if they can just keep track of, you know, the drugs 
or what, but it seems like there's a blockade there also to 
finding--so we can find the true number of, you know, what's 
going on in our community right now.
    It's tough for law enforcement because we are a tight knit 
community. We all know each other and no one wants to be a rat 
out there and--but, you know, it's in our community's heart and 
I just hope that, you know, future funding for better 
understanding of what we need will come out of this.
    Ms. Herseth Sandlin. Thank you.
    Chairman, did you have additional comments on this issue?
    Mr. Brings Plenty. Yes. Actually, I wanted to respond to 
just about every one of them, of the subjects that we were 
talking about here.
    First off, the meth issue, I have some information to add 
on there. In '02, 2002, the--that's when, from my--from where 
I'm standing, working as an officer out in the field, I saw, 
you know, the addiction of meth go into overdrive. The rate of 
violent offenses was on the rise and officers being assaulted 
and attacked.
    I myself went into a home to make a simple arrest and I was 
jumped by the whole family and having to fight your way out of 
there. A person that is on that sort of drug is very strong. A 
scary situation.
    And with situations like that, our lives could be lost, 
whether it be an officer or persons in the community. And what 
the drug agent that was here before speaking, there was a 
study--not really a study, actually. There was an issue over in 
Moon River regarding some meth usage. Some of the Mexican gangs 
had come in and, you know, infiltrated the tribes the same way, 
married into family members, family members that were actually, 
you know, tied in politically with tribal leaders and, you 
know, making it very hard for the investigation to be carried 
out. It took some years. I want to say probably six years 
before they really, you know, broke down that ring.
    But actually that idea of history, too, was given--it was a 
business plan that was laid out by these individuals and 
thought out and they went and carried it out because they saw 
what was going on over in White Clay. And, you know, they saw 
that the Native Americans there had, you know, addictions of 
alcohol and if they can just go ahead and switch that over to 
this drug called meth, then they might make a lot of money. And 
they were right, because within a year, you know, their rates, 
percentages of violent crime--because when you're on that sort 
of drug, and believe me, through going out in the community and 
dealing with people firsthand that were on it and also being on 
the social service side of it, too, you know, people that were 
trying to get off it, and they would--there was nothing to 
hide. They would tell you everything and what they would do for 
that, their drug.
    Because the thing is is that it's broader than just law 
enforcement now. When we talk about this struggle, we open the 
door for everything. Because we have housing. We have health, 
human services. I mean, because when they make these labs, they 
totally destroy these homes. Nobody can live there. People get 
sick. I mean, it's just--it's so broad that it just kicks the 
door open for everything and everyone's affected through 
families, through schools, through everything. It's a very 
large issue and, you know, up on the Hill they, you know, of 
course appropriate monies out to law enforcement but the sense 
is when you take a step back and take a look at law 
enforcement's money that are coming down are being funded to or 
appropriated for these departments to battle that there drug on 
the front line, I think the amount was maybe, I want to say, 
six million, maybe five million. I'm not too sure. Don't quote 
me on that.
    The thing is how many treatment facilities do we have that 
address this here addiction in South Dakota? And it's just--
it's broader than just, you know, on the front lines because 
these officers put their lives on the line daily, go out and 
arrest these individuals and take them to jail. The next day, 
the next couple days, they're out again because we don't have 
nothing to--you know, as far as, you know, we've heard before, 
as far as the backlog of the court system that we have there at 
Cheyenne River. We can't honestly say that we're going to be 
able to battle these issues and carry them out because of the 
lack of funding and the lack of bodies and the lack of 
personnel.
    When I worked law enforcement, we had 22 people on patrol. 
Now there's, you know, probably about ten. Scary. And we were 
way behind back then.
    But moving away from that, I guess I kind of jotted down a 
couple of notes here talking about the COPS grant program, and 
they're great--first of all, the COPS program is a great 
concept, community oriented, police and people living out in 
the communities, being a part of the community, police 
presence, you know, lower crimes, the whole idea is great, but 
funding is at issue.
    When we were over in the Great Plains, there was also quite 
a few of the other chairmen there that were asking questions. 
Mr. Jandreau was also present but there was a justification 
that was given on why there's not an increase on--from the 
Bureau side of it regarding law enforcement, because we can go 
ahead and put in for COPS grants, which isn't true. We can't.
    And also with--you know, talking about the work group, one 
thing is that the BIA chief of police, they should also be 
allowed to be part of the work group. They're not. We need 
information from all--from all areas. And I know that some of 
the tribal policies and procedures vary differently from, you 
know, some of the Bureau procedures, but not really.
    And also with--I'm sorry, but there's--also during the 
Great Plains meeting, and Mr. Chaney was up here speaking and, 
you know, I get along with--well, they're not here. They're 
over there. I get along with the individuals very well and 
stuff, but, you know, the thing is is that they had talked 
about consultation in Albuquerque, New Mexico, in February. 
When we was in the meeting in the Great Plains and that was in 
January, we never was ever informed of a meeting in 
Albuquerque, so consultation didn't occur with us.
    Ms. Herseth Sandlin. I appreciate your additional comments 
on each of those issues that we've explored and particularly as 
it relates to the working group and consultation, and I want to 
assure you we're going to be exploring each of these issues 
further. The follow-up from the hearing, as we gather more 
information, will be very important and we'll be relying on our 
ongoing dialogue to assure progress.
    I think that you had comments on behalf of President 
Steele. Correct?
    Mr. Twiss. Yes, ma'am. Thank you.
    It was just in regards to some of the issues that are 
coming up now in regards to meth.
    Ms. Herseth Sandlin. Can you make sure your microphone is 
on.
    Mr. Twiss. In regards to some of the issues we have on the 
reservation that are currently being talked about in regards to 
meth, right now we have officers doing investigations on eight 
reported labs on Pine Ridge Reservation but due to a shortage 
of manpower, that we're having a hard time investigating these. 
Some of these are the mobile labs, trailers or in the vehicle.
    So from the time--the officers don't have time to go out 
actively and spend hours looking for these things because 
they're also responsible for an area of a couple thousand 
people trying to answer calls at the same time, so it's real 
hard to try and address the meth issue.
    But we do have--some of the stuff that's reported--and I 
haven't seen it yet, but we know it's coming because it's 
getting closer, is the pop rocks and the strawberry quick and 
it's designed to make it more appealing for the kids and so 
that's on its way.
    In regards to gangs, we are in the process of looking at 
the gangs on Pine Ridge and some of the information we've put 
together was out of a population of roughly 50,000 people on 
the Pine Ridge Reservation, we have an estimated 13,000 gang 
members. These are ages anywhere from seven to 40 years old.
    We also have--I heard talk of some of the different gangs 
coming from different parts of the area. We have some of the 
Latin Kings trying to get a foothold on Pine Ridge right now 
and right now we also--when we talk about the gangs coming into 
the reservation, we have one tribal member who was born and 
raised on the reservation who come into the gangs here. He's 
currently in California awaiting trial on a double homicide.
    Then on the COPS, some of the things that we have issues 
with is the COPS grant was supposed to be a supplement for the 
tribal--for the tribal programs. It never worked out that way. 
You know, as I said in my testimony, it was--it was meant--it 
was meant for us to get more officers on the street but it was 
a--it was a crutch for the Bureau and we never received any 
help back on that.
    They talked about the waivers. A lot of times they didn't--
we didn't get waivers. A lot of times the waivers weren't 
granted and if they were granted, they were granted with great 
reluctance. The COPS program was developed to put more cops on 
the street. The COPS grants themselves provided bodies. The 
departments, even if it created more officers for departments, 
that department had to get more uniforms, equipment, vehicles, 
everything else for that officer.
    So in actuality it kind of strangled us even more because 
instead of going forward with the COPS grant, we ended up 
spending more of our contract dollars buying equipment and 
trying to get these people situated. We're looking, you know, 
an average cost--we just put this together. The average cost 
for equipping one officer was $6500. So if you get--I heard 
something like 30 officers, 15 officers. That's a lot of money 
for a small department.
    We have--we have a--on Pine Ridge we have a task force 
that's put together of some officers and they're not 
specifically going after one issue, they have different issues, 
so--and one of their main issues right now is the meth. So 
that's something we've done on our own.
    I'll finish out and go over this. Thank you.
    Ms. Herseth Sandlin. Yes, President Bordeaux.
    Mr. Bordeaux. Yes. Another comment with regard to funding.
    Earlier I mentioned the Federal Bureau of Investigation 
getting an increase in funding and we tracked that and they 
didn't--none of it ever hit our reservation in terms of money 
available to our law enforcement services. And there was no 
strings attached type, whatever the BIA gets.
    We have to be creative in terms of getting other funding. 
If you could somehow put a word into the FBI Department of 
Justice that they allow some of that money to come down, 
because they're using our statistics to get increases and we 
don't get any of that.
    And in addition, on the Rosebud, for two years now--and I'm 
glad they're finally allowing some funding for meth addiction. 
So we have our alcohol treatment center. We just opened a youth 
component of that on the alcohol side, but now we want to open 
a component for methamphetamine addiction on both the adult and 
juvenile side. So we've been trying to get some funding and I 
think we're going to be stopping down next week at your office 
and see where we're at with that.
    But that's something that we need, the addiction, and when 
you said about a 15 percent cure rate already, maybe even 
lower, but it's an issue that we have to address also as we 
proceed.
    Thank you.
    Ms. Herseth Sandlin. Thank you. And can you make sure that 
other microphone is turned off? They were getting a little 
feedback. Is it off?
    Just a couple of observations and comments before we end 
this panel and we're going to take a small break before we get 
to the third panel.
    Chairman, did you have another comment to make? OK.
    Mr. Brings Plenty. First of all, this is probably about the 
longest long-winded panel you've had today so...
    Getting back to the meth issue, we had a drug, actually, 
officer, agent, in our organization that was working on the 
area there, but he had been--and his family were basically 
threatened so they left. But we used two police officer 
position salaries to fund for an agent at home because the 
thing is is that we're not allowed, getting back to the BIA, as 
far as not allowing the canine officer to come onto our 
reservation because of it being a liability.
    But the thing is, also, is that we've talked about some of 
the grants and Chief Twiss had talked of--and the question was 
about--he brought up a good question, too, was who makes these 
grants and who, you know, lays out that scope of work? 
Sometimes you take a look at the grants and, you know, of 
course it sounds great because it's laid out in front of you, 
you can do this, you can do that.
    From one instance, I guess is the Indian highway safety 
which is funded by DOT. The scope of work was provided by the 
Bureau. Now, the thing is is that coming in, people aren't 
going to realize that that officer that's looking at their 
grant is only funded when he's out on the road, when he or she 
is out on the road. There's no funding that's included in there 
for the in office work, paperwork. Of course, that needs to be 
done. If you're going to go out and arrest somebody, you have 
to also justify that down on paper.
    Another is the training that is also required for it and 
some of the traveling back and forth going down to Albuquerque, 
but that's not included in there also. And that's just, you 
know, kind of adding onto it. The chief here is a cop who does 
these grants.
    Also, before I end, too, Archie Fool Bear from Standing 
Rock, he's a councilman also, former chief of police, and I 
would like for him--ask for him to be--request for him to have 
the floor. Maybe after the break. It's at your discretion, 
Madam Chair.
    Ms. Herseth Sandlin. Thank you, Chairman.
    And let me just make a few comments before we do have to 
take the break and then still have time for our third and very 
important panel.
    We made every attempt to accommodate as many witnesses as 
we could today and I do want to make sure that we have time to 
hear from Chairman Cournoyer and Mr. Fool Bear.
    We're also going to be doing additional outreach. I want 
everyone to be assured of that. We do face some constraints 
when we're setting up any field hearing with the number of 
panels and witnesses that we can accommodate. So there was no 
disrespect intended to those who we weren't able to include 
officially in kind of the official roster for the field 
hearing, but I do anticipate that we should have time, after 
the third panel, so that we can hear from--and I just want to 
verify during the break with Committee staff in terms of the 
protocols that we operate under, that we can accommodate other 
witnesses, either as part of the official record or certainly 
to yield them the floor to be able to hear from Chairman 
Cournoyer and Mr. Fool Bear and the level of expertise and 
insight that they are able to offer today.
    But there is already ongoing planning by my staff and 
working with both the Washington office and our South Dakota 
office for additional outreach, not only on law enforcement 
issues, but a whole host of other issues for which the 
oversight of the 110th Congress is undertaking will be so 
relevant and important to our efforts.
    So let me just offer a couple of concluding thoughts before 
we take our break and then invite the third panel.
    The testimony that's been provided today is essential to 
breaking down barriers that have existed over many years but 
including some that have developed even recently as a result 
of, in my opinion, of a lack of oversight. Chairman Rahall has 
indicated the seriousness about oversight with the Natural 
Resources Committee, in my opinion, again, did not as 
aggressively undertake in the past.
    I think that Ranking Member Young's leadership, not only in 
the past as former chairman of the Natural Resources Committee, 
but in representing Alaskan Native tribes and the work that he 
has done in this area will be very important in their 
partnership and the seriousness with which we take these 
issues, the full committee.
    So I appreciate the testimony that's been offered by all of 
our tribal leaders, not only our elected chairmen and 
presidents, but the chiefs of police and other law enforcement 
officers that are here that have presented testimony.
    I want to thank Mr. Ragsdale and Mr. Chaney and those that 
work with them for being here and for staying. Because 
oftentimes when we have hearings in Washington, everyone's 
schedule is pulled in so many different directions that we're 
not able to have Administration witnesses stay with us 
throughout the course of the entire hearing. So I want to thank 
them, because our work going forward together, both in terms of 
my representation of tribes here today, but also the working 
relationship that Congress maintains with the Executive Branch, 
we want to pursue this spirit of cooperation so that people 
have the tools and feel empowered to have the process in place 
that's more responsive in addition to the funding increases 
that have clearly been identified as among the most important.
    But as we increase that funding as the Administration has 
done in its proposal for FY '08, as the House Interior 
Subcommittee has done already, that hopefully the full 
Committee will follow suit, we have to create the conditions 
for accountability in how that money is spent.
    And the comments that were made earlier by a number of you 
about the top heavy issue of management and how that money and 
those resources get down to local communities, whether it's in 
law enforcement, whether it's education, and the problem that 
we had or continue to have with education line officers and 
ensuring that the accountability and the resources get to where 
it's needed most.
    So as we create those conditions of accountability and 
pursue additional and aggressive oversight, it will continue to 
be important as all of you have to do in working with tribal 
councils, in preparing your budgets to present to the 
administration at the tribal level and justifying the spending 
that you're requesting, it is a matter of priorities. And while 
the Administration in the budget proposed this year has 
proposed the increase in law enforcement, as President Steele 
noted at the outset, we've seen cuts elsewhere, in education 
programs for Native American youth, in burial assistance 
programs for among the poorest people in the country.
    It's heart breaking, some of the testimony we've heard 
today, but other issues that we've heard about are inexcusable, 
inexcusable to Congress as it relates to our oversight 
responsibility, inexcusable for the Administration in terms of 
funding priorities that Congress has to act on as well.
    And so whether it's the BIA's formula for funding law 
enforcement activities, certainly the statistics that have been 
shared today as it relates to the number of law enforcement 
officers we have out in our communities in Indian Country 
versus what we have in other communities across the country 
will be very important in making the case. Just as we made our 
case, again, in seeing increases but not nearly enough to meet 
the need as it relates to IHS funding, when we pointed out the 
amount of money spent per Federal prisoner on health care 
versus the amount of money spent per Native American as it 
relates to treaty obligations, and the same is true in the 
crisis situation we face today in law enforcement which has 
been highlighted by the very effective testimony as it relates 
to methamphetamine abuse in particular and at a time when we've 
seen that problem exacerbate and when we've seen the 
exploitation of families and communities in Indian Country by 
outsiders coming in, increasing and recruiting for gang 
activity, exploiting the remote nature of Indian Country and 
all of rural America to engage in this type of drug trafficking 
and the targeting of youth, again, highlights the importance of 
Congressional action working with the Administration to combat 
the proliferation of methamphetamine and other illegal drugs.
    But this is going to require a holistic approach, a 
holistic approach not only in terms of how we work together, 
but the holistic approach of recognizing that it's not law 
enforcement, further development of resources for our court 
system, the treatment programs, it's the safety and health of 
our elders and our children and those that are wanting to make 
a difference in their communities.
    The testimony about--sorry to get a little emotional, but 
the sacred relationship between grandchildren, between elders 
and their grandchildren, and how that's been disrupted by the 
increase in crime and the methamphetamine abuse, we have to get 
at the heart of that, just as we have to get at the heart of 
domestic violence, which is what we'll be hearing about in the 
final panel today in response, in part, but only in part, to 
the Amnesty International report. Because we've known even 
before they released this report, the travesty, what the 
statistics have been historically in the disproportionate rate 
of domestic violence in Indian Country against women and young 
children.
    Let me now conclude by thanking you all once again and 
announcing that we will be moving to the third panel after a 
short break that I think will last maybe about 15 minutes.
    And I'll have some additional people to thank but I know 
that some people may have to leave and so let me thank now 
Clarence Skye with the United Sioux Tribes and those that may 
be traveling with him for providing the flags for today's 
hearing.
    Chairman Pilcher with the Winnebago Tribe unfortunately had 
to leave but we will follow up with him to see if there are 
other comments he would like to provide in response to some of 
the testimony that was offered here already.
    And Patty Gourneau, I know she was here. She's been in and 
out. She's been assisting us with Chairman Jandreau for setting 
up the hearing here today.
    I want to thank my staff. I'm going to do all of this again 
at the end of the third panel. Again, I know some people may 
have to leave after this panel. Phil Asmus with my legislative 
team, Laura McNaughton, and Lesley Kandaras and Maiva King--
Maiva King is my state director and Lesley and Laura work with 
her out of both the Rapid City and Sioux Falls Office and the 
Aberdeen Office--for their work in preparation for today's 
hearing.
    Our student Ambassadors who were at lunch earlier and who 
had joined us at the outset of the hearing. They may be out and 
around and assisting people in a different part of tribal 
headquarters here, but I also want to thank--as you know, I 
serve on the Veterans Affairs Committee as well and I've worked 
with so many of you to address the needs of Native American 
veterans. As a number of you did already, I want to thank the 
(Lakota), those law enforcements officers who are here who 
protect us closer to home in addition to the (Lakota) that 
protect us in serving further away, but thank you for being 
here and for what you do. And we're going to do all that we can 
to ease the burden that you have faced over the last couple of 
years. So thank you.
    We'll take a short break and return in about 15 minutes.
    [Break taken.]
    Ms. Herseth Sandlin. I appreciate everyone's patience here 
for accommodating their schedules for the length of the 
important testimony we're taking here today but I am very 
pleased that we have a panel of witnesses before us now that is 
going to focus our attention to a narrower aspect of law 
enforcement, and that is violence against Native American 
women.
    As I mentioned before the break, this panel is in part a 
response to a report from Amnesty International entitled ``Maze 
of Injustice: The failure to protect Indigenous women from 
sexual violence in the USA.''
    I'm pleased to inform you that Carol Pollack is able to 
join us from Amnesty International to testify about the 
contents of the report and I greatly appreciate the added focus 
that the report has brought to this issue, but again, as I 
mentioned before the break, I think it's very important to note 
that the report is supported by a wealth of statistics that 
have been around far longer than the report itself. It's also 
been shaped by decades of work by dedicated advocates on behalf 
of victims of domestic violence, victims of abuse, some of whom 
we're fortunate to hear from today.
    So I want to thank Cecelia Fire Thunder for being here 
testifying on behalf of the work that she is undertaking, along 
with Karen Artichoker, with the Oglala Sioux Tribe, and I want 
to thank Georgia Little Shield for being here today as well.
    In addition to our distinguished panel, I want to 
acknowledge individuals who deserve to be commended for their 
work in addressing violence against women. In particular, I'd 
like to single out Lisa Thompson. Where is Lisa? There she is. 
Lisa works with Wiconi Wawokiya.
    Last summer I had the opportunity to visit her at the 
shelter just a few miles away in Fort Thompson, the Crow Creek 
Sioux Tribe, and I was impressed to learn more about the 
services that she and others provide there and want to thank 
Lisa and Wiconi Wawokiya for their work.
    My experience and understanding of this issue expanded 
dramatically about a decade ago when I was working for the 
Federal District Court here in South Dakota, the sexual 
division, and the importance of the partnership of our 
advocates on behalf of victims of domestic violence with our 
victims assistance individuals within the Federal Court, within 
the Federal Attorney's Office, working closely with them.
    So again, thank you, and with that, we'll go ahead and 
start the testimony.
    Ms. Pollack, if you could begin, please.

          STATEMENT OF MS. CAROL POLLACK, RESEARCHER, 
           AMNESTY INTERNATIONAL, NEW YORK, NEW YORK

    Ms. Pollack. Thank you very much, Madam Chairwoman, for 
inviting Amnesty International to testify on an issue that 
significantly impacts the human rights of American Indian and 
Alaska Native women. I would like to submit my full testimony 
for the record.
    Amnesty is a worldwide human rights movement with more than 
2.2 million members. Our mission is to conduct research and to 
take action to prevent grave abuse of human rights.
    I will focus my remarks on the findings of Amnesty's recent 
report. Amnesty launched an investigation after learning that 
the DOJ's own statistics, not new statistics, as you mentioned, 
indicate that Native American and Alaskan Native women are more 
than two and a half times more likely than other women in the 
U.S. to be raped; that more than one in three Native women will 
be raped during their lifetime; and that 86 percent of these 
crimes are committed by non-Native men.
    On April 24, 2007, Amnesty released the findings after a 
two-year investigation. We interviewed survivors of rape, 
service providers, and Federal, state, and tribal law 
enforcement across the United States. We conducted detailed 
research in three locations with distinct jurisdictional 
challenges: The states of Oklahoma and Alaska and the Standing 
Rock Reservation in North and South Dakota.
    Many survivors courageously came forward to share their 
stories. For example, one Native American woman living on the 
Standing Rock Reservation told Amnesty that in 2005, her 
partner raped her and beat her so severely she had to be 
hospitalized. A warrant was issued after he failed to appear in 
court but he was not arrested. One morning she woke to find him 
standing by her couch looking at her.
    The perspectives of survivors as well as the Native women 
at the forefront of efforts to protect Indigenous women must 
inform all actions taken to end sexual violence. The safety of 
Native women as to this group of sovereign tribes rests on the 
capacities there to address sexual violence and implement VAWA 
and in particular the Tribal Title, Title IX.
    Thank you for the opportunity to testify on this important 
human rights topic.
    [The prepared statement of Ms. Pollack follows:]

              Statement of Carol Pollack, Researcher for 
                      Amnesty International U.S.A.

Introduction
    Madame Chairwoman and members of the Committee, thank you for 
inviting Amnesty International to testify on an issue that 
significantly impacts the human rights of American Indian and Alaska 
Native women. I would like to submit my full statement for the record. 
I will focus my remarks on the findings of Amnesty International's 
recent report ``Maze of Injustice: The failure to protect Indigenous 
women from sexual violence in the USA''.
    Amnesty International is a worldwide human rights movement with 
more than 2.2 million members and supporters in more than 150 countries 
and territories. Amnesty International's vision is for every person to 
enjoy all of the human rights enshrined in the Universal Declaration of 
Human Rights and other international human rights standards. Amnesty 
International's mission is to conduct research and take action to 
prevent and end grave abuses of all human rights. Amnesty International 
is independent of any government, political ideology, economic interest 
or religion. The organization is funded by individual members; no funds 
are sought or accepted from governments for investigating and 
campaigning against human rights abuses.
``Maze of Injustice'' Report
    On April 24, 2007, Amnesty International released the findings of 
over 2 years of investigation into the problem of sexual violence 
against Native American and Alaska Native Women. The report is part of 
a worldwide campaign to Stop Violence against Women launched by Amnesty 
International in March 2004. Since then AI has published reports on 
aspects of violence against women in 40 countries.
    Amnesty International launched an investigation after learning that 
U.S. Department of Justice's own statistics indicate that Native 
American and Alaska Native women are more than 2.5 times more likely 
than other women in the U.S. to be raped. According to Department of 
Justice statistics, more than 1 in 3 Native American and Alaska Native 
women will be raped at some point during their lives and 86% of 
perpetrators of these crimes are non-Native men.
    Amnesty International's report examines some of the reasons why 
Indigenous women in the U.S. are at such risk of sexual violence and 
why survivors are so frequently denied justice. The report is based on 
research carried out during 2005 and 2006 in consultation with Native 
American and Alaska Native individuals. In the course of this research, 
Amnesty International's interviewed survivors of sexual violence and 
their families, activists, support workers, service providers, and 
health workers. Amnesty International also interviewed officials across 
the US, including tribal, state and federal law enforcement officials 
and prosecutors, as well as tribal judges. Amnesty International also 
met representatives from the federal agencies which share 
responsibility with tribal authorities for addressing or responding to 
crimes in Indian Country.
    Amnesty International conducted detailed research in three 
locations with different policing and judicial arrangements: the State 
of Oklahoma, the State of Alaska, and the Standing Rock Reservation in 
North and South Dakota. While this report presents a national overview 
of sexual violence against Indigenous women, it primarily presents our 
specific findings in these key areas of research.
    Each location was selected for its specific jurisdictional 
characteristics. Oklahoma is composed for the most part of parcels of 
tribal lands intersected by state land where tribal, state or federal 
authorities may have jurisdiction. In Alaska, federal authorities have 
transferred their jurisdiction to state authorities so that only tribal 
and state authorities have jurisdiction. The Standing Rock Reservation 
illustrates the challenges involved in policing a vast, rural 
reservation where tribal and federal authorities have jurisdiction.
    The Standing Rock Reservation (also known as the Standing Rock 
Lakota/Dakota Reservation) straddles the border of North and South 
Dakota and covers an area of 2.3 million acres (approximately 
9,312km2). Some 9,000 people live on the Reservation, about 60 per cent 
of whom are Native American. The Standing Rock Tribal Council is the 
tribal government and the Standing Rock Police Department (SRPD) is 
operated by the BIA. The Standing Rock Tribe has a tribal court, which 
hears civil and criminal complaints.
    Amnesty International is indebted to all the survivors of sexual 
violence who courageously came forward to share their stories and to 
those who provided support to survivors before and after they spoke 
with Amnesty International and to the Native American and Alaska Native 
organizations, experts and individuals who provided advice and guidance 
on research methodology and on the report itself. Amnesty International 
hopes that ``Maze of Injustice'' can contribute to and support the work 
of the many Native American and Alaska Native women's organizations and 
activists who have been at the forefront of efforts to protect and 
serve women.
    This report attempts to represent the stories of survivors of 
sexual violence; their perspectives must inform all actions taken to 
end violence against Indigenous women. The report presents and 
references their statements. For example:
        One Native American woman living on the Standing Rock 
        Reservation told Amnesty International that in September 2005 
        her partner raped her and beat her so severely that she had to 
        be hospitalized. He was released on bond and an arrest warrant 
        was issued after he failed to appear in court. However, SRPD 
        officers did not arrest him. One morning she woke up to find 
        him standing by her couch looking at her. Interview (name 
        withheld), February 2006
High Levels of Sexual Violence
    Amnesty International's research confirmed what Native American and 
Alaska Native advocates have long known: that sexual violence against 
women from Indian nations is at epidemic proportions and that Indian 
women face considerable barriers to accessing justice. Native American 
and Alaska Native women may never get a police response, may never have 
access to a sexual assault forensic examination and, even if they do, 
they may never see their case prosecuted. As a result of barriers 
including a complex jurisdictional maze and a chronic lack of resources 
for law enforcement and health services, perpetrators are not being 
brought to justice.
    Amnesty International's interviews suggest that available 
statistics on sexual violence greatly underestimate the severity of the 
problem and fail to paint a comprehensive picture of the abuses. No 
statistics exist specifically on sexual violence in Indian Country; 
more data is urgently needed to establish the prevalence against 
Indigenous women.
    One support worker in Oklahoma told AI that only three of her 77 
active cases of sexual and domestic violence involving Native American 
women were reported to the police. A medical professional responsible 
for post-mortem examinations of victims of rape and murder in Alaska 
told AI that Alaska Native women comprised almost 80 percent of 
confirmed cases in the state since 1991.
    According to FBI figures, in 2005 South Dakota had the fourth 
highest rate of ``forcible rapes'' of women of any U.S. state. 
Interviews with survivors of sexual violence, activists and support 
workers on the Standing Rock Reservation indicate that rates of sexual 
violence are extremely high. Many women interviewed by Amnesty 
International on the Standing Rock Reservation could not think of a 
single Native American woman within their community who had not been 
subjected to sexual violence, and many survivors reportedly experienced 
sexual violence several times in their lives by different perpetrators. 
There were also several reports of gang rapes and Amnesty International 
was told of five rapes which took place over one week in September 
2005.
    High levels of sexual violence on the Standing Rock Reservation 
take place in a context of high rates of poverty and crime. South 
Dakota has the highest poverty rate for Native American women in the 
USA with 45.3 per cent living in poverty. Crime rates on the 
Reservation often exceed those of its surrounding areas.
    Amnesty International documented many incidents of sexual violence 
against American Indian and Alaska Native women however the great 
majority of stories remain untold. Violence against women is 
characteristically underreported due to fear of retaliation and a lack 
of confidence that reports will be taken seriously. Historical 
relations between Indigenous women and government agencies also affect 
the level of reporting of sexual violence.
    There are more than 550 federally recognized American Indian and 
Alaska Native tribes in the United States. Federally recognized Indian 
tribes are sovereign under U.S. law, with jurisdiction over their 
citizens and land and maintaining government-to-government 
relationships with each other and with the U.S. government. The unique 
legal relationship of the United States to Indian tribes creates a 
federal trust responsibility to assist tribal governments in 
safeguarding the lives of Indian women.
    The welfare and safety of American Indian and Alaska Native women, 
as citizens of sovereign tribal nations, are directly linked to the 
authority and capacity of their nations to address sexual violence. 
However, the federal government has steadily eroded tribal government 
authority and chronically underfunded those law enforcement agencies 
and service providers that should protect Indigenous women from sexual 
violence.
Issues of Jurisdiction
    Amnesty International received numerous reports that complicated 
jurisdictional issues can significantly delay the process of 
investigating and prosecuting crimes of sexual violence. The federal 
government has created a complex maze of tribal, state and federal law 
that has the effect of denying justice to victims of sexual violence 
and allowing perpetrators to evade prosecution.
    Three main factors determine where jurisdictional authority lies: 
whether the victim is a member of a federally recognized Indian tribe 
or not; whether the accused is a member of a federally recognized 
Indian tribe or not; and whether the alleged offence took place on 
tribal land or not. The answers to these questions are often not self-
evident. However, this information determines whether tribal, state or 
federal authorities have jurisdiction to investigate and prosecute the 
crime. Jurisdiction of these different authorities often overlaps, 
resulting in confusion and uncertainty.
    Tribal and federal authorities have concurrent jurisdiction on all 
Standing Rock Reservation lands over crimes where the suspected 
perpetrator is American Indian. In instances in which the suspected 
perpetrator is non-Indian, federal officials have exclusive 
jurisdiction. Neither North nor South Dakota state police have 
jurisdiction over sexual violence against Native American women on the 
Standing Rock Reservation. State police do however have jurisdiction 
over crimes of sexual violence committed on tribal land in instances 
where the victim and the perpetrator are both non-Indian. The 
jurisdictional challenges differ in Alaska and in Oklahoma.
    As recorded by Andrea Smith, University of Michigan, Assistant 
Professor of Native Studies Jodi Rave, ``South Dakota Tribal-City 
Police Department a National Model for Handling Domestic Abuse,'' The 
Missoulian, September 24, 2006: ``[N]on-Native perpetrators often seek 
out a reservation place because they know they can inflict violence 
without much happening to them.''
    Amnesty International is concerned that jurisdictional issues not 
only cause confusion and uncertainty for survivors of sexual violence, 
but also result in uneven and inconsistent access to justice and 
accountability. This leaves victims without legal protection or redress 
and allows impunity for the perpetrators, especially non-Indian 
offenders who commit crimes on tribal land.
    According to a state prosecutor in South Dakota, the confusing and 
complicated jurisdiction over crime on and around reservations in South 
Dakota, means that some crimes just ``fall through the cracks.'' 
Amnesty International also received reports that perpetrators seek to 
evade law enforcement by fleeing to another jurisdiction.
    Flights by criminal occur in both directions--away from and to 
tribal land. Walworth County Sheriff Duane Mohr stated the problem with 
this as follows in the Rapid City Journal, 21 December 2005: ``It's 
only about a mile from town to the bridge. Once they cross the bridge 
[to the Standing Rock Reservation], there's not much we can do...We've 
had people actually stop after they've crossed and laugh at us. We 
couldn't do anything.''
    Some tribal, state and federal law enforcement agencies address the 
jurisdictional complexities by entering into cooperation agreements. 
These may take the form of cross-deputization agreements, which allow 
law enforcement officials to respond to crimes that would otherwise be 
outside their jurisdiction. A second form of agreement addresses 
extradition in situations in which a perpetrator seeks to escape 
prosecution by fleeing to another jurisdiction. Across the US, 
experiences of such inter-agency cooperation agreements vary greatly. 
Where they are entered into on the basis of mutual respect, cooperation 
agreements can have the potential to smooth jurisdictional 
uncertainties and allow improved access to justice for victims of 
sexual violence.
    In Standing Rock, the SRPD and some state agencies have explored 
cooperation through cross-deputization agreements that empower SRPD 
officers to arrest and detain individuals for crimes committed on state 
land and enable state police officers to arrest individuals for crimes 
committed by Native Americans on tribal land.
Problems of Policing
    Amnesty International found that police response to sexual violence 
against American Indian and Alaska Native women at all levels is 
inadequate. Although jurisdictional issues present some of the biggest 
problems in law enforcement response, other factors also have a 
significant impact including lack of resources and lack of 
communication with survivors.
Lack of Resources: Delays and failure to respond
    Law enforcement in Indian Country and Alaska Native villages is 
chronically underfunded. The U.S. Departments of Justice and Interior 
have both confirmed that there is inadequate law enforcement in Indian 
Country and identified underfunding as a central cause. According to 
the U.S. Department of Justice, tribes only have between 55 and 75 
percent of the law enforcement resources available to comparable non-
Native rural communities. AI also found that a very small number of 
officers usually cover large territories and face difficult decisions 
about how to prioritize their initial responses.
    The Standing Rock Police Department in February 2006 consisted of 
six or seven patrol officers to patrol 2.3 million acres of land, with 
only two officers usually on duty during the day. Amnesty International 
documented lengthy delays in responding to reports of sexual violence 
against Indigenous women. Women on the reservation who report sexual 
violence often have to wait for hours or even days before receiving a 
response from the police department, if they receive a response at all.
        It feels as though the reservation has become lawless' 
        Roundtable interview, Standing Rock Reservation (name withheld) 
        February 22, 2006
    Sometimes suspects are not arrested for weeks or months after an 
arrest warrant has been issued. Amnesty International was told that on 
the Standing Rock Reservation there are on average 600-700 outstanding 
tribal court warrants for arrest of individuals charged with criminal 
offences. Failure to apprehend suspects in cases of sexual violence can 
put survivors at risk, especially where the alleged perpetrator is an 
acquaintance or intimate partner and there is a threat of retaliation.
    The Standing Rock Police Department was selected, together with the 
law enforcement departments of 24 additional tribal nations, to receive 
an annual base increase in federal funding of law enforcement services. 
The SRPD began receiving an additional US$250,000 per year starting in 
2006. However, according to the Chief of Police the funds will be 
needed primarily to fill vacancies in the existing police force, rather 
than increasing the number of law enforcement officers on the 
reservation.
    Amnesty International found that FBI involvement in investigations 
of reports of sexual violence against Indigenous women is rare and even 
in those cases that are pursued by the FBI, there can be lengthy delays 
before investigations start.
    Amnesty International's research also revealed a worrying lack of 
communication by all levels of law enforcement with survivors. In a 
number of cases, survivors were not informed about the status of 
investigations, the results of sexual assault forensic examinations, 
the arrest or failure to arrest the suspect, or the status of the case 
before tribal, federal or state courts.
        The mother of a survivor of sexual violence from the Standing 
        Rock Reservation told Amnesty International how she returned 
        home in September 2005 to find her 16-year-old daughter lying 
        half-naked and unconscious on the floor. She took her daughter 
        to the hospital in Mobridge, South Dakota, where a sexual 
        assault forensic examination was performed. She described how 
        the suspected perpetrator, fled to Rapid City, South Dakota, 
        which is outside the jurisdiction of the SRPD. He returned to 
        the Reservation in early 2006 and was held by police for 10 
        days, although both mother and daughter only discovered this 
        when they rang the SRPD to ask about the status of the case. 
        They found out that the suspect was to go before a tribal 
        court, but the mother told Amnesty International that to get 
        this information, she had to go to Fort Yates and ask them in 
        person. She told Amnesty International that she hoped that the 
        case would be referred to the federal authorities because this 
        would mean a lengthier sentence for the perpetrator. She said 
        that, months after the attack, a Federal Bureau of 
        Investigation (FBI) officer and a BIA Special Investigator 
        arrived unannounced. As the daughter was not home at the time, 
        the mother told them where to find her. However, she never 
        heard from them again. Federal prosecutors did eventually pick 
        up the case and in December 2006 the perpetrator entered into a 
        plea bargain and was awaiting sentencing at the time this 
        report was written. Interview with mother of survivor (name 
        withheld)
Training
    Amnesty International is concerned that federal, state and tribal 
training programs for law enforcement officials may not include 
adequate or sufficiently in-depth components on responding to rape and 
other forms of sexual violence, on issues surrounding jurisdiction and 
on knowledge of cultural norms and practices. As a result officers 
often do not respond effectively and are not equipped with the 
necessary skills to deal with crimes of sexual violence.
    Amnesty International received reports that small law enforcement 
agencies with few resources have considerable difficulty freeing up 
officers to attend training courses. An officer in the SRPD reported 
that training on interviewing survivors of sexual violence is not 
available unless it is hosted or paid for by another organization. He 
noted that, given the limited number of officers on the force, the SRPD 
cannot provide them all with training opportunities.
Inadequate Forensic Examinations and Related Health Services
    An important part of any police investigation of sexual violence 
involves the collection of forensic evidence. Such evidence can be 
crucial for a successful prosecution. The evidence is gathered through 
a sexual violence forensic examination, sometimes using tools known as 
a ``rape kit''. The examination is performed by a health professional 
and involves the collection of physical evidence from a victim of 
sexual violence and an examination of any injuries that may have been 
sustained. Samples collected in the evidence kit include vaginal, anal 
and oral swabs, finger-nail clippings, clothing and hair. All victims 
of sexual violence should be offered a forensic examination, regardless 
of whether or not they have decided to report the case to the police. 
In its National Protocol for Sexual Assault Medical Forensic 
Examinations, the U.S. Department of Justice recommends that victims 
should be allowed to undergo the examination whether or not they 
formally report the crime.
Law enforcement officials
    As the first to respond to reports of a crime, law enforcement 
officials should ensure that women can get to a hospital or clinic 
where their injuries can be assessed and the forensic examination can 
be done. This is particularly important where women have to travel long 
distances to access a medical facility and may not have any way of 
getting there themselves, including in Standing Rock. Once a sexual 
assault forensic examination has been completed, law enforcement 
authorities are responsible for storing the evidence gathered and 
having it processed and analyzed by laboratories.
    In some cases, law enforcement have mishandled evidence from 
forensic examinations from health care providers, including through 
improper storage and loss or destruction of evidence before forensic 
analysis had been carried out.
    Amnesty International found that the provision of sexual assault 
forensic examinations and related health services to American Indian 
and Alaska Native women varies considerably from place to place. 
Survivors of sexual violence are not guaranteed access to adequate and 
timely sexual assault forensic examinations--critical evidence in a 
prosecution. Often this is the result of the U.S. government's severe 
under-funding of the Indian Health Service (IHS), the principal 
provider of health services for American Indian and Alaska Native 
peoples.
Health Service Providers
    It is essential that health service facilities have the staff, 
resources and expertise to ensure the accurate, sensitive and 
confidential collection of evidence in cases of sexual violence and for 
the secure storage of this evidence until it is handed over to law 
enforcement officials.
    The IHS facilities suffer from under-staffing, a high turnover, and 
a lack of personnel trained to provide emergency services to survivors 
of sexual violence. Amnesty International found that the IHS has not 
prioritized the implementation of programs involving sexual assault 
nurse examiners (SANEs)--registered nurses with advanced education and 
clinical preparation in forensic examination of victims of sexual 
violence ``throughout its facilities. Although there are no figures on 
how many IHS hospitals have SANE programs, officials indicated to AI 
that fewer than 10 had implemented such programs. Moreover, according 
to a study performed by the Native American Women's Health Education 
Resource Center, 44 per cent of IHS facilities lack personnel trained 
to provide emergency services in the event of sexual violence.
    Reports to Amnesty International indicate that many IHS facilities 
lack clear protocols for treating victims of sexual violence and do not 
consistently provide survivors with a forensic sexual assault 
examination. IHS officials told Amnesty International that the agency 
had posted detailed protocols online. However, these protocols are not 
mandatory and a 2005 survey of facilities by the Native American 
Women's Health Education Resource Center found that 30 per cent of 
responding facilities did not have a protocol in place for emergency 
services in cases of sexual violence. Of the facilities nationwide that 
reported having a protocol, 56 per cent indicated that the protocol was 
posted and accessible to staff members.
    Amnesty International is also concerned that survivors have 
sometimes been required to bear the cost of an examination or of 
travelling long distances to health facilities. Women who have been 
raped on the Standing Rock Reservation may need to travel for over an 
hour to get to the IHS hospital in Fort Yates. Once there, they may 
discover that there is no one on staff who is able to conduct a sexual 
assault forensic examination. In 2006 the hospital employed one woman 
doctor who undertook most of the examinations. According to a Fort 
Yates IHS health professional, ``most male doctors don't feel trained 
and don't want to go to court. So they will send rape cases to Bismarck 
for examination there.'' According to the practitioner, only one third 
of the women referred from Fort Yates on Standing Rock to the medical 
facility 80 miles away in Bismarck actually receive an examination. 
Some women do not make the journey to Bismarck and those that do may 
face lengthy delays and leave without an examination.
    Although IHS services are free, if an American Indian woman has to 
go to a non-IHS hospital for an examination, she may be charged by that 
facility. The IHS has a reimbursement policy, but it is complex and 
survivors may not be aware of it. In some cases the IHS has reportedly 
failed or refused to pay for forensic examinations at outside 
facilities. This can be a significant obstacle. Survivors of sexual 
violence in the southern portion of the Standing Rock Reservation are 
much closer to Mobridge Regional Hospital than Fort Yates, but because 
the former is not part of the IHS it may require payment. For women 
dealing with the trauma of very recent sexual violence, concerns about 
being required to travel further or to pay can be a serious 
disincentive to undergoing a forensic examination.
Barriers to Prosecution
        A Native American woman in 2003 accepted a ride home from two 
        white men who raped and beat her, then threw her off of a 
        bridge. She sustained serious injuries, but survived. The case 
        went to trial in a state court but the jurors were unable to 
        agree on whether the suspects were guilty. A juror who was 
        asked why replied: ``She was just another drunk Indian.'' The 
        case was retried and resulted in a 60-year sentence for the 
        primary perpetrator, who had reportedly previously raped at 
        least four other women, and a 10-year sentence for the second 
        perpetrator.
    Despite the high levels of sexual violence, Amnesty International 
found that prosecutions for crimes of sexual violence against 
Indigenous women are rare in federal, state and tribal courts, 
resulting in impunity for perpetrators. The lack of comprehensive and 
centralized data collection by tribal, state and federal agencies 
renders it impossible to obtain accurate information about prosecution 
rates. However, survivors of sexual abuse, activists, support workers 
and officials reported that prosecutions for sexual assault are rare in 
federal, state and tribal courts.
    Tribal courts are the most appropriate for adjudicating cases that 
arise on tribal land. However, the U.S. federal government has 
interfered with the ability of tribal justice systems to respond to 
crimes of sexual violence by underfunding tribal justice systems, 
prohibiting tribal courts from prosecuting non-Indian or non-Alaska 
Native suspects and limiting tribal court custodial sentencing to only 
one year per offense.
    Given the inadequate rate of federal and state prosecutions of 
sexual assault cases, some tribal courts prosecute sexual assault cases 
despite this sentencing limitation to hold offenders accountable. Some 
tribal prosecuting authorities charge suspected perpetrators with 
multiple offenses, which provides the possibility of imposing 
consecutive sentences; others work with criminal sanctions other than 
imprisonment, including restitution, community service and probation.
    At the federal level, crimes on the Standing Rock Reservation may 
be prosecuted by U.S. Attorneys located in Aberdeen or Bismarck. 
However, Amnesty International's research suggests that there is a 
failure at the federal level to pursue cases of sexual violence against 
Indigenous women. Prosecutors have broad discretion in deciding which 
cases to prosecute, and decisions not to prosecute are rarely reviewed.
    From 1 October 2002 to 30 September 2003, federal prosecutors 
declined to prosecute 60.3 per cent of the sexual violence cases filed 
in the United States. Only 27 of the 475 cases they declined were 
prosecuted in other courts. Because data on sexual violence 
specifically from Indian Country is not compiled, this statistic 
includes all cases involving Indigenous and non-Native victims. 
However, these numbers provide some indication of the extent to which 
these crimes go unpunished. Significantly, between 2000 and 2003, the 
BIA was consistently among the investigating agencies with the highest 
percentage of cases declined by federal prosecutors. It is not possible 
to establish how many of these cases submitted by the BIA involved 
sexual violence. The U.S. Justice Department does not publish 
statistics on the extent to which it prosecutes crimes of rape against 
Indian women so it is impossible to know the true extent to which it is 
failing to prosecute these serious crimes.
    One of the research challenges faced by Amnesty International was 
in relation to gathering data related to federal prosecution rates of 
crimes of sexual violence that take place in Indian Country. Amnesty 
International sent questionnaires to the 93 individual U.S. Attorneys, 
who prosecute crimes within Indian Country at the federal level, 
seeking information on prosecution rates for crimes of sexual violence 
committed against Indigenous women. Amnesty International was informed 
by the Executive Office of U.S. Attorneys that individual U.S. 
attorneys would not be permitted to participate in the survey. The 
Executive Office of U.S. Attorneys told Amnesty International that data 
collected is not broken down into specific offense categories, such as 
sexual assault crimes. The Executive Office for U.S. Attorneys did 
provide Amnesty International with a list of some of the cases of 
sexual violence arising in Indian Country that had been prosecuted in 
recent years. Of the 84 cases provided, only 20 involved adult women. 
The remaining cases mostly involved children. In the cases listed, 
prosecutions for sexual violence against adult Native American women 
took place in only eight of the 93 districts. Given the lack of 
comprehensive data, Amnesty International was unable to establish the 
extent to which crimes of sexual violence against Indigenous women are 
prosecuted by federal authorities.
    At the state level, sexual violence crimes carried out in areas 
bordering the Standing Rock Reservation may be prosecuted by state's 
attorneys in neighboring counties in North or South Dakota. Many Native 
Americans from Standing Rock indicated that cases in general involving 
Native American victims and non-Native perpetrators are not prosecuted 
vigorously by state courts in North and South Dakota. A District 
Attorney in a bordering county told Amnesty International that, in 
South Dakota, insufficient funds can affect the number of cases 
prosecuted. It would also appear that state attorneys receive little or 
no training on prosecuting sexual violence and on cultural competency.
    Indigenous survivors of sexual violence also face prejudice and 
discrimination at all stages and levels of federal and state 
investigation and prosecution. Amnesty International is concerned that 
this can influence decisions about whether to prosecute cases, how 
prosecutors present survivors during trials, how juries are selected 
and how they formulate their decisions.
    Amnesty International received a number of reports that prosecutors 
at all levels fail to provide information consistently to victims of 
sexual violence about the progress of their cases. Survivors are 
frequently not informed of whether their cases will proceed to trial.
Inadequate Resources for Indigenous Support Initiatives
    Programs run by Native American and Alaska Native women are vital 
in ensuring the protection and long-term support of Indigenous women 
who have experienced sexual violence. However, lack of funding is a 
widespread problem. Programs run by Indigenous women often operate with 
a mix of federal, state, and tribal funds, as well as private 
donations. However such funding in often limited.
    In 2005, the non-governmental organization South Dakota Coalition 
against Domestic Violence and Sexual Assault contributed to the 
founding of Pretty Bird Woman House, a domestic violence program on the 
Standing Rock Reservation. The program, which is named after Ivy 
Archambault (Pretty Bird Woman), a Standing Rock woman who was raped 
and murdered in 2001, operates a shelter in a temporary location and 
does not yet have funding for direct services for its clients, but 
helps women to access services off the Reservation. Given the rates of 
violence against women on the Standing Rock Reservation, it is 
imperative that the Reservation have its own permanent shelter.
    For women in or near the southern part of the Reservation, there 
are two shelters available: the Sacred Heart Shelter on the Cheyenne 
River Reservation, or Bridges Against Domestic Violence (BADV), which 
is located in Mobridge, South Dakota and where up to 85 per cent of 
women using the shelters are Native American, mainly coming from the 
Standing Rock Reservation. In March 2005, BADV held a conference 
entitled ``Decide to End Sexual Violence.'' There were reports that 
following the conference women on the Reservation showed increased 
confidence in reporting. Amnesty International believes that public 
outreach and education such as that undertaken by BADV is an important 
element in creating an environment in which survivors feel able to 
report sexual violence.
    The federal government should provide funds immediately for the 
Standing Rock Tribe to support its shelter for survivors of sexual 
violence on the reservation. The government should ensure that there is 
additional funding to support the increased capacity of shelters 
throughout North and South Dakota that provide services to Indian 
women.
    An important achievement in the provision of culturally appropriate 
support services to Native American and Alaska Native women has been 
the formation of 16 tribal coalitions working against domestic and 
sexual violence across the US. The specific activities of the 
coalitions vary, but often include the provision of training to tribal 
governments, law enforcement officials, prosecutors, health 
professionals, support workers and activists. At national level, 
organizations such as Sacred Circle and Clan Star provide national 
leadership and policy guidance for Native women's organizations and 
shelters.
International Law
    Sexual violence against women is not only a criminal or social 
issue; it is a human rights abuse. While the perpetrator is ultimately 
responsible for his crime, authorities also bear a legal responsibility 
to ensure protection of the rights and well-being of American Indian 
and Alaska Native peoples. They are responsible as well if they fail to 
prevent, investigate and address the crime appropriately.
    The United States has ratified many of the key international human 
rights treaties that guarantee Indigenous women's protection against 
such abuses, including the right not to be tortured or ill-treated; the 
right to liberty and security of the person; and the right to the 
highest attainable standard of physical and mental health. All women 
have the right to be safe and free from violence.
    International law is clear: governments are obliged not only to 
ensure that their own officials comply with human rights standards, but 
also to adopt effective measures to guard against acts by private 
individuals that result in human rights abuses. This duty--often termed 
``due diligence''--means that states must take reasonable steps to 
prevent human rights violations and, when they occur, use the means at 
their disposal to carry out effective investigations, identify and 
bring to justice those responsible, and ensure that the victim receives 
adequate reparation. Amnesty International's research shows that the 
United States is currently failing to act with due diligence to 
prevent, investigate and punish sexual violence against Native American 
and Alaska Native women. The erosion of tribal governmental authority 
and resources to protect Indigenous women from crimes of sexual 
violence is inconsistent with international standards on the rights of 
Indigenous peoples.
    The UN Declaration on the Rights of Indigenous Peoples, adopted by 
the UN Human Rights Council in June 2006, elaborates minimum standards 
for the recognition and protection of the rights of Indigenous peoples 
in diverse contexts around the world. Provisions of the Declaration 
include that Indigenous peoples have the right of self-determination. 
By virtue of that right they freely determine their political status 
and freely pursue their economic, social and cultural development 
(Article 3); that States shall take measures, in conjunction with 
indigenous peoples, to ensure that indigenous women...enjoy the full 
protection and guarantees against all forms of violence and 
discrimination. (Article 22(2)); and the right of Indigenous peoples 
``to promote, develop and maintain their institutional structures and 
their distinctive customs, spirituality, traditions, procedures, 
practices and, where they exist, juridical systems or customs, in 
accordance with international human rights standards'' (Article 34).
Key Recommendations
Provide Additional Resources for Standing Rock Initiatives
    <bullet>  The federal government should provide funds immediately 
for the Standing Rock Tribe to support its shelter for survivors of 
sexual violence on the Reservation.
    <bullet>  The federal government should ensure that there is 
additional funding to support the increased capacity of shelters 
throughout North and South Dakota that provide services to Indian 
women.
    <bullet>  The federal government should allocate long term and 
sustained funds to the Standing Rock Police Department, including funds 
to increase staffing.
    <bullet>  Law enforcement response to women who are survivors of 
sexual violence must be improved urgently (see below).
    Develop comprehensive plans of action to stop violence against 
Indigenous women
    <bullet>  Federal and state governments should consult and co-
operate with Indigenous nations and Indigenous women to institute plans 
of action to stop violence against Indigenous women.
    <bullet>  Federal, state and tribal authorities should, in 
consultation with Indigenous peoples, collect and publish detailed and 
comprehensive data on rape and other sexual violence that shows the 
Indigenous or other status of victims and perpetrators and the 
localities where such offences take place, the number of cases referred 
for prosecution, the number declined by prosecutors and the reasons 
why.
Ensure Appropriate, Effective Policing
    <bullet>  Federal authorities must take urgent steps to make 
available adequate resources to police forces in Indian and Alaska 
Native villages. Particular attention should be paid to improving 
coverage in rural areas with poor transport and communications 
infrastructure.
    <bullet>  Law enforcement agencies should recognize in policy and 
practice that all police officers have the authority to take action in 
response to reports of sexual violence, including rape, within their 
jurisdiction and to apprehend the alleged perpetrators in order to 
transfer them to the appropriate authorities for investigation and 
prosecution. In particular, where sexual violence in committed in 
Indian Country and in Alaska Native villages, tribal law enforcement 
officials must be recognized as having authority to apprehend both 
Native and non-Native suspects.
    <bullet>  In order to fulfill their responsibilities effectively, 
all police forces should work closely with Indigenous women's 
organizations to develop and implement appropriate investigation 
protocols for dealing with cases of sexual violence.
Ensure Access to Sexual Assault Forensic Examinations
    <bullet>  Law enforcement agencies and health service providers 
should ensure that all Indigenous women survivors of sexual violence 
have access to adequate and timely sexual assault forensic examinations 
without charge to the survivor and at a facility within a reasonable 
distance.
    <bullet>  The federal government should permanently increase 
funding for the Indian Health Service to improve and further develop 
facilities and services, and increase permanent staffing in both urban 
and rural areas in order ensure adequate levels of medical attention.
    <bullet>  The Indian Health Service and other health service 
providers should develop standardized policies and protocols, which are 
made publicly available and posted within health facilities in view of 
the public, on responding to reports of sexual violence.
    <bullet>  The Indian Health Service and other health service 
providers should prioritize the creation of sexual assault nurse 
examiner programs and explore other ways of addressing the shortage and 
retention of qualified Sexual Assault Nurse Examiners.
Ensure that prosecution and judicial practices deliver justice
    <bullet>  Prosecutors should vigorously prosecute cases of sexual 
violence against Indigenous women and should be sufficiently resourced 
to ensure that the cases are treated with the appropriate priority and 
processes without undue delay. Any decision not to proceed with a case, 
together with the rationale for the decision, should be promptly 
communicated to the survivor of sexual violence and any other 
prosecutor with jurisdiction.
    <bullet>  U.S. Congress should recognize that tribal authorities 
have jurisdiction over all offenders who commit crimes on tribal land, 
regardless of their Indigenous or other identity and the authority to 
impose sentences commensurate with the crime that are consistent with 
international human rights standards.
    <bullet>  Federal authorities should make available the necessary 
funding and resources to tribal governments to develop and maintain 
tribal courts and legal systems which comply with international human 
rights standards.
Ensure Availability of Support Services for Survivors
    <bullet>  All governments should support and ensure adequate 
funding for support services, including shelters, for American Indian 
and Alaska Native survivors of sexual violence.<bullet>  Urge the U.S. 
Congress to Provide Adequate Funding
    Amnesty International is currently asking Congress to undertake the 
following important steps:
    <bullet>  Fully fund and implement the Violence Against Women Act--
and in particular Tribal Title (Title IX), the first-ever effort within 
VAWA to fight violence against Native American and Alaska Native women. 
This includes a national baseline study on sexual violence against 
Native women, a study on the incidence of injury from sexual violence 
against Native women and a Tribal Registry to track sex offenders and 
orders of protection.
    <bullet>  Increase funding for the Indian Health Service (IHS) and 
IHS contract facilities. Such monies should be used to increase the 
number of Sexual Assault Nurse Examiners so that survivors may receive 
timely forensic medical examinations, at no charge, following sexual 
assault. Furthermore, the IHS should ensure that appropriate protocols 
are in place for the treatment of survivors of sexual violence.
    We respectfully refer you to ``Maze of Injustice: The failure to 
protect Indigenous women from sexual violence in the USA'' for more 
detailed information and recommendations. Thank you for the opportunity 
to testify on this important human rights topic.
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you very much, again, for being 
here and for your report and your testimony. We'll look forward 
to posing some questions.
    Ms. Little Shield, you're now recognized. We'll hear your 
testimony.

 STATEMENT OF MS. GEORGIA LITTLE SHIELD, DIRECTOR, PRETTY BIRD 
             WOMAN HOUSE, McLAUGHLIN, SOUTH DAKOTA

    Ms. Little Shield. Thank you, Madam Chair. First of all, I 
want to go on record that I wish you would listen to Standing 
Rock officials that are standing here today because they have a 
major part of the lack that they deal with every day at tribal 
council so----
    Ms. Herseth Sandlin. If I might just interrupt at this 
point. I need to make clear for the record that this is a 
different hearing than like some of the meetings that I've had 
that were open, we're able to hear from anyone who would like 
to participate.
    Again, we're going to make time available at the end of 
this panel and I would appreciate everyone's understanding that 
we did our very best to accommodate everyone and that we will 
be listening, not just at today's hearing, but in the outreach 
that we do and the meetings that we have both here and at home 
and out in Washington and appreciate your desire for us to 
accommodate other elected officials that are here.
    Ms. Little Shield. OK. I'll start, and thank you.
    My name is Georgia Little Shield. I am the director for the 
Pretty Bird Woman House Shelter which is located on the 
Standing Rock Reservation. I would like to say thank you for 
letting me be here.
    (Reading from statement.)
    If you read my report, you will see some of the situations. 
These stories are true and there are more of them that could be 
mentioned. If I mentioned all the stories we had, we'd be here 
for hours.
    And you can--when Amnesty came, we talked to 61 women in 
one week that were sexually assaulted. When a Lakota woman runs 
18 miles to town for help and feels safe in a jail that is--
that is a city jail, you know there's something wrong. The city 
police have no jurisdiction over Native women or men so their 
hands are tied. When you hear a city police officer say, 
``Georgia, I just could not do anything,'' it's hard.
    We have to think of the children that is also affected. 
Them as they see what happens in the home and no one comes to 
help them, where do they turn? Please, if we get anything from 
this at all today, please think of the children that this is 
affecting.
    I want to share: We have become a lawless nation and now 
the people are taking the laws into their own hands. When this 
occurs, we have more rapes, more domestic violence, more 
inviting violence or gang violence.
    Thank you.
    There's one more thing. Sorry.
    Ms. Herseth Sandlin. Yes.
    Ms. Little Shield. I'd like to leave you with this: Glynnis 
Okla, Leslie Iron Road, Candy Bullhead, Gloria Reeds, Lakota 
Madison, Candy Rough Surface, Diane Dog Skin, Leona Big Shield, 
Ivy Arshambeau, Debbie Dog Eagle, Camilla Brown, Cheryl Tail 
Feather. Then there's Vicki Eagle Man and Lanelle Falles from 
Lower Brule. These women lost their lives to violence.
    [The prepared statement of Ms. Little Shield follows:]

             Statement of Georgia Little Shield, Director, 
           Pretty Bird Woman House, Standing Rock Reservation

    My name is Georgia Little Shield. I am the Director for the Pretty 
Bird Woman House Shelter, which is located on the Standing Rock 
Reservation. I have been employed at the shelter since November of 
2004, opening the office of the shelter in January of 2005.
    We have had many challenges with police officers since that time. I 
would like to share a few stories of what has occurred on our 
reservation. The second month that I worked, I received a call from a 
women living 18 miles out of McLaughlin SD. She was severely beaten and 
did not want to go to the hospital, but did want to make a complaint. 
We called the Police Department that morning and were told that when an 
officer becomes available he would be headed to our residence. We 
waited two (2) hours, when the officer didn't show, I called again and 
was told there was another traffic accident and when he was free he 
would be on his way. I stayed with the woman, talking to her and 
assuring her that the officers would be there at any time. We waited 
another two (2) hours, called again and the dispatch stated that there 
was only one officer on and that he would get to us when he is free. At 
6:00 PM the women said it was useless to wait because they would not 
come. This women ended up not wanting to make a complaint, was very 
scared, but told me to go home and leave her since there would be 
nothing done any way. I called that woman the next morning and asked 
her if the police ever came to see her and she stated ``No''.
    Now do you think that she will call again if this happened to her 
again? This is what happens when you supply only one officer to a shift 
that has to cover 2.3 million acres.
    I have since set up trainings for the police officers through South 
Dakota Coalition Against Domestic Violence And Sexual Assault. I talked 
to the Chief of Police, Lieutenant White, and he stated he would have 
officers at these training but no BIA officers attended. When I called 
back to see why officers were not there, I was told that due to a 
shortage of officers, they were not able to send any. Thus, because 
there is a dire shortage of officers on Standing Rock Reservation they 
are not receiving the proper training regarding domestic violence and 
sexual assault.
    Another domestic violence call I received one night came from the 
City Police located in McLaughlin, SD. The officer stated there was a 
woman in his Police Department that he thought I could help. After 
talking to the young woman, I assured her that I could get her to a 
shelter where she could feel safe.
    When I reached the Police Department, the Officer on duty said he 
just was not able to pick the guy up as he did not have jurisdiction 
because he was Native American (does this mean the officer quoted the 
law wrong or he meant that it occurred on tribal land?) and so was the 
woman. The officer had called the police in FT. Yates, so they were 
aware of the situation. She had signed a complaint and the officer did 
take pictures.
    I asked the officer what this man was driving and was told he was 
driving a gray and black Suburban. When I came down Main Street, I saw 
a gray and black suburban driving around. This man chased this woman 18 
miles to town, her car into the ditch several times. But no BIA Police 
Officer ever showed up. This man could have killed her and no one would 
have ever known she was out there in the ditch. I took her to a shelter 
off the reservation so she could feel safe. She left her car at the 
police station and got in with me and the officer escorted us out of 
town and that poor woman lay on the floor because she was so scared 
until we were 60 miles out of town. I picked her up the next day to get 
her car and we talked to the City Police who told us the BIA still had 
not stopped to get the complaint she filed.
    It is important to note that when I first got the call from the 
City Police Officer, he stated he had a woman who wanted to be put in 
jail for the night, but he thought I could help her more. When any 
woman thinks the safest place for her is in jail, something has to be 
wrong!! For a Native woman to feel the need to seek safety outside her 
homeland is equally unacceptable.
    One year ago I attended a meeting at the Bridges Against Domestic 
Violence Shelter in Mobridge and asked how we could help them with a 
situation involving 5 rapes occurring in one weekend. One woman had 
been brought in by a passer-by from the Standing Rock Reservation and 
she was taken to the Mobridge City Police Station. The Chief of Police 
called Standing Rock and they came, however, the officer conducting the 
interview took 5 hours to get there and had an attitude with the Chief 
of Police in Mobridge. Chief Niles stated to us that he knew nothing 
was going to be done about it, because of statements the BIA officer 
made to him. Jurisdiction was on the Standing Rock Reservation so that 
is who had to pursue it. (Shouldn't this have been turned over to the 
FBI?)
    This is a classic example of why woman don't report rapes--
insensitive and ineffective responses.
    Another similar incident to the one above involves Advocate from 
Bridges Against Domestic Violence contacting the Ft. Yates Police 
Department for two days and repeatedly being told someone would be 
there to take statements. No one ever did show up. Do you think this 
woman got justice? Another time a woman was severely beaten and taken 
to IHS who notified the Police Department in FT. Yates. The advocate at 
BADV made many calls in regard to this case and did not receive any 
follow up for 4 weeks. The person who assaulted her was not arrest. 
What about her? Did she get justice? The issue is not just about 
numbers of officers. It must be about prioritizing safety and 
accountability through out the entire response.
    Another situation that exemplifies the issues women face occurred a 
month ago. We had helped a young woman who's batterer's level of 
violence was well-known throughout the community. The next day early in 
the morning I received a call from an advocate who stated that the 
phone was not working at the shelter--the phone company said the phone 
line out side had been cut. This is especially dangerous in a rural 
area. We called the police as soon as we had service and waited. Then 
two hours later we called again and stated we needed to make a 
complaint for the record. We waited no officer came to this date!! When 
the Women's Shelter is not a priority then there is something wrong.
    As of May 25, 2007, I was informed that we are down to 4 police 
officers on the Standing Rock Reservation. Because of the lack of 
officers and under-sourcing throughout the criminal justice system and 
community-based advocacy programs, every day is a dangerous day for 
women living on the Standing Rock Reservation.
    We need to look at the lack of Advocates to provide safety and 
support to the women who call for help, in addition to basic resources 
such as transportation and housing. Until a few months ago, there were 
only two of advocates for the entire Standing Reservation and 
surrounding area. Now there are three. More are needed as is general 
operating and emergency funds.
    There is a need for Advocates to work on the northern half of 
Standing Rock Reservation. It is our hope that we can have an Outreach 
Office in or near Fort Yates in the future. We need Advocates available 
to transport and accompany women to Court Hearings, to assist women 
through the process of obtaining Protection Orders and other legal 
advocacy. We need Advocates to accompany women to medical facilities 
for examinations and ongoing treatment after an attack, to work through 
social service/TANF, mental health needs etc. We need Advocates to 
respond to the crisis line 24/7. We need Advocates to work with the 
children who have witnessed violence, provide ongoing support to women 
who have been battered and raped, to provide emergency monies, 
clothing, food, and housing. We need Advocates to provide community and 
agency education, leadership in a coordinated community response and to 
create the social change necessary to end violence against women.
    The South Dakota Coalition Against Domestic Violence and Sexual 
Assault, and Sacred Circle, National Resource Center to End Violence 
Against Native Women provide training and technical assistance. The 
problem is finding the funding to be able to provide the kind of 
services and resources needed.
    Currently, as advocates for Pretty Bird Woman's House we do our 
best to cover all of Standing Rock and offer the services needed or 
help to search out resources for the women. We work 24/7 because of our 
commitment to saving the lives of the women and their children in our 
community. We do the best we can to do whatever, wherever when we are 
need. We need the resources and support as great as our commitment.
    One other recommendation that I would like to state is a great need 
is to make sure to match the Police force to the Land Base as there is 
a extreme amount of land 2.3 acres through out Standing Rock Nation.
    But also keep in mind to match the population to the people to the 
police officers. When advocates are in the field I fear for there 
safety as there are no police services to help serve protection orders 
or to make complaints or just to feel safe.
    Finally I would like to say these stories are just the tip of the 
iceberg. I have so many stories it would fill so many pages. The women 
of Native Lands are depending on you for changes.
    In the past 13 years that I have worked in the field of domestic 
violence I have witnessed many, many situations that you could not 
imagine seeing in your life time. I have worked here on the Standing 
Rock Reservation for three (3) years but have worked on the Cheyenne 
River Reservation for 10 years; the same situations were faced on that 
reservation as are being faced here on the Standing Rock Reservation. 
When I did work on Cheyenne River we had many advocates. Three (3) from 
the Family Violence grant four (4) from the Rural Domestic and Sexual 
Violence and Child victimization grant. Since President Bush has been 
president we have had one budget cut after another and have since lost 
all seven advocates in Cheyenne River. What I am trying to state is 
that the shortage of police is just not on Standing Rock. The 
difference is that BIA police Standing Rock and Tribal Officers police 
Cheyenne River. We are all suffering from the lack of police on both 
reservations.
    We have become a Lawless Nation and people have starting to make 
there own laws. With this attitude we will have more deaths and people 
taking the situations in to there own hands. The people have started 
using violence to fight violence.
    With a heavy heart I bring these things to the hearing with hopes 
that there is something down to fix the situation. Please think of the 
Women and Children when you talk of these issues.
                                 ______
                                 
    [A statement submitted for the record by Georgia Little 
Shield on behalf of Brenda Hill follows:]

   Statement of Brenda Hill, Native Co-Chair, South Dakota Coalition 
   Against Domestic Violence And Sexual Assault, Pierre, South Dakota

    As the Native Co-Chair, I would like to take this opportunity to 
thank the Committee on behalf of the South Dakota Coalition Against 
Domestic Violence and Sexual Assault (SDCADVSA) for considering the 
voice of our membership in the matters at hand.
    For your information, the SDCADVSA was incorporated in September of 
1978 to eliminate violence against women in the State of South Dakota 
and tribal nations within the borders of the State. The SDCADVSA is an 
alliance of like-minded organizations that share this common purpose 
and mission. Our membership of 21 organizations includes programs from 
all tribal nations within South Dakota.
    In brief, our global agenda includes provision of support, 
comprehensive resources, training and technical assistance to member 
programs who are responsible for providing direct advocacy and 
resources to individual women who are battered/raped within their own 
communities. SDCADVSA works pro-actively as a collective for social 
change to end violence against women by promoting a societal 
understanding of the root causes of and solutions to domestic and 
sexual violence in a cultural and historical context, promoting public 
acknowledgment of and responsibility for ending violence against women 
and their children. This work includes confronting all forms of 
violence/ oppression, i.e., sexism, racism, classism, heterosexism etc. 
and promoting respectful, non-violent relationships, families and 
communities.
    The horrendous reality of violence against native women has been 
documented by the U.S. Department of Justice, OJP, Bureau of Justice 
Statistics in American Indians and Crime, 1992-96 Report and Violent 
Victimization and Race, 1993-98 Report. The highlights, if you will, 
include:
    <bullet>  Native women are raped at a rate more than double that of 
rapes reported by all races on an annual average.
    <bullet>  The rate of Native American women is nearly 50% higher 
than that reported by black males aged 12 and over.
    <bullet>  American Indian women were victimized by an intimate at 
rates higher than those for all other females (whites at 8.1 per 
1,000;Indians at 23.2 per 1,000)
    <bullet>  At least 70% of violence experienced by Native Americans 
are committed by persons not of the same race
    Further, ``A Quiet Crisis,'' produced by the U.S. Commission on 
Civil Rights states that within Indian Country there is the equivalent 
of three law enforcement officers on duty 24/7 covering a geographic 
area the size of the State of Delaware. This report documents the 
abject poverty and severe under-funding of all resources within Indian 
Country. Poverty alone is a public safety issue that greatly 
intensifies the ability of native women to find and maintain safety 
from their batterers and rapists.
    For example, in South Dakota, at any one time, over 50% of women in 
any shelter are Native. Considering Indians represent less than 10% of 
the state population, this statistic alone is startling. It is directly 
tied to poverty and lack of housing. On the Pine Ridge Reservation 
alone 4,000 housing units are needed. Every shelter within the state 
will attest that insufficient numbers of shelter beds means routinely 
women who are battered and their children are sleeping on couches, 
floors, put in motels and at times, stay in advocate's homes.
    This brief snap shot indicates the need for a comprehensive 
strategy that not only reactively respond to violence against Native 
women, but pro-actively ends the violence. While the Violence Against 
Women Act brought much needed legislation, funding and attention to the 
battering and rape of women, levels of violence against Native women 
have not significantly dropped and there is an estimated 30-40 shelters 
within all of the 550 plus tribal nations. Many tribes have one 
advocate for their entire nation. It is not unusual for an advocate to 
have a ``slashed'' title such as child protection worker/advocate. A 
clear and dangerous conflict of interest.
    How can we develop fully funded and trained tribal police forces 
and criminal justice systems without losing the leadership and 
expertise of advocates? After all, it is the decades of hard work and 
sacrifice by advocates who were primarily women who had been battered 
that brought about advocacy programs, shelters, the Violence Against 
Women Act and the like. It is the advocate who's sole role is to 
provide biased support for minutes or lifetimes to women who are 
victimized, resources and to ensure that issues of safety and 
accountability remain priorities amongst the many systems that impact 
the lives of women who are battered, but that are also responsible for 
many other things.
    While developing coordinated community responses in Indian Country, 
can we ensure culturally-based, woman-centered responses that support 
tribal sovereignty and women's sovereignty thereby creating the social 
change that will end violence against women and their children?
    It is the experience of the SDCADVSA that any effective strategy 
must include a multi-level, coordinated, community and culturally-based 
approach. There is an obvious need for funding of shelters, basic 
operating costs, emergency food, clothing, rent and utility deposits, 
medical facilities able to respond to victims of rape, more and better 
equipped and trained law enforcement, jails and tribal court systems. 
Streamlining and simplification of grant reporting requirements, 
technical assistance in grant management based on an intimate 
understanding of both the dynamics of battering, the challenges posed 
by poverty and geography, and tribal governmental processes would go a 
long way to support a consistent, effective response.
    The SDCADVSA has historically advocated for grassroots, community-
based programs governed by those they serve, i.e., women who are 
battered/raped. The ideal in Indian Country is to model advocacy/
shelter programs in philosophy and operation, after traditional women's 
societies. This type of women's society would do more than open the 
door to women who are battered and their children, and providing 
emergency resources and momentary safety. Native women's societies' are 
autonomous, their expertise respected and actively supported. Their 
``agenda'' includes reclaiming the societal status of women as sacred. 
This agenda is about social change and ending many forms of violence.
    The need is for the federal government to actively support the 
development of community-based programs within Indian Country as 
opposed to programs run by tribal governments. There are a number of 
effective non-profit, native shelters in South Dakota that are 
chartered by, and/or are the tribally designated advocacy program. This 
model supports the reclamation of traditional non-violent life ways and 
help undo belief systems that cause Native women to be targeted more 
than any other group of women in the United States. The Federal 
government does not run shelter and advocacy programs any where within 
the nation.
    The development of culturally- and community-based programs will 
take time in addition to funding and technical support. Expectations 
must stay in line with the reality of the overwhelming challenges and 
barriers faced by Indian Country, and the capacity of Native women to 
gather the safety and support necessary for them to step into 
leadership positions in the face of poverty and such high levels of 
violence.
    This letter is written based on the assumption that specific issues 
involving law enforcement, tribal jurisdiction over non-natives on 
tribal land and full faith and credit will be illuminated by other 
testimony. The SDCADVSA fully supports the full funding of tribal law 
enforcement and criminal justice systems, mandatory training on 
violence against native women and cultural competency training provided 
by native advocacy organizations and/or allies, i.e., SDCADVSA and 
membership and Sacred Circle, National Resource Center to End Violence 
Against Native Women (Rapid City, SD). The SDCADVSA also advocates for 
the enforcement of full faith and credit provisions application to 
tribal orders, the return of jurisdiction over non-natives on tribal 
lands and the inclusion of native advocates in all decision-making that 
impacts the lives of Native women.
    SDCADVSA recognizes that to end violence against Native women 
requires reclaiming the status of women as sacred. Honoring the 
sovereignty of Native women is implicit in this transformation. Tribal 
sovereignty and Native women's sovereignty go hand in hand, and so the 
SDCADVSA supports initiatives that not only respect sovereignty, but 
confronts societal racism and sexism that results in the unnatural 
levels of violence targeting Native women.
    The SDCADVSA remains available to provide whatever technical 
assistance, consultation, training and support needed in our shared 
efforts to end violence against Native women and their children. Please 
contact us should you have questions or would like to access our 
resources.
                                 ______
                                 
    Ms. Herseth Sandlin. Ms. Little Shield, thank you for your 
very compelling statement. Thank you for being here.
    I'd now like to recognize Ms. Cecelia Fire Thunder and her 
testimony.

            STATEMENT OF MS. CECELIA FIRE THUNDER, 
              CANGLESKA, INC., KYLE, SOUTH DAKOTA

    Ms. Fire Thunder. Thank you very much.
    [Speaking Lakota.]
    I greet you with a warm handshake with good feelings from 
my heart for the recorder.
    I'd like to thank the Committee for holding the meeting, to 
Madam Chair. I want to thank Chairman Jandreau for helping out 
with this meeting as well today, and I wanted to recognize and 
have all the women in this room stand up for being on the front 
line of domestic violence. Please stand.
    In this room there are women who have spent over 30 years 
collectively and individually on nine tribes in the State of 
South Dakota with or without resources to address violence 
against women.
    Today we are providing you written testimony in an 
attempt--and I will attempt to encapsulate some of the 
highlights that we've included in our testimony. I've also 
included for you, Congresswoman Herseth, a little book that we 
put out that just came off the printer, so I printed it off my 
printer, and in this I would be remiss if I didn't address the 
VAWA issue, and tribe governments and tribes are asking for a 
change in that VAWA language as you probably already know.
    There are many, many things that we want to talk about 
today but I'm going to talk to you a little bit about some 
recommendations because you're going to read the reports.
    I want to thank the tribal leaders for addressing some of 
the issues. As I sat here and listened, I started to write 
notes. Some of us who have been working in the front line for 
many, many years--and I also want to acknowledge the Great 
Plains Tribal Chairman Association and the Aberdeen Tribal 
Chairman Association as well who in 2002 passed resolutions to 
hold field hearings on sexual assault in Indian Country. The 
National Council of American Indians added their resolution to 
hold hearings on sexual assault in Indian Country and nothing 
happened. So we're glad we're here today.
    Number one, we are requesting your Committee to organize a 
task force to review the existing law enforcement training 
curriculum used at Artesia. When you have only 35 percent 
completion of law enforcement officers, then there's something 
wrong with the curriculum.
    In talking to law enforcement officers across Indian 
Country, especially in the Northern Plains, we feel that that 
curriculum is flawed. It's based on western thinking. We feel a 
curriculum that's based on the top ten crimes committed in 
Indian Country with rape at the very top would be appropriate, 
so we're asking you to review the curriculum and make it more 
meaningful to tribal communities.
    We also want to--and the tribal chairman asked me to 
reiterate the establishment of a law enforcement training 
center in Bismarck at United Tribes that allows closer travel 
for our law enforcement officers in training.
    And the third thing is that we have to professionalize the 
ground officers; in other words, you know, we need to--our 
police officers have the toughest job on the Indian reservation 
so we need to pay them more money. We need to pay them well. We 
need to provide adequate equipment. We need to provide them 
fringe benefits. We need to provide them adequate leave time so 
they can take work off to recuperate from working in the tribal 
community and so on and so forth.
    The training is very crucial. And we feel, in Indian 
Country, as front line workers, that the training is not 
adequate to meet the needs of the people because the kinds of 
crimes that are committed sometimes are overlooked.
    The other thing is policies need to be changed. For 
example, rape is part of the Seven Major Crimes Act. We would 
like some discussion on changing that. You know, one of the 
things that really hurts us is that our police officers are 
first responders to a rape and then the FBI has to come in and 
take it over and many times the FBI doesn't come in until the 
perpetrator walks away.
    Therein lies another request. We're asking the Natural 
Resources Committee to convene a consultation with the FBI. In 
talking to the tribal leaders in the last hour, I asked them: 
Has there ever been a consultation with the FBI? Never. 
Consultation with the FBI is crucial when rape is part of the 
Major Crimes Act and the FBI has some responsibility, so we're 
asking for that.
    The other thing we're asking for is--and I'm respectfully 
asking and I appreciate the time here, but if we're going to 
truly address the attendant effects of rape in Indian Country, 
we need a separate hearing. We would like a separate hearing 
for all the witnesses to talk about sexual assault in Indian 
Country and then we can look at the bigger picture and through 
that hearing you're going to get more information on what the 
next steps are going to be.
    Finally, Madam Chair, as we move--you know, we've been 
Band-Aiding law enforcement in Indian Country as far as I can 
remember. And what law enforcement needs is major surgery. It 
needs an infusion of new dollars. The BIA gets bashed all the 
time, but their hands are tied. Tribal leaders have a 
responsibility to take a different direction to find new 
dollars for law enforcement and therein lies my request. We are 
willing to work on a new bill, a brand-new bill to put the kind 
of money that we need in Indian Country for law enforcement; 
however, in order to submit such a bill, we need data.
    Madam Chair, can your Committee direct the BIA to work with 
our team to get into their archives so we can get the data that 
we need so we can introduce the bill that we want to introduce?
    In conclusion, I'd like to say that another gentleman, he 
had to leave, and he asked that there be more discussion in the 
State of South Dakota amongst all tribal law enforcement to 
start talking to each other. Because one tribe is not talking 
to the other tribe. You have protection orders. You've got a 
number of things. And if tribal law enforcement are not talking 
to each other or there's not a central repository for 
protection orders and perpetrators, sexual perpetrators and 
whatever, you're not going to know what's going on, and with 
the inclusion of gangs. So tribal officers need to be talking 
to each other to know what's going on.
    Finally, there are a number of unsolved homicides in Indian 
Country. On Pine Ridge, there are unsolved homicides. We need 
to bring closure to some of those homicides. It's because of 
the high turnover, because of lack of training, there are 
families out there who will never know what happened to their 
young ones so we want to encourage collectively to find more 
resources to professionalize law enforcement, to provide more 
adequate training, and finally, to bring respect to law 
enforcement officers.
    Thank you.
    [The prepared statement of Ms. Karen Artichoker follows:]

        Statement of Karen Artichoker, Sacred Circle Director, 
                Cangleska, Inc. Management Team Director

I.  Sacred Circle, National Resource Center to End Violence Against 
        Native Women, provides training, consultation and technical 
        assistance to Indian Nations, tribal organizations, law 
        enforcement agencies, prosecutors and courts to address the 
        safety needs of Native women who are battered, raped and 
        stalked.
    For over a decade Sacred Circle has advocated for the safety of 
American Indian and Alaska Native Women, providing training, 
consultation and technical assistance on responding to crimes of 
violence against Native women, particularly domestic violence, sexual 
assault and stalking. Sacred Circle submits this testimony to provide 
written documentation to the U.S. House of Representatives, Committee 
on Natural Resources of ``The Needs and Challenges of Tribal Law 
Enforcement on Indian Reservations.''
    Over the past ten years we have learned many things about the state 
of peril confronting Native women. From the oldest to the youngest, 
Native women are disrespected and treated in the most humiliating 
fashion, living and dying without justice or the knowledge that their 
grand daughters will live free of the violence they experienced. This 
violence destroys the quality of life of Native women and threatens the 
safety and stability of their families, community and Indian tribes.
    Our national work gives us an overview of some of the successes and 
problem areas in addressing violence against American Indian and Alaska 
Native women throughout the United States. Sacred Circle is a member of 
numerous Federal Inter-governmental Committees and various National 
Task Forces established to address violence against women. <SUP>1</SUP> 
On a tribal level, Cangleska, Inc., the mother agency of Sacred Circle, 
provides advocacy to approximately 3,000 women and children each year 
and approximately 2,400 men who are on domestic violence probation as 
ordered by the Oglala Sioux Tribe's Courts.
---------------------------------------------------------------------------
    \1\ National Task Force to End Sexual and Domestic Violence Against 
Women; National Congress of American Indians Task Force to End Violence 
Against Native Women; U.S. Department Of Justice Global Advisory 
Committee; U.S. Department Of Justice Working Group on Federal Tribal 
Sexual Assault Response; Full Faith and Credit Project; Federal Law 
Enforcement Training Center Curriculum Working Group; American 
Probation and Parole Association Model Protocol Working Group; 
International Forensic Nurse Examiner's DNA Curriculum Development 
Working Group.
---------------------------------------------------------------------------
    The comments provided focus on ``The Needs and Challenges of Tribal 
Law Enforcement on Indian Reservations'' in the context of addressing 
violence against Indian women and implementation of the Violence 
Against Women Act of 2005.
    In particular, Section 903 of VAWA 2005, recognizes the importance 
of government-to-government consultation. Section 903 directs the 
Attorney General and the Secretary of the U.S. Department of Health and 
Human Services to use the consultation as an opportunity to solicit 
recommendations from tribal governments on three topics:
    <bullet>  Administering grant funds appropriated for tribal 
governments and programs created to benefit tribal governments by the 
original VAWA and subsequent legislation;
    <bullet>  Enhancing the safety of Indian women from domestic 
violence, dating violence, sexual assault, and stalking; and
    <bullet>  Strengthening the Federal response to crimes of domestic 
violence, dating violence, sexual assault, and stalking.
II.  Enhancing the safety of Indian women from domestic violence, 
        dating violence, sexual assault, and stalking. The safety of 
        Indian women is dependent upon the response of Indian Nations 
        and the Federal government to crimes of domestic violence, 
        sexual assault, dating violence and stalking. Consultation 
        between the Department of Justice and Indian Nations is 
        essential to the development of respectful effective 
        coordination and management of violent crimes against Native 
        women.
    The unique legal relationship between the United States and Indian 
Tribes creates a federal responsibility in safeguarding the lives of 
Native women. Native women are battered, raped and stalked at far 
greater rates than any other group of women in the United States. The 
Department of Justice estimates that:
    <bullet>  more than1 of 3, 34.1%, American Indian and Alaska Native 
women will be raped in her lifetime and 3 of 4 will be physically 
assaulted <SUP>2</SUP>;
---------------------------------------------------------------------------
    \2\ Patricia Tjaden & Nancy Thoennes, U.S. Dep't. of Justice, Full 
Report on the Prevalence, Incidence, and Consequences of Violence 
Against Women (2000).
---------------------------------------------------------------------------
    <bullet>  about 9 in 10 American Indian victims of rape or sexual 
assault were estimated to have assailants who were white or black 
<SUP>3</SUP>; and
---------------------------------------------------------------------------
    \3\ Lawrence A. Greenfeld & Steven K. Smith, U.S. Dep't. of 
Justice, American Indians and Crime (1999).
---------------------------------------------------------------------------
    <bullet>  17 % of American Indian women, at least twice that of 
other populations, are stalked each year. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Stalking and Domestic Violence, May 2001 Report to Congress, 
U.S. Dep't of Justice, Office of Justice Programs, NCJ 186157.
---------------------------------------------------------------------------
    These statistics reflect the horrific levels of violence committed 
on a daily basis against Native women. While compounded by many social 
factors research links this level of violence to the vulnerabilities of 
Native women as a population. The lack of jurisdiction of Indian 
nations over non-Indian perpetrators and the sentencing limitation 
placed upon Indian tribes by Congress enhances the vulnerability of 
Native women and the ability of predators to target Native women as a 
population. This jurisdictional void furthers the public perception 
that Native women do not have the same protections that non-Indian 
women are entitled to receive. The Department of Justice estimation 
that 75% of sexual assaults committed against Native women are by 
perpetrators of a different race <SUP>5</SUP> is indicative that 
perpetrators of such violence are aware of this jurisdictional void.
---------------------------------------------------------------------------
    \5\ Id. at 3.
---------------------------------------------------------------------------
    Section 903, provides the opportunity for consistent consultation 
on a government-to-government basis between the Department of Justice 
and Indian Nations. The staggering statistics of violence against 
Native women requires that the highest levels of government act in 
coordination to address the escalating crisis in the lives of Native 
women. The prevalence and severity of violence would be treated as an 
emergency if committed against any other population of women. Given the 
crisis in the lives of Native women and the lack of adequate resources 
<SUP>6</SUP> more must be done at every level from funding through the 
Office on Violence Against Women, handling of cases by the FBI and 
United States Attorneys, and release of perpetrators by the Bureau of 
Prisons to improve efforts to create a more responsive criminal justice 
system. Federal agencies must work on a government-to-government basis 
with Indian Nations to prosecute such crimes. This cannot be achieved 
without formal consultation with Indian tribal governments.
---------------------------------------------------------------------------
    \6\ See A Quiet Crisis: Federal Funding and Unmet Needs in Indian 
Country, U.S. Comm. On Civ. Rights, available at http://www.usccr.gov/
pubs/na0703/na0204.pdf.
---------------------------------------------------------------------------
    The following recommendations are offered to maximize the 
opportunity provided by Section 903:
    <bullet>  set the date for the annual consultation no later than 
nine months prior
    <bullet>  provide the opportunity for all tribal governments to 
participate in the preparatory call
    <bullet>  issue the agenda no less than two months prior to the 
consultation to allow for advance preparation of participants and if at 
all possible to provide questions to the Department on issues of 
concern to be addressed during the Consultation.
III.  Research is necessary to understand the prevalence, unique 
        particularities and estimated cost of crimes of domestic 
        violence, sexual assault, dating violence and stalking 
        occurring against Indian women.
    The Department of Justice has issued several reports on violence 
against women mandated by the Acts of 1994 and 2000. Within these 
reports, crimes of violence against American Indian and Alaska Native 
women are given limited attention. Previous research mandated under 
VAWA did not require in depth research on violence against Indian 
women. Section 904 will create for the first time in United States 
history the mandate to research crimes of domestic violence, sexual 
assault, dating violence, stalking and murder of American Indian women. 
The unique circumstances created by the jurisdictional void, rural 
isolation, conflict between Indian tribes and states, and other social 
factors require such research. It is important to note that violence 
against Indian women occurs on a continuum of violence from simple 
assault to murder. Department of Justice research indicates that the 
vast majority of Indian women victimized by such crimes knew their 
assailant. Unfortunately this continuum in many cases has resulted in 
the deaths of women. Murder is the third cause of death for America 
Indian women. <SUP>7</SUP> In addition, an increased number of American 
Indian women reported missing raises the concern that these reports 
should be investigated as homicide cases until the woman is located.
---------------------------------------------------------------------------
    \7\ 7 l.j.d. Wallace, A.D. Calhoun, K.E. Powell, J. O'Neill, & S.P. 
James, Homicide and Suicide Among Native Americans, 1979-1992, Violence 
Surveillance Summary Series, No. 2, Atlanta, GA; Centers for Disease 
Control and Prevention, National Center for Injury Prevention and 
Control, 1996.
---------------------------------------------------------------------------
    A national baseline study reviewing the crimes of domestic 
violence, dating violence, sexual assault, stalking, and murder 
committed against Indian women is essential to analyzing and creating 
safety in the lives of Native women. Of critical importance is the 
establishment of a task force, as provided by Sec. 903(A), of 
representatives from national domestic violence and sexual assault 
tribal organizations that have decades of experience in assisting 
Native women. In addition, Indian Nations are essential as the 
governments providing the emergency response to such crimes, the daily 
assistance to Native women, and monitoring of offenders. Indian tribes 
after tens of thousands of years remain sovereign nations having the 
authority and responsibility to protect the safety of women and 
stability of their citizenry. The presence of these representatives 
will provide the expertise necessary to implementing such a study.
    The following recommendations are offered to maximize the 
opportunity provided by Section 904:
    <bullet>  immediately establish, as provided by Section 904(a)(3), 
the tribal task force to develop and guide implementation of the study
    <bullet>  recognize that American Indian and Alaska Native 
experience multiple incidents of violence over a lifetime and 
addressing such violence requires an array of services beyond crisis 
intervention
    <bullet>  recognize that the federal, and within PL 53--280 
jurisdiction state, justice agencies failure to adequately respond is 
demonstrated in the distinction between hospital emergency trauma 
centers and cases reported, charged and ultimately number of conviction 
within respective jurisdictions
    <bullet>  recognize that to increase the response of tribal law 
enforcement to crimes of domestic violence and sexual assault of Indian 
women on Indian reservations requires understanding the past and 
current failure to respond to such crimes.
IV.  The Deputy Director for Tribal Affairs within the Office on 
        Violence Against Women will increase the ability of the 
        Department of Justice to effectively coordinate on a 
        governmental basis with Indian Nations and improve the response 
        of tribal law enforcement agencies to crimes of domestic 
        violence and sexual assault.
    The unique governmental relationship between Indian tribes as the 
United States is long established by the Constitution, Supreme Court 
cases, Acts of Congress and Executives Orders of the President. 
Congress recognized this unique governmental relationship within the 
Violence Against Women Act by statutorily including Indian tribes 
within various provisions and defining Indian Tribes as eligible 
applicants for certain programs under the Act from the Violence Against 
Women Office within the Department of Justice. The administration of 
Federal programs to tribal governments must comply with this legal 
context. The development of policies and grant program guidelines 
according to state-based models is not only inappropriate, but also, 
ineffective in the creation of an enhanced response to domestic 
violence, sexual assault and stalking. Recognizing this complex legal 
relationship is a necessary component in the proper administration of 
tribal set-aside funds. It is also essential in the development of 
model codes, protocols, public education awareness materials, research, 
and training.
    One example of this unique governmental relationship is concurrent 
jurisdiction over violent crimes committed against Native women such as 
sexual assault. The U.S. Department of Justice has general jurisdiction 
over felony crimes <SUP>8</SUP> by or against Indians, including 
homicide, rape and aggravated assault. These crimes require a 
coordinated Tribal-Federal response because of the sentencing 
limitation placed upon tribal courts of ``imposing no more than one 
year per offense or $5,000. fine. <SUP>9</SUP> This sentencing 
limitation is inappropriate and unless prosecuted by a U.S. Attorney 
the defendant is not held accountable for the violent crime. In 
addressing sexual assault of Native women this legal context must be 
understood and all requirements placed upon Indian tribes should also 
be placed upon the counterparts handling such cases within the 
Department. Similarly, the primary healthcare agency handling rape 
trauma emergency is the Indian Health Services of the Department of 
Health and Human Services. This agency does not have a formal protocol 
for sexual assault.
---------------------------------------------------------------------------
    \8\ 18 U.S.C. Sec. 1152 and 1153 (2004).
    \9\ 25 U.S.C. Sec. Sec. 1301-1303 (2000).
---------------------------------------------------------------------------
    Increasing the response of tribal law enforcement to domestic 
violence and sexual assault requires understanding the complexity of 
the jurisdictional maze created by Federal Indian Law, the appropriate 
protocol for implementing government-to-government programmatic and 
administrative matters, and the management of funds set aside for 
Indian Nations. The newly statutorily created Deputy Director for 
Tribal Affairs must be involved with any initiatives to address and 
enhance the response of tribal law enforcement to domestic violence and 
sexual assault. The authority, responsibilities and expertise of the 
Deputy Director will be essential to the success of tribal law 
enforcement initiatives to increase their response to such crimes.
V.  Conclusion.
    In 1994, Congress enacted the Violence Against Women Act 
recognizing the extent and severity of violence against women. Over the 
last eleven years the Act has significantly increased the ability of 
Indian Nations, tribal law enforcement agencies, and advocacy 
organization to assist Native women and hold perpetrators of domestic 
violence, sexual assault, and stalking accountable for their crimes. 
VAWA 2005, specifically Title IX, represents a historic turning point 
in United States history in the recognition by the United States of its 
unique legal responsibility to assist Indian tribes in safeguarding the 
lives of Indian women. Addressing the needs and challenges of tribal 
law enforcement on Indian reservations in adequately respond to crimes 
of violence against Indian women under VAWA 2005 requires the full 
involvement of such agencies in the coordinated governmental 
implementation of the Act. The advances made under VAWA 2005 will 
further the progress made toward a time when the honored status of 
Native women is restored and all women will live free of violence.
                                 ______
                                 
    Ms. Herseth Sandlin. Well, thank you, Ms. Fire Thunder, for 
your testimony, the insight you bring, and to the suggestions, 
the recommendations you've made for the Committee to pursue.
    Let me start with where you started, Cecelia, and that's 
the training issue, because that was going to be one of my 
first questions. A little bit different angle in terms of how 
you've presented it, and I think you've presented it in a very 
important context as it relates to a task force to review the 
existing training curriculum, because my first question was 
going to be: In your experience, set aside the shortage of 
officers for a moment, because we know that we have to get at 
that problem with increased resources, but with the officers 
that you have worked with--because I've seen this in non-
reservation communities when I was working for a law firm in 
Aberdeen. There were--this was back in the early '90s. The 
issue of the sensitivity of law enforcement--of officers to a 
domestic violence situation and to a victim of sexual assault 
and the importance of the training that's provided.
    So with the current curriculum specific to domestic 
violence and sexual assault that's offered down in the program 
in Artesia, is there, within that eight-week course, specific 
training for law enforcement officers in responding to domestic 
violence?
    Ms. Fire Thunder. Very little. We had this discussion at 
breakfast this morning and they just touch on it.
    Ms. Herseth Sandlin. Turn your mike on.
    Ms. Fire Thunder. We had discussion at breakfast this 
morning and it's very minimum and it's not comprehensive. And 
so as this discussion goes further, it seems logical to provide 
training for the kinds of crimes that are committed in Indian 
Country versus teaching them a western model of policing and 
that's why we'd like to have some dialogue or they have 
dialogue about changing how they provide training for law 
enforcement to respond to crimes that are committed in Indian 
Country. It is very minimal training.
    Ms. Herseth Sandlin. Ms. Little Shield, did you have 
anything else you wanted to add there? In terms of the officers 
that you've worked with, maybe even beyond what your 
familiarity with the actual component of that training, you 
know, what you've seen in terms of ultimately maybe the 
officers' desire to have more of that specific area of 
training.
    Ms. Little Shield. Thank you, Madam Chair.
    Yes. In regards to that, we noticed very little in Artesia 
training about domestic violence so we try to provide that.
    The South Dakota Coalition Against Domestic Violence has 
done many trainings, and we set them up in Cheyenne River this 
last couple of years. I've tried--I've set them up at Prairie 
Nights in North Dakota. Had assurances from the chief of police 
he would send the officers and no one showed up. Contacting him 
the next day, asking why this was happening, he stated there 
was a shortage of police officers and he couldn't send anybody.
    Now, we've had also set up through the South Dakota 
Coalition Against Domestic Violence police training in Mobridge 
and also sent them fliers and called them several times 
offering them to go there. It was just, you know, across the 
river for a couple of hours and they didn't show up there 
either.
    So the Standing Rock Police Department has not attended any 
of those domestic violence trainings where I've helped Sacred 
Heart Center and South Dakota Coalition put on trainings in 
Cheyenne River and we had 50 officers attend. But we had to go 
to council to get them mandated to go. OK?
    But we can't do that with these officers in Standing Rock 
because they're BIA. They don't have to listen to the tribe.
    Ms. Herseth Sandlin. That's a very important distinction 
that you've made in terms of how you've been able to work as an 
advocate to make the training available and how the different 
participation rates are dictated by what factors are there.
    And, Cecelia, did you have something else to add?
    Ms. Fire Thunder. Yes. On the second part of your question, 
Artesia does not do the training, however, Sacred Circle, which 
is a national resource training, because part of our training 
is to train law enforcement officers on responding to domestic 
violence.
    And sometimes we have to bring them to the training and so 
we've been able to train a lot of tribal police officers on 
responding to domestic violence but it's not in the large 
numbers, they're in the small numbers, and we have to work 
really hard to get them to come.
    First of all, you have limited police officers out there 
and if one's gone, it makes a difference. So I know in Pine 
Ridge, we've done a pretty good job of training most of our 
police officers on domestic violence. Again, that's a 
commitment from our community. So...
    Ms. Herseth Sandlin. The importance of the local 
involvement in terms of responding to the particular needs of a 
community.
    Ms. Pollack, the report and the investigation that you 
undertook, in the previous two panels, the second one in 
particular, we heard some very important testimony with regard 
to methamphetamine manufacture and trafficking, other illegal 
drug trafficking, increase in gang activity. Did you find a 
correlation in terms of the substantial percentage of the 
violence that's committed against Native American women by non-
Native American men to be associated to a large degree with the 
infiltration of outsiders involved in drug trafficking?
    Ms. Pollack. We did not hear that, very many cases that 
were directly--that directly involved methamphetamines, but one 
thing that we did hear rather consistently was that 
methamphetamines are a very good example of how non-Native 
individuals see Indian Country as an opportunity to commit a 
crime and get away with it and that frequently they will--they 
will specifically locate methamphetamine plants in Indian 
Country because they think there's less of a chance that 
they're going to get caught.
    Ms. Herseth Sandlin. I took note of that in your verbal 
testimony when you made reference to, again, exploiting of the 
factor of inadequate resources and not giving all of the tools 
available to our law enforcement officers and the re-
enforcements that they clearly need to ensure the safety of 
individuals, the safety of women especially who are victims at 
the hands of this violence, so I appreciate you elaborating a 
bit there.
    I want to turn my attention--well, before I do, one other 
question, Ms. Pollack. At the end of the report there are 
several recommendations for future action and I'm wondering 
what steps, if any, either have been or plan to be taken by 
Amnesty International or Violence Against Native Women 
advocates to implement some of those recommendations.
    Ms. Pollock. Amnesty International is currently working 
with Native American and Alaska Native partners to call for the 
full funding for violence in order to bring into a system all 
of the provisions for increased safety of women that are 
contained in that and the increased tribal set-asides that are 
contained in that.
    We are also in the process of putting together an advisory 
committee of Native American and Alaska Native experts at the 
national level as well as the three geographic areas focused on 
in the report and working together with that committee, Amnesty 
will be developing further campaigns regarding law enforcement, 
health, prosecutions.
    Ms. Herseth Sandlin. And along the lines of health, several 
of the recommendations in the report reference the Indian 
Health Service. As you know, the Natural Resource Committee has 
moved on the Indian Health Care Improvement Act so it's in the 
midst of being reauthorized by Congress. There are other 
actions that still need to take place and opportunities for 
amendment.
    Have there been any attempts, that you're aware of, to 
include provisions related to violence against women in the 
Indian Health Care Improvement Act?
    Ms. Pollack. I'm sorry, efforts on the part of?
    Ms. Herseth Sandlin. Advocates for Native American women 
and the health care needs associated with being victims of 
domestic violence.
    Ms. Pollack. I know that there is a lot of work being done 
by one organization that is here in South Dakota called the 
Native Americans Health Education and Resource Center, which 
has done a lot of research and has a lot of expertise on the 
issue of how the IHS addresses sexual violence against women. 
The organization is specifically calling for the creation of 
protocols, standardized protocols throughout IHS facilities 
that will address how women are treated from the moment they 
walk in the door.
    Ms. Herseth Sandlin. Thank you for mentioning that because 
that was a wonderful segue for the questions that I have for 
both Georgia and Cecelia, and that is your experience, now, if 
we can focus on the women who have been victims and the 
importance of the treatment that they are getting, their 
medical needs at IHS facilities, and the importance of these 
protocols.
    And, you know, I know that for most Native American women, 
IHS is the primary health care provider, and so in practice, 
what is the range of services available for women who have been 
victims of sexual assault, domestic violence? What has been 
your experience as advocates for them as it relates to the 
procedures for treating them, as it relates to the type of 
medical attention they receive, and do you have any 
recommendations, perhaps through your work with the research 
center that Ms. Pollack referred to or any recommendations you 
would make to this Committee as it relates to our focus on IHS 
perhaps in the Indian Health Care Improvement Act?
    Ms. Little Shield?
    Ms. Little Shield. Thank you, Madam Chair.
    Addressing that is--IHS in McLaughlin, South Dakota, will 
not do the rape kits. They are then taken to Fort Yates, South 
Dakota, to the IHS, and they will not do the rape kits. They 
are then shipped to Bismarck, North Dakota, through ambulance 
and then done the rape kits up there.
    My recommendation is to get IHS funding and protocols as 
they're now working on, for all that to happen at our IHS so we 
have that ability to keep them there where there's advocacy. 
Because we don't know, until they come back and come into our 
office maybe a month or two later and say, ``Oh, a few months 
back, this happened to me,'' and I'm going, ``Oh, we didn't 
even know.'' Because Bismarck advocates don't communicate with 
us. And they're the ones that go to court, see, and sometimes 
they're not seen by advocates in Bismarck so then they're left 
up there alone.
    So one of the recommendations is IHS participate in a same 
nurse situation where they can do those rape kits right there 
or have somebody--the reason they don't do them is because 
there is such a fall through of employees, doctors, and when it 
comes, then, time to testify, they're gone, so they don't want 
to subject themselves to the testimony when it comes to the 
case.
    Ms. Herseth Sandlin. Because of the turnover?
    Ms. Little Shield. Yes.
    Ms. Herseth Sandlin. So the rationale that you've heard 
from IHS officials, I suppose indirectly it's a resource one, 
because that contributes to the high rate of turnover among 
physicians, primary health care physicians in the IHS system, 
but it's not that they don't want to do--it's not that they 
don't have the funding to do the rape kit, they don't have the 
physicians to do it, either at McLaughlin or Fort Yates, but 
because of the turnover, there's a concern that if a case is 
prosecuted, that the doctor won't be in the area to testify 
about the procedure and about the results.
    Ms. Little Shield. Yes, that's part of it.
    Ms. Herseth Sandlin. Ms. Fire Thunder.
    Ms. Fire Thunder. Thank you. Let's not forget that not all 
Indian women are raped by non-Indians. In many tribal 
communities, Indian men do rape Indian women in large numbers. 
The problem is we don't have the data. It's one of the most 
under-reported crimes on the Indian reservation.
    Many Indian women are at high risk. When you have a large 
number of alcohol use and abuse and drug use and abuse, you are 
vulnerable and you are going to be victimized.
    One of the important things that we also want to let you 
know is that a hundred percent--and I say a hundred percent--of 
Indian women who are battered or beaten by their partner will 
be raped because it comes with the territory. And so it's 
another issue that very few women and women who are battered 
talk about.
    We have many cases--this is where we have been there to 
pick up the pieces. They will tell us they've been raped; 
however, because that's their partner, that's her husband, 
that's her boyfriend, the perception is that that's part of the 
relationship. So we have a lot of education that we have to do 
in our communities.
    In terms of the testimony of the providers is that we need 
to take a look at the existing laws in South Dakota. It was a 
couple of years ago when the court would not accept testimony 
from anybody but an M.D. Today, it's my understanding we have 
nurse practitioners who do administer the rape kit.
    Ms. Herseth Sandlin. Just for a point of clarification: Is 
this the Federal District Court or Tribal Court?
    Ms. Fire Thunder. Or even state court.
    Ms. Herseth Sandlin. OK.
    Ms. Fire Thunder. Federal Court, there was a time--now, it 
might have changed, because Terry French, who is our nurse 
practitioner, does provide testimony.
    So about ten years ago we were talking about changing the 
policy and the laws of the State of South Dakota so that a 
nurse practitioner or a P.A.--and one of the things is that 
with your support and help, we could change the rules again 
where an R.N. can administer the rape kit in an emergency room 
and that it could be admissible in a court of law.
    So these are some policy changes that we have to look at 
and who's most available in the tribal community to administer 
the rape kit. It doesn't have to be an M.D. Whoever's there in 
that emergency room. Nine times out of ten our emergency room 
doctors are on call. They're not always there. But an R.N. will 
be there. So maybe one of the recommendations is take a look at 
the law and see how we can change it and who's there in the 
emergency room and legally if they would accept it in court.
    Ms. Herseth Sandlin. I have a few other questions that deal 
with some of the other recommendations and the reauthorization 
of VAWA, Title IX requirements for the Attorney General 
reports. I may submit those for the record in the essence of 
time as we do have a couple of other individuals that we want 
to hear from.
    But Ms. Fire Thunder, your recommendation that this issue 
deserves a separate hearing is well heard and I know that the 
other advocates here in the room for victims of domestic 
violence, all three of you have raised important experiences on 
the ground that can help us further explore the issues and 
policy changes, the importance of funding, the relationship of 
this issue to the broader issue that we explored in the first 
two panels of the law enforcement needs more generally, but 
more specifically here the training, how you've addressed that 
issue locally working with your officers, working with tribal 
council, so I appreciate your insight and your willingness to 
share compelling and I know difficult testimony based on the 
lives that you've seen affected by this very serious issue.
    So again, thank you for your testimony. I hope you'll be 
open in the event that we have additional questions that we'd 
like to submit to you in writing and look forward to the 
follow-up, again, on the recommendations that you all have made 
here.
    Ms. Fire Thunder. Can I just say something?
    Ms. Herseth Sandlin. Yes, please.
    Ms. Fire Thunder. You asked about treatment. I didn't 
respond to that, Madam Chair.
    We've been talking about the legal response to sexual 
assault. We've been talking about the medical response to 
sexual assault. We have yet to talk about--and this is what the 
next hearing should address--treatment models.
    In my work across Indian Country I asked the question: What 
is--what kind of a treatment model exists within the 
psychological community for women who have been raped? And most 
psychologists and therapists, they look at me and say there's 
none. So my challenge to Ph.D.'s was why don't we sit down and 
create a model, a treatment model for women who have been raped 
or sexually assaulted? That's still there.
    Now, Madam Chair, we can talk all day long about the legal 
and medical, but we have hundreds of Indian women out there who 
could be 80 years old, who could be 60 years old, who could be 
ten years old, who have been raped. And I know grandmas who 
have been raped and never talked about it. But we have a lot of 
healing to do.
    So with that, I thank you for letting us share these things 
with you.
    Ms. Herseth Sandlin. Thank you. And I'm glad you mentioned 
the treatment issue, because I have had a chance to look at 
some of our IHS facilities and it was in McLaughlin and talked 
with them about a whole host of issues, and this relates not 
only to the adequacy of law enforcement officers, but the 
adequacy of the treatment, the psychological treatment that 
you've just described.
    I know that the one counselor at McLaughlin at the time 
that I visited was getting ready to transition back to the area 
office and when you have the high incidence of domestic 
violence, the high incidence of teenage suicide, we have to 
address this issue.
    And then in--I will be pursuing with Mr. Ragsdale the issue 
that came up in the second panel on approving a position for 
the juvenile detention center in terms of a psychiatrist on 
site. And again, we have this holistic approach to see if we 
can find the flexibility needed, in addition to the resources 
for those types of positions.
    But I want to maybe just conclude with: I had mentioned at 
the outset my experience with the Federal District Court in 
1998 and 1999 out of Pierre. And working with all of the folks 
within the system, whether they were the victims' advocates, 
whether it was the U.S. Attorneys, the defense attorneys, the 
FBI, tribal law enforcement, those that I saw on a regular 
basis in our trial proceedings, and at the time that I was sort 
of getting that perspective on the rates of violence and seeing 
the victims testify, seeing the perpetrators tried, my brother 
was working at Abbott House in Mitchell and as you both well 
know in terms of the younger women who have been victims of 
sexual assault and the needs that they have, and I think that 
is a wonderful program, but sharing from our experiences, you 
know, working on the judicial side and Todd, you know, my older 
brother working with these young women whose lives were so 
dramatically affected and needed to find the right treatment 
model for all victims and women of different ages and the type 
of healing that is so necessary.
    And so I share that with you to let you know of the 
personal and family experience in terms of the importance of 
this issue and the individuals whose lives that we've been 
affected by and our desire to work with you based on your 
expertise and the advocacy that you've undertaken along with 
your counterparts and colleagues that are here today.
    And so thank you again and we'll look forward to continuing 
our work on the Committee and, of course, through our office 
that's here directly in South Dakota through my office.
    Thank you.
    Ms. Fire Thunder. One explanation.
    Ms. Herseth Sandlin. Yes.
    Ms. Fire Thunder. I just whispered to her, Congresswoman, 
in the State of South Dakota, all nine tribes have advocates. 
You don't have to remake the wheel. Just find us the resources 
and we'll take on the work of sexual assault.
    Ms. Herseth Sandlin. Well said.
    And I know that the group of individuals I had the honor of 
meeting who have been most recently recognized, but in terms of 
what they offer victims from the Oglala Sioux Tribe, well 
deserved recognition, but thank you for pointing that out as 
well.
    I'd now like to invite Chairman Robert Cournoyer from the 
Yankton Sioux Tribe, Council Member Fool Bear, yes, and were 
there any other individuals? I don't think there were any other 
individuals brought to my attention who were seeking to offer 
statements and testimony.
    I appreciate your patience and your being here, again, 
operating within a structure a little bit more rigid than we 
might be used to at some of the other meetings that we've had. 
But through the Committee structure meeting, needing to 
formalize the agenda, but certainly wanting to be open to 
hearing in this setting, in addition to the other settings that 
will be presented on a more informal basis with our direct 
outreach with the Yankton Sioux Tribe, the Standing Rock Sioux 
Tribe, of course, the Flandreau Santee, who we have worked with 
on a number of other issues.
    So Chairman Cournoyer, thank you. You're recognized to 
provide testimony to the Committee.

          STATEMENT OF ROBERT W. COURNOYER, CHAIRMAN, 
            YANKTON SIOUX TRIBE, MARTY, SOUTH DAKOTA

    Mr. Cournoyer. Good afternoon. I know that it's been a long 
afternoon and a lot of the chairmen have stated the needs in 
Indian Country, so I thank you for allowing me the time, Ms. 
Herseth. And, you know, I'm going to just be brief.
    You know, we all know the problems in Indian Country. We 
didn't come here today to bash the BIA for what they can or 
cannot do, but, you know, basically it boils down to funding, a 
funding issue.
    You know, a lot of them talked about treaty issues. You 
know, it's supposed to be a treaty obligation. All of these 
things aren't being met in Indian Country and, you know, we 
never get enough money to succeed. It's just enough money to 
fail. They say, ``Well, we tried it out on the Indians.'' And 
they said it didn't work because we never get enough money to 
succeed.
    And with law enforcement, I'm a former law--I was involved 
in law enforcement many, many years ago and I wouldn't want to 
be a law enforcement officer today because of the conditions 
and all the things that are happening out there. But, you know, 
I've seen a lot of the major crimes. I've witnessed murders, 
rapes. You name it, I've seen it all. Automobile accidents and, 
you know, 90 percent of the calls back then were related to 
alcoholism. This was in the late '70s and early '80s when I was 
a police officer, but today it's exacerbated by other drugs, 
meth, cocaine. You name it, it's there.
    And a lot of these people are focusing on the reservations. 
They're coming and they're selling their goods there because 
they see the Indians as an easy mark and that they can easily 
get hooked on this. And, you know, it's an epidemic in Indian 
Country now, the methamphetamine use, and it isn't getting any 
better.
    There's a lot of things for prevention but there's nothing 
for treatment of methamphetamines and we've got to work toward 
getting funding to make those things happen.
    There's a lot of things that were discussed here today that 
we all need to work on and it all takes a little money. It 
takes resources and that resource is money.
    Because we all know that Indian Country is severely 
underfunded like Indian health. They're only meeting about 15 
percent of their need. You can go on with education, you name 
it, all those needs are severely underfunded. And basically one 
way that the Native Americans can benefit is through education, 
becoming economically self-sufficient. There is nothing in the 
way of entrepreneurialship. There is nothing in the way of 
economic development or job creation. That helps you get up out 
of the gutter. And because of our depressed economic socialism 
on the reservations--and that just didn't happen overnight. It 
was created by them putting us on reservations and consistently 
giving and giving and giving until a lot of our people, they no 
longer can take care of themselves because everything is a 
gimme. They've been--and we've got to get out of that phase.
    Until we find ways of doing that through education and all 
these other things and economic development and creation of 
entrepreneurialship, the people can pull themselves up. But for 
us to get there, we need to be--there needs to be some 
investment on the reservations. When things start to become 
positive, then everybody else becomes positive. But, you know, 
we need to just focus on it.
    And law enforcement is a big issue now because there's just 
so much happening in law enforcement and we could say, well, we 
could point over here at the Bureau, well, their hands are 
tied, too, like someone said earlier.
    But we've got to all work together to solve this. And like 
I said, I'm not going to be very long. I just wanted to--and I 
handed in some testimony on our concerns but I just say that 
somehow we have to pull together and I think that we need to 
have more consultation with the tribes so that we can address 
these issues with the Bureau and with the Justice Department. 
You know, I think one of the biggest mistakes--or I don't know, 
maybe it may not be a mistake to them, but to us it is--is that 
when BIA law enforcement no longer--when they pulled themselves 
and they divested themselves from the BIA superintendents and 
those lines of authority, because now you have to go off to a 
district commander and the tribes' needs are never ever heard. 
They might listen to us, but they say, ``Oh, well, we don't 
have to listen to them because we've divested ourselves from 
them. We're way over here. We don't have to listen to any of 
their needs and we'll just serve our own selves.''
    You know, and there's a lot of upset leaders in Indian 
Country because of the law enforcement situation and not enough 
law enforcement officers to go around. We need several officers 
on our reservation to meet our needs. I don't even know if 
we're meeting 50 percent of that need.
    So a lot of our officers, by spending so much time out 
there, they get burnt out. I know I did when I served. You get 
burned out after putting in so much time. Sometimes, you don't 
know, you can put in 60, 70 hours a week. That's a long, long 
time.
    And if you've seen something happen to a young child that 
got killed, I mean, that really hurts you deep down inside. I 
know I faced those myself personally. Suicides. You name it, I 
seen it all.
    And you've got to have a strong constitution if you're 
going to be in law enforcement. You've got to be able to take 
all that stuff that comes at you on a daily basis and 
sometimes, you know, that officer gets broken down, too, and he 
needs someone that he can go talk to.
    So there's a lot that we have to take into consideration 
when it comes to law enforcement. And I'm not here to bash 
anybody. I just want to work in the spirit of cooperation so 
that we can solve this all together.
    Thank you.
    [The prepared statement of Mr. Cournoyer follows:]

                          YANKTON SIOUX TRIBE

                                Box 248

                            Marty, SD 57361

                       (605) 384-3804 / 384-3641

                           FAX (605) 384-5687

                   TESTIMONY FOR YANKTON SIOUX TRIBE

    The Yankton Sioux Tribe and all other tribes in the Dakotas face 
overwhelming problems stemming from our poverty and socioeconomic 
conditions. It is a runaway elephant that we are being asked to kill 
with a
    B B gun. We are severely under funded and too scattered to 
effectively deal with burglary, theft, drugs and alcohol-related crimes 
that are an epidemic on our reservations. We need more help from the 
Department of the Interior and BIA, not the U.S. Department of Justice. 
We don't need federal police, we just need the Bureau, which 
understands the most about the trust relationship, to step in and 
support the Tribes while we learn to assume and operate our own law 
enforcement.
    The Yankton Sioux Tribe has long believed in the principles of law 
contained in the Indian Self-Determination and Education Assistance 
Act. It seems that the BIA doesn't. We have had great difficulty in 
obtaining funds already allocated for Self-Determination contracts. The 
BIA drags its feet on supporting and funding tribal law enforcement, as 
it is required to do by the law, perhaps in the hope that we will fail 
and retrocede back to the BIA. Or perhaps the federal government wants 
to show that we are a failure to justify the U.S. Department of Justice 
stepping in to take over our law enforcement and just make us the 
lowest rung of federal law enforcement. We oppose this. We can and will 
run our own law enforcement if we obtain legally required assistance 
and support.

Robert W.Cournoyer
Chairman
Yankton Sioux Tribe
Date: June 1, 2007

                                 ______
                                 
May 31,2007

Honorable Stephanie Herseth-Sandlin
United States Congress
District of South Dakota

Written Testimony of Yankton Sioux
John W. Sully, Sr.
Treasurer
Yankton Sioux Tribe
Box 248
Marty, South Dakota 57361
1-605-384-3641

Honorable Herseth-Sandlin:

    In regards to our Law Enforcement Contract with the Office of Law 
Enforcement Services. The Yankton Sioux Tribe has a 638 Contract with 
(5) five positions since 2003,2004,2005,2006,and currently 2007. 
Theoretically, the process for 638 is: The Tribe identifies the 
program(s) it wishes to contract thru Tribal Resolution(s). 2. 
Positions, Budgets, Equipment are formalized thru data collected by the 
Contractor. This information is packaged and sent to either the Bureau 
of Indian Affairs or Indian Health Hospital, H.U.D, or other Federal or 
State Agency that provides a service to the Tribe. These Agencies, 
under the 638 Law, have to respond to the Tribal Request within a 
certain period of time. Whether to approve or disapprove of the Tribes 
Request to Contract. Once the Federal or State Agency agree's to the 
conditions for a Tribe to Contract. There is an Award Letter, issued to 
the Tribe, stating, that said Contract is hereby Awarded to Tribe. In 
this Award Letter the budgeted amount of the contract is also 
identified and supplied to the Tribe. Off of this Award Letter, the 
Tribal Contracting Officer develops the direct costs budget, and a 
Indirect Costs based on what the tribes Indirect cost rates are.
    The above process for 638 contracting of a program by a tribe has 
never been followed. This is the first time that I, as a Treasurer and 
past Contract Specialist for the Yankton Sioux Tribe have ever 
witnessed such a blatant disregard for the contents of the 638 Law. The 
Yankton Sioux Tribe has Never received a (Award Letter) never from the 
Agency that we are contracting these five positions from. Even if we 
only filled three positions within this program, the program we 
contracted, was 5 positions. The money that was unspent therefore 
should revert back to tribe to be allowed to be carried over to 
thefollowing fiscal year. This also has never happened, we were never 
allowed to apply our indirect cost rate to this contract like all of 
our other 638 contracts. We were not allowed a 25 percent 
administrative fee, or a start-up costs. For the last five years we 
have been shorted out on this contract. We have contacted our Attorney 
and have exhausted all our Administrative process and trying to come to 
a logical resolve to this matter. The Aberdeen area office has only 
given us the run around, blaming everyone else for the problem. This 
has been going on too long and this has impacted our finances where we 
will also request for damages done to our creditability, example; the 
L.E.S. currently owes us $67,000.00 in Payroll. We have to go to a bank 
to borrow this money to cover the costs for meeting Payroll and making 
sure our people are properly protected.
    We are currently going to be filing under the Contracts Disputes 
Act, and hopefully we will get what is legally entitled to our Tribe. 
I'm sorry this has to come to this, but we have tried many years now to 
come to some type of conclusion to this matter with nothing really be 
taken care. Only a lot of lip service. In closing the Yankton Sioux 
Tribe wishes to take this time and thank you Mrs. Herseth-Sandlin for 
coming out to Indian Country and listening to our problems.

Sincerely,

Robert Cournoyer, Chairman Yankton Sioux Tribe
                                 ______
                                 
    Ms. Herseth Sandlin. Thank you, Chairman Cournoyer, for 
your testimony.
    I have a couple of questions for you after we hear from Mr. 
Fool Bear, but thank you for highlighting a few other 
additional issues, and again, the issue of economic development 
and job creation that can help alleviate some of the problems 
associated with higher crime rates. And again, safe communities 
are as important as housing when it comes to attracting and 
sustaining economic development. You pointed that out very 
eloquently and I appreciate it.
    Mr. Fool Bear, thank you for being here, for your patience, 
and for your testimony.

STATEMENT OF ARCHIE FOOL BEAR, COUNCILMAN, STANDING ROCK SIOUX 
                TRIBE, FORT YATES, NORTH DAKOTA

    Mr. Fool Bear. Thank you, Congresswoman Herseth. How do you 
say your last name? Sandlin? You get married and it just 
changes the whole thing.
    [Laughter.]
    Mr. Fool Bear. I want to thank you for holding this 
hearing, first off. I want to thank the tribal leaders that 
were before us.
    You know, I came down today with four of our committee 
members from our judicial committee. Sitting in the back row 
here is Frank Jamison and Jerry Lee Hagard is around here 
somewhere, Scott Gates and Joe White, who are members of the 
Standing Rock Sioux Tribal Council.
    We have many concerns, you know, and we've tried to address 
these issues and we've gone to Washington, D.C., already once 
and we left a package of information with you and I do have 
some testimony here that's written. I don't have written 
testimony from our Chairman.
    What I'd like to do is accommodate with you, if you don't 
mind, with some oral testimony.
    Ms. Herseth Sandlin. OK.
    Mr. Fool Bear. First off, you know, Standing Rock is 
unique. It's located in two different jurisdictions as far as 
state and Federal jurisdictions are concerned, the State of 
North Dakota and the State of South Dakota. We are 2.3 million 
acres. We have 15,000 members in our tribe. We have 12 
different communities. Eight of those are Indian communities.
    Of those Indian communities, we had two police officers 
assigned to one community on the North Dakota side and one 
community on the South Dakota side. Now just the other day, 
talking with the chief of police, we had a resignation of one 
of our officers that used to live on the South Dakota side so 
now we're going to be short there.
    I'm finding that for our size of reservation and for our 
needs, what we've got on the road in Standing Rock right now is 
six uniformed police officers for the entire reservation. We 
have one detail officer that was brought in. I don't know how 
long his stay is going to be.
    I found out that we have two police officers that were 
selected but they're not going to be on the street for anywhere 
from three to four months and that depends on the Indian Police 
Academy.
    I found out that Mr. Hawk, who was scheduled to go in 
August for the Indian Police Academy, that that class was 
canceled. So if the class is canceled, you're not going to get 
them certified. And I believe we've talked with Mr. Ragsdale 
and other Congressional people to see if we can try to accept 
the state's training for both North and South Dakota and still 
include in there a two-week course on dealing with 
jurisdictional issues of Indian Country.
    I know North Dakota's academy is--or excuse me, the police 
academy is six weeks. The North Dakota academy, from my calls 
yesterday, it's 12 weeks. The South Dakota academy is ten 
weeks. So we can shorten that time down if we can get that 
done.
    Standing Rock, last year we answered 44,000 calls for 
service. In the Bismarck Tribune, Chief Deb Martin made a news 
release that they had 30,000 calls for service in the city of 
Bismarck. So in comparison on our reservation, law enforcement 
is really catching the end drop of it all when it comes to 
funding.
    We're not funded adequately, and as a former chief of 
police on Standing Rock, when you don't have the proper funds 
to run a department that size, you don't have the manpower to 
respond or do prevention or intervention, the whole system 
starts to lose faith in the whole judicial process.
    And I sympathize with Amnesty International's report and I 
would like to have more involvement in looking into that, into 
that report, because I've had people, since that report has 
come out, come to our committee making reports to us about how 
things have occurred and nothing's been done here, how law 
enforcement is not clearing certain cases, failing to respond.
    I have a report that I will forward to your office, 
Congresswoman, of a 16-year-old that we were informed was 
stabbed 72 times and is still living through that and the 
perpetrators are still walking the street.
    We've taken our concerns to the BIA. I met with Mr. Peter, 
Mr. Chaney, Mr. Ragsdale, and talked about our concerns and 
issues, and with the cooperative effort as stated by my fellow 
partner, Mr. Cournoyer here, the hopes are that we can do that, 
we as a tribe with the Government.
    But when we come down to discrepancies when it comes to 
failing to follow through on crimes and major crime violations, 
the people again lose faith in the system. When you have a call 
for a police officer and you have a rape to be reported and 
nobody shows up, I am being told by a lady that the reason why 
nothing--or she reported it. Nothing got done. She waited a 
whole day. The police officer finally showed up and her 
statement was that she was too embarrassed to talk about it. 
You know, I don't know why she was embarrassed, but she said 
that she thought that nobody cared. Nobody cared to come to her 
issue.
    Amnesty International's report also reflects of an 
individual that was raped, beaten, and this individual tried to 
commit suicide looking for attention. We have an issue with 
that because we're told that this victim died and we don't know 
if there was ever any prosecution of the individuals involved 
in this. So that is going to be forwarded to the proper 
authorities.
    We feel that, as I stated, when there's a breakdown such as 
this, it has a domino effect on the whole system in law 
enforcement as far as intervention. When it loses confidence in 
our whole judicial system, nobody's going to come forward. 
Nobody's going to tell anything. Nobody's going to talk about 
crimes, but yet it's going to continue to happen.
    And I've got to thank Amnesty International for bringing 
more things out in that report than we will probably hear about 
because they've established a confidence in people.
    Madam Congresswoman, we also want to reiterate that under 
H.R.  4472, the Adam Walsh Child Protection and Safety Act that 
was passed in '06, again, it's another mandate without 
legislation again and we're asking in my letter format to you 
that we pass the resolution with the Standing Rock Sioux Tribe, 
that we're going to go ahead and pursue that, but we don't have 
the resources again.
    With the way we're looking at things, the way I see things, 
Madam Chair, is that it was brought up earlier was a draft 
resolution or draft legislation to go over finding a better way 
to fix this law enforcement issue, and I would be willing to 
state that Standing Rock would volunteer to be a part of that.
    With that, Madam Chair, we were looking at 32 police 
officers for our reservation and a $2.5 million request and we 
don't know where that's going to go, we don't know where the 
Adam Walsh legislation and requirements are going to go, but we 
also would like to state that we do not have a treatment 
facility when it comes down to the meth issue.
    Just recently we had 32 people that were arrested on 
Standing Rock. That was a cooperative effort with Safe Trails 
Task Force, I believe it's called, and with the State of South 
Dakota and I believe the Federal authorities.
    I would go further, but you had a long day and I'll stop 
right there. I want to thank you for the time.
    [The prepared statement of Mr. Fool Bear follows:]
    [GRAPHIC] [TIFF OMITTED] T6020.007
    
    .eps[GRAPHIC] [TIFF OMITTED] T6020.008
    
    .eps[NOTE: Additional information submitted for the record 
by Chairman Fool Bear has been retained in the Committee's 
official files.]
    Ms. Herseth Sandlin. Of course. And I'll pose a few 
questions so if there are a couple of other areas you want to 
explore.
    You had mentioned, in terms of the 32 officers, for the 
request, may I ask each of you, because we pursued earlier with 
the other tribal chairmen on the second panel the situation 
with the COPS grants, for Standing Rock and for the Yankton 
Sioux Tribe, what's your situation there? Did you apply for 
COPS grant funding? Did you have officers that have since left 
because of the lack of resources for retaining those officers? 
Could you elaborate a little bit on your experience with the 
COPS program and the situation faced today?
    Mr. Cournoyer. We didn't get any COPS funding for this past 
year here, but in the past we've had the COPS program and it is 
very effective because it fills in that stop gap of being able 
to have enough officers. But, you know, that's only a temporary 
fix.
    You know, I know that some of the other cities that are 
reservation border towns, they also got COPS grant programs, 
too, and, you know, it helps strengthen the number of officers 
that are out there, but by far they're just like everyone else 
stated today, there isn't enough officers out there on the 
beat.
    And, you know, as we teach at the academy, that visibility 
is a deterrent, so if you have cops out there on the beat and 
they at least see them patrolling, that it does stop a lot of 
things. But, I know that there was a problem with funding of 
the COPS grant and they did get some funding for that, but--you 
know, it's sorely needed but I think that if we could work with 
the mandates of fulfilling our own needs on each of our 
reservations from the BIA through the funding mechanism, that 
that probably would work.
    I think we would have enough officers then, but, right now 
we're only meeting half of our need and we could use another--I 
think we've got two BIA officers and four tribal police 
officers. We're supposed to have five. So we need another plus 
we also need a criminal investigator.
    There's just so many crimes that are falling through the 
cracks with not having an investigator and, you know, people 
are walking around free like all of the other speakers said, 
that we got people walking around that they've committed crimes 
and they've committed some horrible crimes, but with not having 
the manpower to deal with it, these people walk.
    You know, and our juvenile issues aren't being addressed 
either. Some of us reservations, we don't have any holding 
facilities for our youth so a lot of times they walk or they're 
put in a temporary facility if they've done something bad 
enough to be held, but for the most part, they're released to 
their parents and they just go back and continue to do what 
they were doing. You know, they spend very minimal time 
incarcerated because most of our jails, you can't hold adults 
and juveniles together.
    So on our reservation, we're building a juvenile detention 
facility and it's going to cost us about $7 million but we got 
half of it from the Justice Department. The other half we're 
funding ourselves.
    You know, we were looking for money to build a treatment 
center for alcoholism. We did it ourselves. So I think 
sometimes the tribes, we struggle, but we sometimes find the 
resources to take care of ourselves but, you know, when 
there's--when you're supposed to have that fiduciary trust 
responsibility from the Government and they're not doing it, 
sometimes you have to take it in your own hands and just do it 
yourself.
    Mr. Fool Bear. Madam Chair.
    Yeah, I mean, Standing Rock, we did have a COPS grant. The 
COPS grant did run out and we did end up letting some police 
officers go and we haven't got that grant renewed as far as I 
know.
    As stated by Mr. Cournoyer, we as a tribe put some money 
toward that area but I think what the big holdup there is 
called a memorandum of agreement or understanding with the 
Bureau of Indian Affairs when it comes down to trying to get 
police officers hired with our tribal monies.
    May I read this letter?
    Ms. Herseth Sandlin. Yes.
    Mr. Fool Bear. The letter is directed to you, The Honorable 
Stephanie Herseth Sandlin. I'll say that right yet. I'm used to 
just Herseth.
    This references law enforcement issues on the Standing Rock 
Indian Reservation.
    ``To The Honorable Representative Herseth Sandlin:
    ``This letter is written to you in my capacity as Chairman 
of the Standing Rock Sioux Tribe's Judicial Committee, my 
capacity as a Councilman at Large for the Standing Rock Sioux 
Tribe, as a member of the Standing Rock Sioux Tribe, and a 
life-long resident of the Standing Rock Indian Reservation. I 
am greatly concerned at the dearth of resources allocated to 
the Bureau of Indian Affairs law enforcement services at 
Standing Rock. Currently we have five patrol officers to take 
care of an area about the size of the State of Connecticut. 
This is intolerable.
    ``As you are doubtless aware, we have a burgeoning drug 
problem afflicting people of all ages throughout the 
reservation. In my view, the worst of these illicit narcotics 
is Methamphetamine due to the organic injury it causes to the 
brains of its users. Meth is also increasing the amount of 
violent crime on the reservation. I urge you to assist the 
tribe by helping us find additional resources to use in our 
tribal war on drug use.
    ``To complicate matters for the tribe, we have been unable 
to build our juvenile detention center given the diminution of 
the construction funds in the years that have passed since we 
planned the project. Currently we have to send youth to Eagle 
Butte, South Dakota, for incarceration. It is wonderful that we 
get assistance from our relatives at the Cheyenne River Sioux 
Tribe. I just wish we get the requisite assistance for a 
detention center and law enforcement for our relatives from 
Congress. Geez, I read that all wrong. I just wish we could get 
the requisite assistance for detention and law enforcement from 
our relatives and friends in Congress.
    ``I have met with Chris Chaney, Director of the Office of 
Law Enforcement Services for the Bureau of Indian Affairs, and 
requested 32 full-time positions for the Standing Rock law 
enforcement program. In addition, on behalf of the Judicial 
Committee and the tribe, I requested an internal affairs 
investigation into complaints that the Committee and I have 
received from tribal members and other reservation residents 
concerning the incredibly poor law enforcement services 
provided by the BIA. As former chief of police for the Standing 
Rock Indian Reservation, I know firsthand the frustration of 
running a police department without adequate financial and 
other resources.
    ``Currently the Judicial Committee has recommended to the 
tribal council that the tribe elect, under Section 127, to meet 
the requirements of H.R. 4472, the Adam Walsh Child Protection 
and Safety Act of 2006, as a jurisdiction subject to its 
provisions in order to protect and further the sovereignty of 
the Standing Rock Sioux Tribe. The requirements of this Act are 
numerous and the Standing Rock Sioux and numerous other 
Federally recognized tribes lack the resources to register sex 
offenders residing on the reservation according to the Adam 
Walsh Act. Please assist us with legislation mandating that the 
Bureau of Indian Affairs meet its responsibility to us in 
implementing the requirement of the Act.
    ``Representative Herseth Sandlin, on behalf of the tribe, I 
thank you for your leadership and ongoing advocacy for the 
Standing Rock Sioux Tribe and our numerous relatives among the 
other Federally recognized tribes. In the event that you 
require additional information, please contact me at your 
convenience.''
    This is in a packet that has been submitted. If there's no 
other questions, I'd like to thank you for your time.
    Ms. Herseth Sandlin. One quick question for you. We heard 
from the third panel in terms of Ms. Fire Thunder's 
recommendations that we look at and work with our counterparts 
at the state level as it relates to state law and evidentiary 
requirements with regard to the treatment of women who have 
suffered sexual assault or domestic violence.
    Since Standing Rock's position is unique in that you--the 
geographic location is in both states, do you have anything 
that you might want to add in terms of whether or not you found 
that North Dakota state law differs from South Dakota state law 
in any significant respect as it relates to the prosecution of 
sexual assault cases in state court?
    I know that's a very specific question. You can take it for 
the record and maybe visit. And I know that--I don't know that 
I asked that specifically--I didn't of Ms. Little Shield and 
she might have been the one I should have posed the question 
to.
    But you had mentioned in terms of the unique situation, 
because you are on both sides of the border between North and 
South Dakota there, or if there was anything in your tenure as 
chief of police that you noticed in terms of the coordination 
with state law enforcement in North Dakota or South Dakota 
where there was a better system and we could sort of learn from 
each other as it relates to those efforts in coordination with 
BIA law enforcement, state law enforcement, and Federal and 
tribal law enforcement with the joint task force, especially in 
the area of drug trafficking.
    Mr. Fool Bear. Thank you, Madam Chair.
    My experience in the past in dealing with violence against 
women and as far as state prosecutions, the State's Attorney in 
Sioux County didn't have any problems prosecuting as far as 
taking their cases, dealing with their jurisdiction. Anything 
that was an act of violence that was handled within the 
boundaries of the reservation that dealt with tribal members 
ended up in the Federal system, so the Federal District Court 
would take care of that.
    The U.S. Attorney in North Dakota at the time used to take 
a strong stance against violence. I don't know what the 
policies are nowadays. I don't know who's running the show and 
whether or not our attorney generals can get a vote of 
confidence back. But if it were to happen, I don't know what 
their policies are on the North Dakota side anymore.
    On the South Dakota side, in years past we had a lady that 
was viciously assaulted and we took our pictures to the 
Assistant U.S. Attorney and the medical statements and the 
Assistant U.S. Attorney at that time didn't want to prosecute. 
He called it a domestic situation. And it was hard to believe, 
but we had to present it. And it never even got a Grand Jury 
presentation. It was just a denial.
    So North Dakota, to some extent, takes it more seriously as 
far as in the past. I don't know what their current policies 
are right now.
    Ms. Herseth Sandlin. Well, that's actually a very helpful 
statement you just made, too, because I know I posed it in 
terms of the different states you're working with, but in terms 
of the Federal Government positions, you know, the different 
approach of the U.S. Attorneys that are in place at any one 
period of time and the level of priority that they're placing 
on working with their AUSA's to prosecute different crimes with 
Federal jurisdiction, so I appreciate that clarification as 
well.
    Thank you, again, both of you, in terms of what you've both 
highlighted that we maybe touched on briefly or not at all in 
previous testimony as it relates to alcohol and drug related 
crime. Especially the spike in aggressive violent crimes with 
those who are addicted to methamphetamine and the importance of 
treatment programs, whether it's for those who are addicted to 
drugs, women who have been victims of sexual assault, but we 
also know that we've got an issue of recidivism and the issue 
of rehabilitating perpetrators who, if they received adequate 
treatment, would not commit the crimes of violence that they've 
committed. But when those illnesses remain untreated, the 
recidivism rate, of course, is going to remain high if we're 
not addressing that treatment issue as well and community based 
treatment to be close to families in a support network.
    And, of course, the comments that were made with regard to 
when individuals in a community's faith diminishes in the 
entire judicial system when your first responders, your law 
enforcement officers, don't have the resources for prevention 
and intervention and that's a point well taken that highlights, 
again, the overarching theme of today's field hearing. And so I 
thank you both again for your testimony, for accommodating the 
strictures we faced earlier today as we started out with the 
kind of formal agenda for the field hearing, but again, I 
appreciate your input and your leadership and we look forward 
to following up with all of our witnesses on each of the 
panels, all of the leaders, and certainly our Administration 
officials who are here today in support of your efforts, so 
thank you.
    And with that, the field hearing for the House Natural 
Resources Committee will almost adjourn. But let me also point 
out that the record will remain open for additional questions 
for two weeks, so in addition to some of what we talked about 
in terms of taking questions for the record, additional 
questions we may have, we'll get those to you, but anything in 
addition that you would like to supplement to the record today, 
again, the record will remain open for two weeks.
    So with that, the field hearing for the House Natural 
Resources Committee stands adjourned.
    [Whereupon, at 5:30 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [``Treaty Tribes Located in the State of South Dakota,'' 
Congressional Record, dated September 30, 2002, submitted for 
the record by John Yellowbird Steele, President, Oglala Sioux 
Tribe, Pine Ridge, South Dakota, follows:]
[GRAPHIC] [TIFF OMITTED] T6020.009

[GRAPHIC] [TIFF OMITTED] T6020.010

                               <all>

</pre></body></html>
